U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         INTERNATIONAL TRADE
              ADMINISTRATION

     CS Brazil Is Operating Well Overall
    But Needs Management Attention In
                            Some Areas

                               Final Inspection Report
                               IPE-18114/March 2007



              PUBLIC RELEASE



         Office of Inspections and Program Evaluations
                                                ~ ~
                                            ~~tU OF
                                           :t    )It ~
                                                      eo.,.
                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                              The Inspector General
                                                              Washington. D. C.   20230
                                              ~..TES ~ tI'




  MAR 3 0 2007



MEMORANDUM FOR:               Franklin L. Lavin
                              Under Secretary for International Trade

                              Michelle O' Neill
                              Deputy Under Secretary for International Trade

                              Israel Hernandez
                              Assistant Secretary for Trade Promotion and Director General of


FROM:

SUBJECT:
                                    ler
                                the United States & Foreign Commercial Service

                              Johnnie E. Fr


                              Final OIG Report                         d-


                              CS Brazil Is Op ng Well Overall But Needs ~agement Attention
                                In Some Are PE- 18114)
As follow-up to our January 2007 draft report , we are pleased to provide you with the final report on
our inspection of CS operations in Brazil. Thank you for your comments on the draft report. We also
received comments from the Director of the National Institute of Standards and Technology, the
Acting Under Secretary for Industry and Security, and the Director of the Office of Enforcement for
the U. S. Patent and Trademark Office. We have considered these comments in preparing our final
report and have attached them in their entirety as appendices to the report.

Our report higWights how CS Brazil and its staff operate well for a large , diverse post , but we note
some challenges exist related to the post's management structure and allocation of office resources.
We also question the validity of some export successes as they relate to CS' mission to promote U.
exports and found that the post's response to budget cuts may impact its overall performance.
addition, we identified some discrepancies in the ITA and CS accounting reports and found some
administrative policies that were not being followed. Finally, export control end-use checks and post
security matters are addressed in the appendices (For Official Use Only)  to the report.

We are pleased to note that ITA and CS have already taken or are planning to take actions to address
most of our recommendations. The speed with which you have moved on several specific
recommendations to strengthen CS management and CS Brazil operations has been quite impressive.
We request that you provide us with an action plan addressing the status of action on the
recommendations in our report within 60 calendar days.

We thank the personnel in IT A headquarters and CS Brazil for their assistance and the courtesies they
extended during our review. If you have any questions about our report
please call me at (202) 482-4661 or Jill Gross , Assistant Inspector
General for Inspections and Program Evaluations , at (202) 482- 2754.

Attachment
                                              ~~tU OF eo

                                        !'t
                                       /!I                       UNITED STATES DEPARTMENT OF COMMERCE
                                                                 The Inspector General
                                                                 Washington. D. C.   20230
                                               ~..TES ~ tI'
  MAR 3 0 2007



MEMORANDUM FOR:                William A. Jeffrey
                               Director
                               National Institute of Standards and Technology

FROM:                          Johnnie E.

SUBJECT:                       Final OIG Report
                               CS Brazil Is Ope               . g Well Overall But    Needs Management
                                 Attention In S               e Areas (IPE- 18114)

As follow-up to our January 2007 draft report , we are pleased to provide you with the final report
on our inspection of the Commercial Service s (CS) operations in Brazil. Thank you for your
comments on the draft report. We also received comments from the Deputy Under Secretary for
International Trade , the Director of the Office of Enforcement for the u.s. Patent and Trademark
Office , and the Acting Under Secretary for Industry and Security. We have considered these
comments in preparing our final report and have attached them in their entirety as appendices to
the report.

Our report highlights how CS Brazil and its staff operate well for a large , diverse post , but we
note some challenges exist related to the post' s management structure and allocation o~ office
resources. We also question the validity of some export successes as they relate to CS' mission
to promote U. S. exports and found that the post' s response to budget cuts may impact its overall
performance. In addition , we identified some discrepancies in the ITA and CS accounting
reports and found some administrative policies that were not being followed.

Our report also discusses the standards attache recently posted toCS Brazil. Given the
importance of the position and the fact that it was vacant for over two years , the attache will need
to commit considerable effort and time to redeveloping the South American standards attache
program and fulfilling the duties of the position. We are recommending that CS , ITA , and the
National Institute of Standards and Technology work together to identify measurable long-term
goals and resource commitments to support standards development in the Mercosul region and
for CS' Western Hemisphere regional standards program (see page 8 and recommendation 41).

We are pleased to note , as indicated in your response to our draft report , that NIST has already
taken or is planning to take action to address our recommendations. We request that you provide
us with an action plan addressing the status of action on the recommendations in our report
within 60 calendar days.


If you have any questions about our report , please call me at (202) 482- 4661 or Jill Gross
Assistant Inspector General for Inspections and
Program Evaluations , at (202) 482- 2754.

Attachment
                                         '\




                                               ~~tU OF eo

                                         !'t
                                       /!I                     UNITED STATES DEPARTMENT OF COMMERCE
                                                               The Inspector General
                                                               Washington, D. C.   20230
   MAR 3 0 2007                                 ~..TES ~ tI'




MEMORANDUM FOR:                Jon W. Dudas
                               Under Secretary of Commerce for Intellectual Property and
                                 Director of the United States Patent and Trademark Office

FROM:

SUBJECT:                       Final OIG Report
                               CS Brazil Is Ope f g Well Overall But Needs ~agement
                                Attention In S e Areas (IPE- 18114)

As follow-up to our January 2007 draft report , we are pleased to provide you with the final report
on our inspection of the Commercial Service s (CS) operations in Brazil. Thank you for your
comments on the draft report. We also received comments from the Deputy Under Secretary for
International Trade , the Director of the National Institute of Standards and Technology, and the
Acting Under Secretary for Industry and Security. We have considered these comments in
preparing our final report and have attached them in their entirety as appendices to the report.

Our report higWights how CS Brazil and its staff operate well for a large , diverse post , but we
note some challenges exist related to the post' s management structure and allocation of office
resources. We also question the validity of some export successes as they relate to CS' mission
to promote U. S. exports and found that the post' s response to budget cuts may impact its overall
performance. In addition , we identified some discrepancies in the ITA and CS accounting
reports and found some administrative policies that were not being followed.

Our report also discusses the new intellectual property legal expert that USPTO recently
assigned to Brazil. The exact nature of the attache' s regional duties is yet to be decided. We
recommend that USPTO work with CS to develop those regional responsibilities and ensure the
availability of support staff and adequate travel funds for the attache to pursue his mission (see
page 8 and recommendations 42 and 43).

We are pleased to note , as indicated in your response to our draft report , that USPTO has already
taken or is planning to take action to address our recommendations. We request that you provide
us with an action plan addressing the status of action on the recommendations in our report
within 60 calendar days.


If you have any questions about our report, please call me at (202) 482- 4661 or Jill Gross
Assistant Inspector General for Inspections and Program Evaluations , at (202) 482- 2754.

Attachment
                                        '\




                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             The Inspector General
                                                             Washington. D. C.   20230
                                             ~..TES ~ tI'




MAR 3 0 2007



MEMORANDUM FOR:                Mark F oulon
                               Acting Under Secretary for Industry and Security

FROM:                          Johnnie E.

SUBJECT:
                                                              Well Overall But Needs Management
                                                            Areas (IPE- 18114)

As follow-up to our January 2007 draft report , we are pleased to provide you with the final report
on our inspection of the Commercial Service s (CS) operations in Brazil. Thank you for your
comments on the draft report. We also received comments from the Deputy Under Secretary for
International Trade , the Director of the Office of Enforcement for the U. S. Patent and Trademark
Office , and the Director of the National Institute of Standards and Technology. We have
considered these comments in preparing our final report and have attached them in their entirety
as appendices to the report.

Our report highlights how CS Brazil and its staff operate well for a large , diverse post, but we
note some challenges exist related to the post's management structure and allocation of office
resources. We also question the validity of some export successes as they relate to CS' mission
to promote U. S. exports and found that the post' s response to budget cuts may impact its overall
performance. In addition , we identified some discrepancies in the ITA and CS accounting
reports and found some administrative policies that were not being followed. In Appendix D
(For Official Use Only), we discuss CS Brazil' s and BIS Sentinel teams ' performance of export
control end-use checks and export control training for CS officers.

Weare pleased to note that your response to our draft report provided a detailed discussion
related to our concerns regarding end-use checks. As such , we consider this recommendation
closed. If you have any questions about our final report , please call me at (202) 482- 4661 or Jill
Gross , Assistant Inspector General for Inspections and Program Evaluations , at (202) 482- 2754.

Attachment
                                         ~~tU OF Cn.
                                                . -w
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       The Inspector General
                                                       Washington. D. C.   20230




     MAR 3 0 2007



MEMORANDUM FOR:                Otto J. Wolff
                               Chief Financial Officer and Assistant Secretary for Administration

                              David Bell


FROM:

SUBJECT:
                              Johnnie E. Fr


                              Final OIG Report
                                                 ier
                              Acting Director for Security




                              CS Brazil Is Operaf g Well Overall But Needs Management
                               Attention In So Areas (IPE- 18114)

As follow-up to our January 2007 draft report , we are pleased to provide you with the final report
on our inspection ofthe Commercial Service s (CS) ~perations in Brazil. We received
comments on the draft report from the Deputy Under Secretary for International Trade , the
Director of the Office of Enforcement for the u.s. Patent and Trademark Office , the Director of
the National Institute of Standards and Technology, and the Acting Under Secretary for Industry
and Security. We have considered these comments in preparing our final report and have
attached them in their entirety as appendices to the report.

Our report highlights how CS Brazil and its staff operate well for a large , diverse post , but we
note some challenges exist related to the post' s management structure and allocation of office
resources. We also question the validity of some export successes as they relate to CS' mission
to promote U. S. exports and found that the post's response to budget cuts may impact its overall
performance. In addition , we identified some discrepancies in the ITA and CS accounting
reports and found some administrative policies that were not being followed. Finally, export
control end-use checks and post security matters are addressed in the appendices    (For Official
Use Only)   to the report.

We draw your attention to Appendix E in which we discuss security issues involving CS Brazil.
This section also includes ITA' s response on security matters discussed in our draft report and
notes how CS is working with your office to help address our concerns. If you have any
questions about our report , please call me at (202) 482- 4661 or Jill Gross , Assistant Inspector
General for Inspections and Program Evaluations , at (202) 482- 2754.

Attachment
U.S. Department of Commerce                                                                                       Final Report IPE-18114
Office of Inspector General                                                                                                  March 2007

                                                              CONTENTS
SUMMARY..................................................................................................................................... i
BACKGROUND .............................................................................................................................1
OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................................4
OBSERVATIONS AND CONCLUSIONS ....................................................................................6
I.     CS Brazil’s Management Structure Presents Special Challenges for a Diverse Post..............6
        A.      The placement and responsibilities of the SCO, DSCO, and Sao Paulo PCO
                need to be reevaluated....................................................................................................6
        B.      The regional responsibilities for Commerce’s standards attaché and IPR
                attaché are not adequately defined.................................................................................8
        C.      A local office director in Belo Horizonte provides an effective management
                alternative.....................................................................................................................10
II.     Allocation and Management of the Post’s Office Resources Need Attention......................13
        A.      CS management should develop a strong marketing plan to increase U.S.
                business awareness of CS Brazil offices and export opportunities in Belo
                Horizonte, Brasilia, and Porto Alegre..........................................................................13
        B.      CS Management should carefully consider whether to place staff in Recife ..............16
        C.      CS Brazil’s industry distribution and team operations do not effectively foster
                staff cooperation and market opportunities..................................................................17
III. CS Brazil Export Successes Require Increased Management Attention ..............................21
        A.      CS Brazil’s export successes were inflated .................................................................21
        B.      A number of CS Brazil’s export successes appear invalid or questionable.................22
        C.      CS Brazil is not fully complying with the established quality control process
                for export successes .....................................................................................................25
IV. CS Brazil Responded to Budget Cuts by Adjusting Its Programmatic Priorities to
    Increase Collections ..............................................................................................................29
        A.      CS Brazil’s fixed costs for local staff have dramatically increased.............................29
        B.      Travel budget reductions significantly limit CS Brazil’s outreach and staff
                travel to constituent posts.............................................................................................30
        C.      Increased emphasis on trust fund collections may impact the post’s overall
                performance .................................................................................................................31
V.      CS Brazil’s Products, Services, and Outreach Have Increased but Some
        Improvements Are Needed ...................................................................................................34
        A.      Products and services are not increasing at the same rate as collections.....................34
U.S. Department of Commerce                                                                                      Final Report IPE-18114
Office of Inspector General                                                                                                 March 2007

       B.      Market research reports are professional and very informative...................................36
       C.      CS Brazil’s English web site could be improved.........................................................37
       D.      CS Brazil clients are generally satisfied with the post’s products and services,
               but indicate some dissatisfaction with post-sponsored events.....................................39
       E.      “Retail Brazil” falters following a moderately successful pilot program ....................40
       F.      The Network U.S.A. program’s effectiveness is declining .........................................42
VI. CS Brazil’s Relationships with U.S. Trade Promotion Agencies and External
    Stakeholders Are Complex ...................................................................................................46
       A.      CS Brazil’s external stakeholders form a challenging environment for U.S.
               exporters.......................................................................................................................46
       B.      CS Brazil continues to improve its coordination with U.S. government
               agencies........................................................................................................................47
VII. Financial and Administrative Operations Are Generally Sound, but a Few Areas
     Require Additional Attention................................................................................................49
       A.      Discrepancies in post and headquarters accounting reports and inventory
               records should be reconciled........................................................................................49
       B.      CS Brazil could further decrease its ICASS charges ...................................................52
       C.      Class B cashier and subcashiers may not be necessary at collocated posts.................53
       D.      Federal and local policies for gifts and bequests and travel vouchers and
               advances should be followed .......................................................................................55
       E.      CS Brazil should establish a uniform telephone reimbursement policy ......................56
       F.      CS Brazil and ITA officials are not adequately tracking acquisition training
               for government purchase card holders.........................................................................57
SUMMARY OF RECOMMENDATIONS ...................................................................................61
APPENDIX A. ITA’s Response to OIG Draft Report .............................................................. A-1
APPENDIX B. NIST’S Response to OIG Draft Report.............................................................B-1
APPENDIX C. USPTO’s Response to OIG Draft Report..........................................................C-1
APPENDIX D. Commerce Export License End-Use Checks in Brazil
            (For Official Use Only) Includes BIS’ Response to Draft Report................... D-1
APPENDIX E. CS Brazil’s Physical and Personnel Security (For Official Use Only)
            Includes ITA’s Response to Draft Report.........................................................E-1
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                             March 2007

                                          SUMMARY

The U.S. and Foreign Commercial Service (CS) of the International Trade Administration (ITA)
works closely with American businesses as well as federal, state, local, and nongovernmental
trade partners to make companies aware of export opportunities and increase U.S. sales abroad.
With offices in more than 80 countries and 107 domestic cities, CS plays a major role in
promoting U.S. exports to foreign markets.

The U.S. Department of Commerce’s Office of Inspector General conducted an onsite inspection
of CS Brazil’s five offices in June 2006. The field inspection and subsequent follow-up review
in Washington, D.C., conducted through October 2006, focused on the offices’ management,
program operations, and financial and administrative practices. This included a review of
records, supporting documentation, and fiscal reports both in Washington and at each CS Brazil
office. We also met with Commerce officials at the overseas offices and headquarters,
representatives of other relevant U.S. government agencies, and ITA’s key nongovernmental
partners and business clients in the U.S. and Brazil.

We found that CS Brazil is a large, diverse post that provides valuable assistance to U.S.
companies and collaborates well with most other relevant trade promotion agencies, key U.S.
government offices, and nongovernmental organizations despite complications that make
relationships difficult in some cases. The post has increased its export successes; however, we
identified some questionable claims for this performance measure. CS Brazil’s financial and
administrative practices appear generally sound, but we found some reporting discrepancies and
oversight concerns that warrant management attention. Specifically, we found:

CS Brazil’s Management Structure Presents Special Challenges for a Diverse Post. CS
Brazil’s senior commercial officer (SCO), deputy senior commercial officer (DSCO), and seven
commercial officers—including two principal commercial officers (PCO), a standards expert and
a newly posted intellectual property rights (IPR) attaché—are responsible for a diverse portfolio
of programs and services. We found the current officer structure, including the duty locations,
presents many challenges in a geographically dispersed and diverse country such as Brazil. The
SCO is stationed in Sao Paulo (Brazil’s business hub) and the DSCO is in Brasilia (Brazil’s
capital and the location of the U.S. embassy in Brazil). As a result, the SCO is primarily
performing outreach with the Sao Paulo business community, while the DSCO manages day-to-
day relations with the ambassador and other U.S. embassy officials. The PCO in Sao Paulo
oversees a majority of CS’ core programs and services in Brazil, principally because Sao Paulo
produces most of the products and services. In most posts, this is the responsibility of the SCO
and DSCO. Another management challenge that we noted involves the regional standards and
intellectual property experts. CS recently posted a new South American regional standards
expert in Sao Paulo who is responsible for educating local stakeholders on U.S. standards and
encouraging U.S. participation in the development of new South American standards. CS’ new
IPR attaché started in September 2006 and will provide expertise, training, and guidance to a
number of U.S. agencies promoting effective IPR protection in Brazil and the region. However,
the experts’ roles in Brazil and the region were not fully developed at the time of our inspection.
Finally, in Belo Horizonte, CS hired a local American instead of an officer to manage the CS




                                             i
U.S. Department of Commerce                                                                 Final Report IPE-18114
Office of Inspector General                                                                            March 2007

office. This is a viable management option that could be useful at other CS constituent posts (see
page 6).

Allocation and Management of the Post’s Office Resources Need Attention. CS Brazil is a
large, dynamic post with operations servicing a country only slightly smaller than the continental
United States. In 2004, the ambassador requested that CS place staff at the U.S. consulate in
Recife—located in the northeast—however CS has not yet taken action on that request. Rather
CS has traditionally relied on its Belo Horizonte office to serve northeastern Brazil. Reportedly,
since our visit to post, a senior CS headquarters official has visited post to explore the Recife
office option. We also found that CS’ offices in Belo Horizonte, Brasilia, and Porto Alegre
experience some difficulty attracting U.S. exporters and promoting commercial opportunities in
these regions even though together they produce nearly one-third of Brazil’s GDP.1 In addition,
CS Brazil’s staff is responsible for 50 industry sectors and subsectors, which it manages through
teams. However, we question the actual effectiveness of the post’s industry teams and this many
sectors because we found (1) poor coordination, (2) rivalry among team members combined with
(3) a limited focus on specific sectors (see page 13).

CS Brazil Export Successes Require Increased Management Attention. CS’ primary
performance goal is to “expand [the] U.S. exporter base.” Accuracy and integrity of the export
success data reported toward this goal are paramount to assessing the effectiveness of CS’ export
promotion efforts, especially since this metric is reported to both Congress and the Office of
Management and Budget as a performance measure. CS Brazil has reported fluctuating numbers
of export successes over the past few years, starting with 593 in FY 2004, jumping to 659 in FY
2005 but dropping to 565 in FY 2006. We found that many claims are invalid or do not appear
to meet CS guidelines for claiming an export success, and the post had inadequate verification
procedures in place to support claimed export success results.2 Specifically, we found at least 72
export successes out of a sample of 907 reported in FY 2005 and FY 2006 do not appear to fit
the definition of a valid export success, as outlined in the CS Operations Manual, and an
additional 162 export successes appear questionable as to whether they meet the intent of CS’
mission. Specifically, CS Brazil claimed 137 export successes for renting booths to Brazilian
companies at trade shows in the U.S., even though the firms primarily sought to sell their
Brazilian products at the shows. The remaining 25 questionable export successes combined
booth sales with training services or claimed airline ticket sales without any indication of CS
value-added service, among others (see page 21).

CS Brazil Responded to Budget Cuts by Adjusting its Programmatic Priorities to Increase
Collections. The post’s operating and administrative budget has changed significantly over the
last three years. CS reported that continuing reductions in its overall budget, forced it to reduce
some aspects of CS Brazil’s budget (as well that of some other posts) as other fixed expenditures
increased, such as non-officer personnel costs and short-term leases at the post level.

1
  Brazil’s Institute of Geography and Statistics states that the combined GDP of Minas Gerais, Distrito Federal,
Goiás, Rio Grande do Sul, Santa Catarina, and Paraná states account for 32 percent of Brazil’s GDP.
http://www.ibge.gov.br/home/estatistica/economia/pibmunicipios/2003/tab01.pdf
2
  According to CS’ Operations Manual, staff should maintain adequate support documentation for CS officers to
review, and then CS officers must ascertain the veracity of those export successes to ensure that the post reports
valid and justified export successes.


                                                     ii
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                             March 2007

Specifically, from FY 2004 to 2006, CS Brazil’s operating and administrative budget increased
from $2.3 million to $2.8 million, due to rising fixed expenditures such as personnel costs and a
fluctuating exchange rate. However, as a result of the large fixed cost increase, CS headquarters
reduced the post’s discretionary budget by 63 percent from $689,496 to $254,921 during the
same period.3 This affected spending for direct program support (travel and supplies), furniture
and equipment, and hospitality expenses. The post’s travel budget alone was reduced from
$169,156 to approximately $83,443 in FY 2006.4 However, only $26,443 of the FY 2006 budget
was actually available to fund travel for outreach and program support because the remaining
amount was designated for the CS Brazil All-Hands Conference ($42,800) and officer training
expenses ($14,200). As a result of these budget changes, the post’s outreach to other regions in
Brazil was limited so it is now emphasizing the need for trust fund collections to supplement its
discretionary budget for travel and outreach. However, this push to increase collections may be
affecting other CS priorities and the types of products and services the post is able to provide
(see page 29).

CS Brazil’s Products, Services, and Outreach Have Increased but Some Improvements Are
Needed. The post is active and provides clients with many products and services. It also
participates in numerous trade events. From FY 2005 to FY 2006, CS Brazil increased its
overall performance of products and services from 241 to 267. Most notably, CS increased its
business facilitation services by 126 percent (from 38 to 86). Despite CS Brazil’s current level
of productivity, we are concerned that its increased involvement in certain types of services may
limit the post’s ability to promote other CS products and services to U.S. exporters. We found
that the staff performance goal system may be encouraging CS Brazil staff members to focus
their efforts on trust fund collections rather than increasing the number of traditional products
and services it provides. For example, customized market research, Gold Key services, and
official and post-initiated events all decreased from FY 2005 to FY 2006 but collections
increased 76 percent. In addition, while we found the post’s market research reports are
generally well-written, efforts to increase unplanned market research should be expanded.
Generally, we found customers were satisfied with the post’s products and services but some
improvements in planning and executing catalog shows are needed (see page 34).

Some of the post’s outreach efforts to attract U.S. exporters to the region are not very effective.
The 2004-2005 pilot program “Retail in Rio” offered opportunities for numerous U.S. companies
to display their products in local Brazilian retail stores and trade shows. However, the program’s
expanded country-wide version, “Retail Brazil,” is not attracting similar numbers of U.S.
exporters and may not see significant results. Similarly, the framework of the original Network
U.S.A. program—a network of 49 Brazilian and Paraguayan partners and associations that
electronically extends CS Brazil’s presence in areas without CS representation—may not
currently meet the needs of the local business environment and U.S. exporters, considering that
most of the program’s reported export successes relate to Brazilian companies selling their
products in the U.S. (see page 34).

CS Brazil’s Relationships with U.S. Trade Promotion Agencies and External Stakeholders
Are Complex. The Brazilian market is challenging for U.S. exporters, but the post works with

3
    As of April 2006.
4
    As of October 2006.


                                            iii
U.S. Department of Commerce                                                           Final Report IPE-18114
Office of Inspector General                                                                      March 2007

at least 24 U.S. Export Assistance Centers to present webinars—virtual web-based counseling—
on doing business in Brazil and coordinate logistics for international buyer delegations. The post
also coordinates with CS headquarters to promote Brazil as a “featured” export market. In
addition, the post generally works well with the other members of the U.S. mission in Brazil to
foster bilateral trade. But despite these efforts, the post still faces some challenges in
coordinating efforts with external stakeholders and some U.S. trade-related agencies, including
the American Chamber of Commerce and the U.S. Department of Agriculture’s Foreign
Agricultural Service (see page 43).

Financial and Administrative Operations Are Generally Sound, but a Few Areas Require
Additional Attention. In general, CS Brazil’s financial and administrative operations appear
sound, but some areas need improvements. The post closely monitors its use of State
Department-provided International Cooperative Administrative Support Services (ICASS),
tracks its obligations and liquidations in eMenu, uses funds and purchase cards appropriately,
and uses CS vehicles only for official business. However, we had difficulty tracking the post’s
financial data because of the many discrepancies between financial reports located on eMenu,
accounting reports obtained from ITA, and various other supporting documentation. There is a
need for a consolidated report that provides a clear financial picture of the post. We also found
further steps could be taken to reduce ICASS costs, a Class B cashier may not be necessary in
Sao Paulo, and minor issues were noted with subcashiers. In addition, gift and bequest and
travel voucher and travel advance policies and practices need to be followed. For example, we
found gift and bequest documentation5 (1) was not submitted within the required timeframe, (2)
did not include all required information, and/or (3) was not approved by the appropriate
manager. We also found that a uniform telephone reimbursement policy is needed, some
unliquidated obligations should be examined for possible deobligation, and training records for
purchase card holders were not available to enable managers to verify that all card holders and
approving officials have received required acquisition training (see page 49).

The report also has two limited distribution (For Official Use Only) appendices that contain
sensitive information. Appendix D discusses CS Brazil’s export license end-use checks in Brazil
in support of the Department’s Bureau of Industry and Security (BIS). Appendix E addresses the
post’s physical security controls and personnel security.

On page 61, we list a summary of our recommendations to ITA, CS, the National Institute of
Standards and Technology (NIST), and the U.S. Patent and Trademark Office (USPTO). The
two appendices also contain recommendations, on pages D-4 and E-2.



ITA, USPTO, NIST, and BIS Responses to OIG Draft Report and OIG Comments

In responding to our draft report recommendations, the Deputy Under Secretary for International
Trade noted the numerous actions that ITA and CS have taken or plan to take to ensure a more
effective CS Brazil operation. ITA concurred with nearly all of our recommendations and

5
 This included the CD-210, Record of Gift or Bequest; SF-362, Semiannual Report of Payments Accepted from a
Non-Federal Source; and letters of commitments from the company outlining the gift and bequest.


                                                 iv
U.S. Department of Commerce                                                    Final Report IPE-18114
Office of Inspector General                                                               March 2007

provided in its response detailed strategies, action plans, or program assessments to address our
findings. With respect to our concern about export success claims for recruiting Brazilian
companies to participate in U.S. trade shows to sell their foreign products, ITA stated that it will
take this under advisement as CS considers U.S. trade show organizations as a legitimate part of
the American services sector. ITA’s response included an in-depth discussion of the new
management structure to be implemented at post, including updated roles and responsibilities for
the SCO, DSCO, and PCO. Many of the issues addressed in our report were discussed at the CS
Brazil October 2006 All-Hands Conference, along with a list of draft recommendations that we
provided for that meeting, the post continues to make improvements. Specifically, the post is
working on a revised strategic plan to better leverage market presence around Brazil. It is also
implementing a new industry team structure to enhance cooperation among staff and developing
a system to clarify the trust fund collection and disbursement process. In addition, ITA’s Office
of Financial Management and CS are reviewing the Class B cashier’s operation in Sao Paulo,
and together with the State Department they are working to improve the reliability of eMenu and
ITA accounting reports.

Based on recommendations in this report and previous OIG reports, ITA stated that it will
continue to work on improving CS’ export success program. One of our recommendations
addressed the definition of an invalid export success as it relates to promoting U.S. trade show
booth space to foreign companies. In response to the recommendation, ITA stated it will take
our recommendation under advisement as it evaluates the entire export success program. The
Office of Financial Management instituted an independent export success verification process in
the domestic field and will implement the program at selected overseas posts in fiscal year 2007.
In addition, ITA will conduct an in-depth program evaluation of export successes and the export
success business process to assess the planning, collection, and reporting functions and evaluate
the workload, costs, benefits, and contribution of export successes to CS’ mission and function.
We acknowledge ITA’s efforts to examine the appropriateness of export success metrics as they
relate to the current CS mission and ask that ITA provide additional information on this initiative
in its action plan.

The USPTO also provided a response to our draft report. It has created a Latin America
Regional Team to support the new IPR attaché and together with CS and the attaché, is
developing an action plan for the region. In addition, it reported that funding for support staff
and travel have already been approved. We appreciate USPTO’s responsive efforts to help
ensure an effective IPR attaché program in Brazil.

NIST concurred with the recommendations in our draft report addressing the standards attaché.
Specifically, NIST stated that it is working with ITA’s Office of the Standards Liaison and CS to
develop long-term goals for the standards attaché and an action plan for a long-term standards
strategy for South America. We also acknowledge NIST’s and the Office of the Standards
Liaison’s active roles in the U.S.-Brazil Commercial Dialogue and their efforts to exchange
information with Brazil on standards, conformity assessment, and technical regulations.

BIS responded to our recommendation made in the limited distribution report appendix on export
controls (For Official Use Only). Its detailed response is attached to that section. (See appendix
D.)



                                             v
U.S. Department of Commerce                                                Final Report IPE-18114
Office of Inspector General                                                           March 2007


We discuss the ITA, USPTO, NIST, and BIS responses to our findings and recommendations in
greater detail at the end of each chapter and in the appendices. Our final report also includes
each bureau’s entire response in appendices to this report.




                                           vi
U.S. Department of Commerce                                                               Final Report IPE-18114
Office of Inspector General                                                                          March 2007

                                              BACKGROUND

                        Brazil has the largest economy in Latin America and is the 14th largest
                        U.S. trading partner. 6,7 In 2005 the U.S. exported a total of $15.3
                        billion in products and services to Brazil while its imports from Brazil
                        totaled $24.4 billion.8 Brazil’s expanding presence in world markets is
                        supported by well developed agricultural, mining, manufacturing, and
                        service industries. The country’s economy continues to grow but still
remains vulnerable to economic risks and international disputes over illegal activities in the tri-
border area of Argentina, Brazil and Paraguay.9

The International Trade Administration’s Commercial Service (CS)10 provides market research,
trade event promotion, counseling, and customized products and services for U.S. companies,
primarily small and medium-sized businesses. CS Brazil is one of the largest CS overseas posts,
with offices in Belo Horizonte, Brasilia, Porto Alegre, Rio de Janeiro, and Sao Paulo. The post
has 8 American foreign service officers and 48 local staff.

The senior commercial officer, a principal commercial officer, two commercial officers, the
regional standards officer, an intellectual property rights officer (who started in September
2006), and 30 foreign service national employees are stationed in CS Brazil’s largest office at the
U.S. consulate in Sao Paulo, the hub for Brazil’s
                                                        Figure 1. Brazil’s Economic Profile (2005)
business activity. The deputy senior commercial
officer, a junior commercial officer and five FSNs               Key Statistics for Brazil 2005
are stationed at the U.S. embassy in the capital           GDP:             $1.556 trillion
city of Brasilia. The Rio de Janeiro office has a          GDP  per capita: $8,400
                                                           GDP growth:      2.4 percent
PCO and seven local staff and is collocated in the         Population:      188,078,227
U.S. consulate. The CS Belo Horizonte office is            Unemployment: 9.8 percent
collocated with a local trade association and has a        Leading exports: transport equipment, iron
local hire American office director who manages                             ore, soybeans, footwear,
four local staff. Porto Alegre is a single-person                           coffee, and autos
                       11                                  Leading imports: machinery, electrical and
office run by an FSN.                                                       transport equipment,
                                                                                 chemical products, and oil
                                                               Source: CIA World Fact Book (2006)




6
  According to the CIA’s The World Factbook, Brazil’s GDP purchasing power parity is $1.556 trillion.
7
  U.S. Census. Bureau, Top Trading Partners (Total Trade, Exports, Imports) as of June 2006,
http://www.census.gov/foreign-trade/statistics/highlights/toppartners.html, August 31, 2006.
8
  U.S. Census Bureau, Foreign Trade Statistics, Trade in Goods (Imports, Exports, and Trade Balance) with Brazil,
http://www.census.gov/foreign-trade/balance/c3510.html, September 8, 2006.
9
  CIA, The World Factbook - Brazil, https://www.cia.gov/cia/publications/factbook/print/br.html, August 31, 2006.
10
   CS is also known as the U.S. Foreign and Commercial Service.
11
   After our onsite inspection, the Porto Alegre FSN resigned from the position and has not been replaced.


                                                        1
U.S. Department of Commerce                                                            Final Report IPE-18114
Office of Inspector General                                                                       March 2007

Network U.S.A.                            Figure 2. Network U.S.A. Partners
In 1998 CS Brazil established the
Network U.S.A. (NUSA) program to
extend CS Brazil’s presence through
an electronic network to much of
Brazil and Paraguay without CS
officer or staff presence. The
network is composed of 49 partner
organizations, such as American                                                ●   Brasilia

Chambers of Commerce and                  ● CS offices in Brazil                                Belo
                                          ● NUSA Partners                               ●
Brazilian trade associations, in 38                                                             Horizonte
                                                                               ●         ●
Brazilian cities and 2 cities in                                                              Rio de Janeiro
                                                  2 partners in Paraguay       Sao Paulo
Paraguay (see Figure 2).
                                                                           ●
                                                                      Porto Alegre
CS Brazil sends a monthly electronic
newsletter, called NUSA Hot Mail, to
its NUSA partners for them to             Source: Commercial Service
disseminate to their members. NUSA
Hot Mail includes hyperlinks to the Portuguese version of CS Brazil’s web site, Focus Brazil,
where interested parties can find more detailed information on specific U.S. companies looking
for partners to enter the Brazilian market, upcoming International Buyer Programs (IBPs) to the
U.S. or trade shows in the U.S., and NUSA Road Shows (reverse industry trade missions to the
U.S.).

The U.S. - Brazil Commercial Dialogue

In November 2005, President Bush and Brazilian President Luiz Inacio Lula da Silva met in
Brazil and committed to strengthening commercial relationships between their two countries.
On June 6, 2006, the Secretary of Commerce and Brazil’s Minister of Development, Industry
and Trade, formally launched the U.S.-Brazil Commercial Dialogue in Rio de Janeiro. The
Secretary was accompanied by other Commerce officials, including the CS Brazil SCO, ITA’s
Assistant Secretary for Market Access and Compliance, the Deputy Director of the U.S. Patent
and Trademark Office, and the then Deputy Director of the National Institute of Standards and
Technology. They each participated in at least one of the four working committees—business
facilitation, export and investment promotion, intellectual property protection, and standards—to
develop action items to stimulate economic and business cooperation between the two countries.

The business facilitation group focused on the competitive advantage of moving goods
efficiently across borders and sharing best practices, including regulatory and business
facilitation efforts. The export and investment promotion group emphasized the importance of
timely and accurate economic data and the exchange of technical and trade promotion best
practices between the two nations.

The intellectual property group emphasized the importance of the intellectual property system to
trade, innovation, and investment. In an effort to recognize its impact on the economies of both



                                                  2
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

countries, the Secretary and Minister agreed to enhance technical cooperation on patents and
trademarks. Brazil is one of 13 countries listed on the U.S. Trade Representative’s 2006 Special
301 priority watch list because it does not provide adequate levels of intellectual property rights
protection, enforcement, or market access for entities relying on IPR protection in the country.
The USPTO recently posted an IPR attaché in Sao Paulo who will be the point of contact
between USPTO and its Brazilian counterpart, Instituto Nacional da Propriedade Industrial
(INPI) and promote intellectual property protection in Brazil and regionally, where appropriate.
In addition, Commerce is tentatively planning for a delegation from USPTO to visit INPI in 2007
to discuss trademark examination practices and new examiner training.

The standards group highlighted a commitment to innovation and growth. NIST and Brazil’s
National Institute of Metrology, Standardization, and Industrial Quality (INMETRO), in
coordination with the private sector, will begin to exchange information and strengthen
standards, conformity assessment and technical regulations in the coming year. Technical
standards are one of the major barriers to trade that U.S. exporters face in the Brazilian market.
NIST and ITA continue to partner to protect U.S. interests and help foster a better understanding
of U.S. standards within the local business community and among Brazil’s stakeholders. NIST’s
Global Standards Program is involved in many standards-related activities in the western
hemisphere. However, one of its primary goals in the hemisphere is to provide coordination for
the numerous standardization activities that are taking place. The CS regional standards attaché
working in Sao Paulo will play a pivotal role in helping coordinate discussions between NIST,
INMETRO, and various U.S. and Brazilian standards organizations to address standards
development in Brazil and technical barriers for U.S. exporters.

In November 2006, the Secretary and Minister convened in Washington, D.C. for the second
meeting of the Commercial Dialogue. They continue to work to improve bilateral economic and
business relations, including encouraging the public and private sectors to increase and diversify
the bilateral flow of goods and services. According to ITA officials, some of the commitments
since the first meeting in June 2006 include enhanced technical cooperation on patents and
trademarks, standards, conformity assessment, and technical regulations. In addition, they have
reportedly made progress on best practice initiatives for business registration and entrepreneurial
and venture development and hope to continue to deepen bilateral trade and investment ties in
the future.




                                                 3
U.S. Department of Commerce                                                           Final Report IPE-18114
Office of Inspector General                                                                      March 2007

                         OBJECTIVES, SCOPE, AND METHODOLOGY

Our office conducted an inspection of CS operations in Brazil to assess the effectiveness of its
management, programs, and financial and administrative practices. The inspection was
conducted under the authority of the Inspector General Act of 1978, as amended, Departmental
Organization Order 10-13, dated August 16, 2006, and in accordance with the 2005 Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency.
Specifically, we sought to determine whether CS Brazil:

     •   Plans, organizes, and manages its work and resources effectively and efficiently;
     •   Meets the needs of U.S. exporters, including adequate follow-up with clients, and
         operates its programs efficiently;
     •   Maintains appropriate internal controls and financial management practices;
     •   Actively participates in trade compliance, intellectual property protection, and market
         access efforts, and collaborates with other Commerce and U.S. embassy components and
         trade partners, including USPTO and NIST;
     •   Performs export control/end-use check activities in cooperation with the Bureau of
         Industry and Security;
     •   Adequately addresses infrastructure issues at post, including information technology,
         security, and other issues concerning facilities; and
     •   Provides appropriate training and support for CS officers and foreign national staff.

To accomplish our objectives, we:

     •   Interviewed appropriate Commerce and CS headquarters personnel;
     •   Interviewed most Commerce staff at CS Brazil;
     •   Interviewed the U.S. Deputy Chief of Mission in Brazil12, the Consul Generals in Rio de
         Janeiro and Sao Paulo, and other members of the U.S. mission in Brazil, including U.S.
         State Department consular, administrative, economic, and security officials and
         personnel, the U.S. Department of Agriculture’s Foreign Agricultural Service, and U.S.
         Department of Defense officials in Brazil;
     •   Interviewed staff members at various U.S. export assistance centers (USEACs);
     •   Interviewed representatives of other federal agencies in Washington, D.C., trade partner
         associations and foreign companies, including staff and members of several American
         Chambers of Commerce in Brazil, the Federation of Industries in Brazil, and several CS
         Brazil clients;
     •   Contacted a number of clients that utilized different CS Brazil services;
     •   Reviewed appropriate documents containing FY 2005 and FY 2006 export success
         performance data;
     •   Examined pertinent files and records relating to the post’s internal controls and financial
         and administrative management, including collections and deposits, imprest fund/petty
         cash, procurements, credit card usage, travel orders and vouchers, gifts and bequests,
         inventory, representation funds, international cooperative administrative support services

12
  There was no U.S. Ambassador to Brazil during our onsite inspection. The new U.S. Ambassador arrived in
Brazil in November 2006.


                                                      4
U.S. Department of Commerce                                               Final Report IPE-18114
Office of Inspector General                                                          March 2007

       (ICASS), and use of government property for fiscal years 2004 and 2005.

We conducted our review from May 3 to October 31, 2006, with onsite work in Brazil from June
12 to June 30, 2006.

During our review, we discussed our findings with the CS Brazil SCO, DSCO, and senior
embassy officials. Upon our return to Washington, D.C., we also discussed our findings with
ITA’s Deputy Under Secretary, the Assistant Secretary and Director General of the U.S. and
Foreign Commercial Service, the Deputy Assistant Secretary for International Operations, and
other CS and ITA staff members.




                                              5
U.S. Department of Commerce                                                       Final Report IPE-18114
Office of Inspector General                                                                  March 2007

                            OBSERVATIONS AND CONCLUSIONS

I.      CS Brazil’s Management Structure Presents Special Challenges for a Diverse Post

Management of a large trade promotion program in such a geographically dispersed and diverse
country as Brazil is a challenge that is made even more difficult by the current placement of CS’
eight officers. Another management challenge is to fully develop the regional responsibilities of
the new Sao Paulo-based South American regional standards attaché and the intellectual property
rights attaché—a new position staffed by the U.S. Patent and Trademark Office. In addition, the
successful operation of CS’ Belo Horizonte office, which is managed by a local hire American
who represents CS within the region, may be a model for other posts around the world.

A.      The placement and responsibilities of the SCO, DSCO, and Sao Paulo PCO need to be
        reevaluated

CS posts are traditionally structured with an SCO, DSCO, and commercial officers in the
embassy and a principal
commercial officer managing                                       SAO PAULO
                                                                    SCO/PCO
CS operations at any U.S.                                       3 other Officers*
consulate and/or constituent                                      30 FSN/PSA
                                                                   35 TOTAL
post. In countries with more                                     *As of June 2006
than one CS office, the SCO
is expected to coordinate the
post’s resources to benefit              PORTO                                                BRASILIA
U.S. exporters and ensure               ALEGRE                                                  DSCO
                                       No Officers                                          1 other Officer
teamwork among constituent             1 FSN/PSA                                             5 FSN/PSA
                                                                   CS BRAZIL
posts. In addition, the SCO             1 TOTAL
                                                                    8 Officers
                                                                                              7 TOTAL
usually handles top level                                         48 FSN/PSA
                                                                   56 TOTAL
relations with the American                                            As of
and foreign business                                               June 7, 2006

communities and is the
primary CS contact with the
U.S. Ambassador and the
Deputy Chief of Mission.                                                            RIO DE
                                                       BELO
                                                                                   JANEIRO
The DSCO ordinarily                                HORIZONTE
                                                                                     PCO
                                                    No Officers
oversees the same activities                                                      7 FSN/PSA
                                                    5 FSN/PSA
                                                                                   8 TOTAL
and generally manages many                           5 TOTAL

of the post’s country-wide
program and administrative
activities. A PCO is
normally responsible for advancing U.S. commercial interests in a geographic region within a
country, in addition to managing a local CS office and its work activities.

In Brazil we found that neither the SCO, nor the DSCO, who arrived in Brazil in July 2003 and
April 2006 respectively, was fully engaged in the work being performed at each office or
effectively managing the post’s overall resources. Instead, the SCO focused much of his



                                                   6
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

attention on relationships with the business community. The Sao Paulo American Chamber of
Commerce (AmCham)—one of CS’ primary local partners—is one of the largest in the world,
and the SCO believes it requires constant attention to support an effective relationship.
However, most of the AmCham members are local Brazilian companies looking to export to the
U.S. market—not to import U.S. products. As a result, the SCO faces considerable difficulties
and challenges in his efforts to maximize export opportunities for U.S. small and medium-size
enterprises in the Brazilian market, while at the same time maintaining excellent relations with
the local business community.

In hopes of maximizing U.S. export opportunities, the SCO pays particular attention to the many
Brazilian companies headquartered in Sao Paulo and tries to meet with them regularly. He stated
that gaining access and building trust are key to an effective working relationship in Brazil. He
said he has more than 2000 business contacts, regularly talks with 200 of them, and that he
considers 50 to be close contacts. He also said that measuring the results of his outreach may be
difficult, but the relationships are fruitful. For example, he cited an instance when a U.S. trade
mission wanted to meet with a large Brazilian manufacturer. After several unsuccessful attempts
by the trade mission organizers and CS’ local staff, the SCO wrote a letter to the manufacturer
and within 24 hours a visit was scheduled.

Given these external demands, the SCO leaves daily management of CS Brazil to his staff. With
the SCO in Sao Paulo and the DSCO in Brasilia, neither the SCO nor DSCO actively coordinates
countrywide trade promotion strategy or program activities among CS Brazil’s five posts.
Instead, the PCOs and office directors determine many post-specific policies and set varying
performance standards. Additionally, CS Brazil generally suffers from low staff morale and a
lack of teamwork among the five CS offices, although some industry teams did actively engage
each other. These conditions can increase the potential for missed export opportunities for U.S.
exporters.

One reason why the DSCO may not be fully engaged in day-to-day management of CS Brazil is
because he is in Brasilia and spends most of his time managing CS’ relationship with the U.S.
embassy and responding to U.S. policy and advocacy matters. The SCO noted that because he is
not in Brasilia, it is even more important that the DSCO be available and responsive to the
Ambassador and DCM. For example, shortly after the DSCO arrived at post in April 2006, he
was tasked with coordinating the Secretary’s June 2006 visit to Brazil. The DSCO also manages
one officer and five local hires. Given the size of CS Brazil’s entire operation (five posts and 56
staff), the post needs a senior CS officer dedicating more time to CS Brazil’s overall strategic
direction.

However, having the DSCO located in Brasilia presents some additional challenges for strategic
management of the entire post. Most of CS Brazil’s products and services originate in Sao
Paulo. Effective management and oversight of these programs requires day-to-day contact with
the commercial specialists and commercial assistants performing these services, as well as onsite
attendance at some of the events. With more of a hands-on role, the DSCO would be in a better
position to suggest countrywide opportunities and promote improved coordination. In addition
to the large volume of program activity in Sao Paulo, the post is responsible for CS Brazil’s
administrative and financial management. CS Brazil’s administrative manager is in Sao Paulo



                                                 7
U.S. Department of Commerce                                                              Final Report IPE-18114
Office of Inspector General                                                                         March 2007

and is responsible for most non-program related activities. This includes overseeing budgets for
the five CS offices, corresponding with the State Department’s administrative and financial staff,
and managing administrative policies. It would not be cost or time efficient to send all the
documents to the DSCO in Brasilia for review.

Consequently, the SCO relies on the Sao Paulo PCO to run the operations and handle many
mission-wide responsibilities normally assumed by the DSCO in other posts. The SCO spoke
highly of the PCO’s capability and said he is a good administrator, allowing the SCO to build an
outreach network and manage at a high level. For example, the SCO liaisons with CS
headquarters on post and Washington initiatives. Given the level of internal responsibility the
PCO has at this post, combined with the SCO’s external affairs portfolio in Sao Paulo, it appears
the PCO is limited in his ability to perform more external activities, such as being the primary
CS representative at the consulate or meeting more frequently with the business community,
trade associations and local government officials. We recommend that CS evaluate the current
roles and responsibilities of the SCO, DSCO and Sao Paulo PCO to ensure the most effective use
of resources and management of country-wide programs.

B.      The regional responsibilities for Commerce’s standards attaché and IPR attaché are
        not adequately defined

CS Brazil plays an important role for the U.S. business community as countries in South
America develop or refine technical standards and explore intellectual property rights. CS has a
standards attaché in Sao Paulo who is responsible for            Figure 3. Mercosul Region
educating local stakeholders on U.S. standards and
encouraging U.S. participation in the development of new
South American standards. In addition, USPTO recently
assigned an intellectual property legal expert (IPR attaché) to
CS Brazil-Sao Paulo for a 2-year rotation.

At the time of our review, the Brazil standards attaché
position had been essentially vacant for more than 2 years.
One attaché left in February 2004 and the next officer held
only a brief appointment from mid-November 2004 to April
2005. CS eventually filled the position in April 2006 and
began redeveloping the attaché’s role.

Based on the post’s previous standards work in Brazil and the
Mercosul13 region, the SCO, DSCO, and the current standards
attaché developed the attaché’s work plan for 2006-2007.           Source: www.mre.gov.br
While the attaché has relatively little prior experience in
standards-related issues, the SCO tasked him with gaining a solid background on standards and
the influential standards organizations in Brazil, Europe, and the Mercosul region. To help
prepare him for this assignment, he participated in approximately six weeks of training before


13
  Mercosul (also referred to as Mercosur in Spanish) was established in 1991 as a customs union between Brazil,
Argentina, Uruguay and Paraguay.


                                                        8
U.S. Department of Commerce                                                     Final Report IPE-18114
Office of Inspector General                                                                March 2007

going to post. This included consultations with NIST, ITA’s standards liaison, and industry
representatives.

The SCO plans to have the attaché focus his regional efforts on Mercosul and its leadership. The
attaché will consult with Brazilian and Mercosul standards development organizations and
regulatory agencies to learn how each functions from a technical and political perspective. He is
also supposed to support Commerce’s Western Hemisphere Regional Standards Program
(WHRSP) and communicate the region’s standards-related issues to Commerce headquarters and
U.S. industry. However, the attaché told us at the time of our review that he does not consider his
standards role to require full-time attention and plans to engage in more traditional commercial
service work in the future. Given the SCO’s emphasis on the position and the fact that it was
vacant for over two years, the attaché will need to commit considerable effort and time to
redeveloping the South American standards attaché program and fulfilling the duties of the
position. We recommend CS headquarters and the SCO work with ITA’s standards liaison and
NIST to identify measurable long-term goals and resource commitments to support standards
development in the Mercosul region and the WHRSP, given the priorities placed on the attaché
position by ITA, CS headquarters, and the SCO.

Similarly, USPTO recently assigned an intellectual property legal expert to CS Brazil in
September 2006 (he arrived at post in early October). This is a new commercial officer position
and one of several IPR attachés posted around the world. As the Secretary recently reported,14
ensuring that America’s creativity and innovations are protected from counterfeiting and piracy
is a top priority. Intellectual property rights infringement costs U.S. companies billions of
dollars each year and threatens the livelihood of our nation and the world economy. To address
this priority, the attaché will provide expertise, training, advice, analysis, reporting, and guidance
on technical IPR issues to a number of U.S. agencies promoting effective IPR protection in
Brazil and the region, and will handle anti-piracy enforcement, patent protection, and
international IPR issues.

At the time of our review, the exact nature of the IPR attaché’s regional duties was yet to be
decided. The regional role is at least one reason why the attaché will be located in Sao Paulo.
According to a State Department policy, all U.S. government offices in Brazil that cover various
countries in the region must be located at the consulate in Sao Paulo or the embassy in Brasilia.
However, USPTO’s Brazilian counterpart, the Instituto Nacional da Propriedade Industrial
(INPI), is located in Rio de Janeiro, at least a one hour plane ride from Sao Paulo. According to
USPTO, the regional attaché’s duties will be developed “over the next couple of years,” and the
physical location of the attaché will require sufficient staff support and travel funds to travel to
Rio de Janeiro for meetings with INPI and other regional locations. Thus, we recommend CS
work with USPTO to develop achievable regional responsibilities and ensure the availability of
adequate staff support and travel funds for the attaché. IPR protection is a serious issue in
Brazil. The attaché will need a clear framework to further advance the department’s IPR
initiative and both USPTO’s and CS’ missions, including the need to educate U.S. companies on
how to protect their IPR and work with the Brazilian and regional officials on the importance and
implementation of IPR protection.


14
     http://www.stopfakes.gov/pdf/DOC_STOP_Brochure_3.pdf


                                                    9
U.S. Department of Commerce                                                                     Final Report IPE-18114
Office of Inspector General                                                                                March 2007

C.         A local office director in Belo Horizonte provides an effective management alternative

CS considered closing its Belo Horizonte office when the commercial officer left in 2005
because of the expense associated with placing an officer in the position. To continue operating
in the region and to avoid the high expense of posting an American officer, CS hired a local
American as the Belo Horizonte office director. Educated in business and fluent in Portuguese,
the current office director has numerous contacts in the Belo Horizonte business community.

The SCO, DSCO, and the CS Belo Horizonte staff lauded the director for his business acumen
and ability to quickly learn CS programs. But the office director said an initial 3-day training
course and subsequent on-the-job training were not enough for him to be completely comfortable
in the role, even after a year in the position. He believes he needs junior officer training. In
addition, he currently is not authorized to sign some administrative and financial documents,
such as leave requests, time and attendance records, participation agreements, purchase orders,
credit card invoices, and travel orders, but must forward them to CS Brasilia. CS Brazil staff
said he is not authorized to sign financial documents because he is a local hire, but CS
headquarters stated there is no policy against local hires signing leave and time and attendance
documents. We recommend CS review and clarify with CS Brazil its current administrative
document signatory policy for local hires.

There are financial gains for the post as a result of employing an office director in Belo
Horizonte rather than a fully tenured commercial officer, particularly in terms of benefits.15 For
example, the office director does not receive relocation and housing benefits, or an education
allowance for family members. This may be a cost-effective management alternative for other
CS posts, and we recommend CS explore the potential for greater use of local hire American
office directors.

Recommendations

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
United States and Foreign and Commercial Service ensure that the following actions are taken
to improve CS Brazil operations:

       •   Evaluate and clarify the roles and responsibilities of the CS Brazil SCO, DSCO and Sao
           Paulo PCO to ensure the most effective use of resources and coordination of country-
           wide programs.
       •   Work with the CS Brazil SCO, ITA’s standards liaison and NIST to identify measurable
           long-term goals and resource commitments to support standards development in the
           Mercosul region and the Western Hemisphere Regional Standards Protocol.
       •   Work with USPTO to develop a work plan for and clarify the CS Brazil and regional
           responsibilities of the IPR attaché in Brazil and ensure that support staff are in place and
           adequate funds are available to the attaché to pursue his mission.
       •   Provide the local American hire office director in Belo Horizonte with new officer or
           other appropriate CS management training.

15
     The office director position is a PSA-12, CS Brazil’s highest locally engaged staff position.


                                                            10
U.S. Department of Commerce                                                 Final Report IPE-18114
Office of Inspector General                                                            March 2007

   •   Review and clarify CS’ current administrative document signatory policy for local hires
       and advise CS Brazil as to whether the CS Belo Horizonte office director is authorized to
       sign certain administrative and financial documents.
   •   Explore the potential for greater use of local hire American office directors, such as the
       one in Belo Horizonte, as a cost-effective management alternative for other CS posts
       around the world.


We recommend that the Director of the National Institute of Standards and Technology ensure
that the following action is taken:

   •   Coordinate with the Commercial Service and ITA’s standards liaison to identify
       measurable long-term goals and resource commitments for the CS standards attaché to
       support standards development in the Mercosul region and the Western Hemisphere
       Regional Standards Protocol.


We recommend that the Under Secretary of Commerce for Intellectual Property and Director of
the U.S. Patent and Trademark Office ensure that the following actions are taken:

   •   Work with the Commercial Service to develop a work plan for and clarify the CS Brazil
       and regional responsibilities of the new intellectual property rights attaché in Brazil.
   •   Collaborate with the Commercial Service to ensure that adequate support staff and travel
       funds are available to the attaché to pursue his mission.




ITA, NIST, and PTO Responses to OIG Draft Report and OIG Comments

In response to our recommendation that the Commercial Service evaluate and clarify the roles
and responsibilities of the CS Brazil SCO, DSCO, and Sao Paulo PCO, ITA indicated that CS
had undertaken such a comprehensive review and determined that changes were needed in the
post’s management structure. According to ITA’s response, CS has determined that both the
SCO and DSCO position must be located in Sao Paulo—Brazil’s commercial capital—to enable
it to effectively manage CS operations throughout Brazil. The DSCO position will be moved
from Brasilia to Sao Paulo and the PCO position will be moved from Sao Paulo to Brasilia. In
addition, ITA clarified the roles and responsibilities of the SCO, DSCO, and PCO once the
moves take place.

ITA also concurred with our recommendation to coordinate standards development among the
CS Brazil SCO, ITA standards liaison, and NIST. ITA stated that CS Brazil’s SCO will work
with the ITA standards liaison and NIST to develop measurable long-term goals and resource
commitments to support standards development in South America. ITA also indicated that goals
would be based on the Western Hemisphere Standards Action Plan, which was developed by the
ITA standards liaison, standards attachés, and NIST. ITA’s response notes that the CS Brazil


                                               11
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                             March 2007

standards attaché will primarily focus on regional standards development. CS also clarified that
ITA is already actively engaged in and leading some efforts to address technical regulations as
part of the US-Brazil Commercial Dialogue. We encourage ITA to continue developing the
regional standards attaché’s role and provide us with an update in its action plan.

In its response ITA also indicated that CS Brazil is working with USPTO to develop an IPR
Action Plan for Latin America. ITA stated that the plan will address the CS Brazil and regional
responsibilities of the IPR attaché and further the missions of CS and USPTO. The regional IPR
action plan will build on the Brazil IPR Work Plan created by the IPR Working Group under the
U.S.-Brazil Commercial Dialogue. According to ITA, CS Brazil is in the process of hiring an
IPR Commercial Specialist to support the IPR attaché. In addition, ITA reported that USPTO
and CS have agreed on the regional attaché’s FY 2007 budget, which contains sufficient funding
for anticipated regional and in-country travel. We look forward to receiving more detail on the
IPR action plan in ITA’s action plan.

ITA’s response stated that the Belo Horizonte office director will attend New SCO/PCO
Training in Washington, D.C. during April 2007. The Western Hemisphere Office of CS’ Office
of International Operations (OIO) will also consider providing him with individual training at a
local institute during his stay in Washington and will explore other training opportunities for him
during the year. In response to our recommendation that CS clarify whether the CS Belo
Horizonte office director can sign certain administrative and financial documents, ITA indicated
that OIO will work with CS’ Office of Strategic Planning and its Office of Foreign Service
Human Resources to review the administrative and financial document signatory policy for local
hires and ensure that CS Brazil is aware of and adheres to the policy. ITA also said that it will
continue to explore the potential for greater use of local American office directors in posts
around the world. ITA stated that this approach has been used with positive results in Dusseldorf
and Hamburg, Germany, and in China.

In its written response to our draft report, NIST agreed that it must work together with ITA to
develop a standards strategy for South America. It also agreed that there are some
inconsistencies of perception about the standards attaché position. NIST’s response affirms that
the bureau is already working with the ITA Office of Standards Liaison and the Commercial
Service to develop measurable, long-term goals for the standards attaché and an action plan for a
long-term standards strategy for South America to benefit U.S. exports. For example, NIST and
ITA are currently reviewing a regional standards program implementation plan. NIST also
clarified that ITA’s Office of the Standards Liaison is also actively involved with NIST in the
design and delivery of the exchange of information with Brazil on standards, conformity
assessments, and technical regulations.

USPTO’s response to our draft report stated that USPTO has created a Latin America Regional
Team to support the operation of the CS IPR attaché, and the team is working with CS and the
IPR attaché in Brazil to develop an action plan for the region. In addition, USPTO has approved
CS Brazil’s budget for the IPR attaché and has fully obligated FY 2007 funds, including
adequate travel funds. USPTO has also authorized the hiring of and budget for support staff for
the attaché. We ask that USPTO include its regional action plan as part of the bureau’s action
plan prepared in response to our final report.



                                                12
U.S. Department of Commerce                                                                      Final Report IPE-18114
Office of Inspector General                                                                                 March 2007

II.      Allocation and Management of the Post’s Office Resources Need Attention

CS Brazil’s five officers all are located in the southern half of this large country where the
population and economy also are primarily based. Sao Paulo is the area that draws the most
attention from U.S. exporters. CS’ offices in Belo Horizonte, Brasilia, and Porto Alegre find it
difficult to attract U.S. exporters and promote their commercial opportunities.

CS has been asked by the State Department to place staff at the U.S. consulate in Recife—
located in the northeast. CS has relied on its Belo Horizonte office in the mid-east to service this
area in the past, but is now evaluating the request. In addition, CS Brazil’s staff is responsible
for 50 industry sectors and subsectors. However, we question the actual effectiveness of many of
the post’s industry teams for CS Brazil’s operation because we found poor coordination and
rivalry among team members combined with a limited focus on certain sectors.

A.     CS management should develop a strong marketing plan to increase U.S. business
       awareness of CS Brazil offices and export opportunities in Belo Horizonte, Brasilia, and
       Porto Alegre

CS offices in Belo Horizonte, Brasilia and Porto Alegre have significantly less commercial
activity than CS Sao Paulo and Rio de Janeiro even though these offices cover states that
together comprise nearly one-third of Brazil’s GDP.16 As Brazil’s business hub, Sao Paulo is
very attractive to many U.S. exporters. Rio de Janeiro also attracts a great deal of U.S.
commercial interest. But CS Brazil could do more to fully market the business potential of other
areas.

Table 2. Comparative Production Statistics for CS Brazil’s Offices
 CS Brazil Post      Productivity Measure                         FY 2004        FY 2005     FY 2006
 Belo Horizonte      Export Successes                                  77            130         109
                     Market Research Reports                          N/A            71          26*
                     Products and Services                             13             9          17
                     Products and Services (collections)             $7,800        $5,605      $7,794
 Brasilia            Export Successes                                  78            95          61
                     Market Research Reports                            4            14          5*
                     Products and Services                             20            22          17
                     Products and Services (collections)            $16,330       $13,790     $11,595
 Porto Alegre        Export Successes                                  13            19           8
                     Market Research Reports                           n/a            1          2*
                     Products and Services                              3             1           3
                     Products and Services (collections)             $1,600         $450       $2,690
 Rio de Janeiro      Export Successes                                 105            164         122
                     Market Research Reports                            8            67          48*
                     Products and Services                             47            38          57
                     Products and Services (collections)            $23,525       $28,070     $20,727
 Sao Paulo           Export Successes                                 453            497         476
                     Market Research Reports                           27            193        156*
                     Products and Services                            119            146         158
                     Products and Services (collections)            $91,362       $117,514    $176,942
 *This performance measure is as of July 2006. All others reflect the entire FY 2006.
Source: CS Brazil, eMenu, Export Successes and Trust Fund Management Reports

16
  According to the Brazilian Geography and Statistics Institute (IGBE), the combined GDP of Minas Gerais,
Distrito Federal, Goiás, Rio Grande do Sul, Santa Catarina, and Paraná states account for 32 percent of Brazil’s
GDP.


                                                             13
U.S. Department of Commerce                                                            Final Report IPE-18114
Office of Inspector General                                                                       March 2007

CS Brazil should be highlighting opportunities for U.S. exporters in Belo Horizonte

Belo Horizonte is the capital of Minas Gerais, Brazil’s second most populous state and third
largest state economy. In 2005 Minas Gerais imported $770 million in goods and services from
the United States,17 and with 46 percent of its GDP in the service sector and 45 percent in the
industrial sector,18 it would appear that there are many more opportunities for U.S. companies to
make further inroads into these markets. However, it appears CS Belo Horizonte also
experiences some difficulty in attracting U.S. exporters as it is not one of Brazil’s two primary
business hubs. We found CS Brazil and the USEACs are not actively promoting the region’s
commercial opportunities with only 17 products and services performed in FY 2006. As a result,
CS Belo Horizonte staff members look for alternative promotion opportunities, such as
encouraging trade missions to Sao Paulo to also visit Belo Horizonte, participating in temporary
detail assignments to USEACs, preparing detailed market reports, and collaborating with
external partners.

Some USEACs are unaware of export opportunities available                         Figure 4. Import
through the CS offices outside Sao Paulo and Rio de Janeiro. For                  Guide for
example, U.S. companies are currently being recruited to participate              Brazilians
in the 2007 CS Healthcare Technologies Trade Mission to Brazil and
Chile. Although Belo Horizonte and the rest of Minas Gerais
represent 12 percent of total medical equipment sales in Brazil, 19 the
trade mission itinerary did not initially include Belo Horizonte. To
encourage companies participating in the mission to visit the area,
CS Belo Horizonte staff took the initiative to provide participants
with an overview of the sector and set-up a 1-day Gold Key
counseling session there. CS is continuing its recruitment efforts and
expects at least seven companies to participate in the trade mission.

In an effort to educate USEACs on the region, CS Belo Horizonte
commercial specialists also took temporary detail assignments in
Spring 2006 at the San Jose and Oakland USEACs. The post                 Source: CS Belo Horizonte
reported that such initiatives, when financially feasible, are very
beneficial for introducing U.S. exporters to the Minas Gerais state and Belo Horizonte.

While CS Belo Horizonte collected fees for only 17 products and services in FY 2006, we found
that it has been actively trying other methods to promote U.S.–Brazil trade. For example, Belo
Horizonte staff members write detailed market research reports to highlight trade opportunities in
Brazil with topics ranging from minerals mining in the region to conducting business in the
country. In 2004 Belo Horizonte developed Como Importar Dos Estados Unidos, a Portuguese
language brochure about importing from the U.S It was written for Brazilians and distributed
during trade events. Belo Horizonte staff also collaborate with external partners, such as the
Export-Import Bank, the local AmCham, and the Inter-American Development Bank.

17
   Brazil: Medical Equipment, Minas Gerais & the Northeast, Commercial Service, May 2006.
18
   Fundacao Joao Pinheiro, Governo de Minas Gerais, Produto Interno Bruto de Minas Gerais - 2005,
http://www.fjp.gov.br/produtos/cei/informativo_pib_2005.pdf, January 25, 2007.
19
   Brazil: Medical Equipment, Minas Gerais & the Northeast, Commercial Service, May 2006.


                                                      14
U.S. Department of Commerce                                                                Final Report IPE-18114
Office of Inspector General                                                                           March 2007

Commercial opportunities in Brasilia should be better leveraged and marketed

The capital city of Brasilia has a population of more than 2.3 million inhabitants.20 Commercial
activities in Brasilia and the state of Goias, where it is located, grew on average 4.3 percent from
1999 to 2004, reaching an approximate GDP of $14.85 billion in 2004.21,22 The farming,
industrial, and services sectors are some of the primary economic drivers.23 However, CS
Brasilia struggles to attract U.S. exporters to the area. In FY 2005, CS Brasilia generated 95
export successes. By contrast, CS Belo Horizonte (with a similar population to Brasilia’s entire
state) had 130 export successes.

The embassy periodically sends teams to outlying areas in Brazil. This provides a valuable
opportunity for outreach with local governments on economic and commercial affairs. As part
of the embassy team, CS staff have been asked to travel with the DCM and other senior State
Department officials to outlying areas of the state. CS Brasilia has only participated in outreach
activities in a limited capacity due to budget constraints and may miss valuable contacts and
opportunities for U.S. exporters. When we met with the U.S. Deputy Chief of Mission, he told
us that he considers CS Brazil’s financial situation to be a major impediment to Commerce’s
mission in Brazil.

CS Brasilia staff told us the other offices within CS Brazil do not regard CS Brasilia as important
in the overall goal of trade promotion and they report of sometimes being snubbed by the larger
operations. They reported that they receive only limited referrals from the other CS offices and
are typically contacted only on an advocacy project or other embassy-related matters. We were
told of one particularly telling example that involved a staffer from Sao Paulo who recently
accompanied a group of business persons from the U.S. to meet with the Federation of Industry
in Brasilia but never contacted CS Brasilia to participate. It was not until the group was actually
in Brasilia that CS Brasilia became aware that the event was occurring in the city. CS Sao Paulo
should have encouraged CS Brasilia to fully participate in the planning and execution of the
event from the beginning.

CS needs to quickly decide how to handle the vacant Porto Alegre office to avoid losing
business contacts

Porto Alegre is the capital of Rio Grande do Sul, one of three states in the southernmost part of
Brazil. A major industrial and commercial center in Brazil, the state has a GDP of $51 billion.24
Rio Grande do Sul’s leading imports include leather, transportation equipment, electrical
material, and machinery.25 However, CS Porto Alegre has had few export successes and a low
number of trust fund collections for products and services. We were advised that several factors
contribute to Porto Alegre’s relatively poor performance, including low interest from U.S.

20
   State Government of Goias. Statistical Yearbook of the State of Goias-2005, http://www.seplan.go.gov.br/sepin/,
(table 13).
21
   The average exchange rate in the fourth quarter of 2004 was 2.78 Brazilian Reals per 1 US dollar.
22
   State Government of Goias. http://www.goias.go.gov.br/, accessed December 27, 2006.
23
   State Government of Goias. Statistical Yearbook of the State of Goias-2005, http://www.seplan.go.gov.br/sepin/,
(table 4).
24
   State Government of Rio Grande do Sul. http://www.sedai.rs.gov.br./revistaingles.pdf (page 3).
25
   State Government of Rio Grande do Sul. http://www.sedai.rs.gov.br./revistaingles.pdf (page 7).


                                                        15
U.S. Department of Commerce                                                               Final Report IPE-18114
Office of Inspector General                                                                          March 2007

exporters, confusion about the office’s roles and responsibilities, and limited CS management
and oversight.

In October 2006, after our visit to post, the Porto Alegre specialist resigned from his position.
CS no longer has a presence in the area and told us that it does not intend to fill the vacancy in
the short-term. Since then the Sao Paulo PCO has visited Porto Alegre twice since the closure of
the CS Porto Alegre office and briefed officials and business associations on CS Brazil and Sao
Paulo consulate activities. Prior to this personnel change, the Porto Alegre office consisted of
one full-time FSN and two Brazilian interns that rotated in every six months.26 Since few U.S.
exporters expressed interest in Porto Alegre, the FSN spent approximately 70 percent of his time
conducting outreach with the local business community and providing counseling to Brazilian
companies seeking to import from the U.S. There also appears to be differing opinions between
CS management and staff concerning Porto Alegre’s role. According to the specialist, the Porto
Alegre position was created to generate more Brazilian interest in NUSA. The specialist
considered the office an extension of the Sao Paulo office. Senior management wanted Porto
Alegre to show stronger performance in products, services, and trust fund collections, but we
found limited managerial guidance and oversight to help the specialist meet that objective. In
fact, the current SCO has attended AmCham meetings in Porto Alegre, but never visited the CS
office.

We recommend CS develop a strategy to continue fostering the business contacts and
opportunities developed by the specialist in Porto Alegre before CS loses contact with valuable
partners in the area. In addition, to better leverage market opportunities in areas beyond Sao
Paulo and Rio de Janeiro, CS should develop a strong marketing program to (1) increase
awareness of its Belo Horizonte, Brasilia, and Porto Alegre offices, and (2) direct attention to
export market opportunities in areas outside Sao Paulo and Rio de Janeiro. For example, its
website should highlight sector opportunities in each region to encourage U.S. exporters and
USEACs to view specific regions rather than just Brazil as a whole market.


B.    CS Management should carefully consider whether to place staff in Recife

The 2003 CS Management Performance Review recommended that CS establish a presence in
Recife, which is located in northeast Brazil. In 2004 the previous U.S. ambassador raised the
issue with CS about placement of one locally employed CS staff member in the U.S. consulate in
Recife. In addition, the DCM reportedly insisted that Commerce’s presence in Recife be
included as an explicit goal in a previous mission performance plan. The northeast region has an
average GDP growth rate of 3.1 percent,27 compared to Brazil’s average of 2.4 percent,28 and it
offers new export opportunities for small and medium-sized U.S. businesses. CS staff from the
Belo Horizonte office used to travel to Recife several times a year, but those trips have been
stopped because of budget constraints. After the ambassadorial request in 2004, CS’ Western


26
   The Porto Alegre specialist left the Commercial Service on October 20, 2006. The Porto Alegre office is
currently closed, but our recommendations remain should the office reopen in the future.
27
   Brazil: Medical Equipment, Minas Gerais & the Northeast, Commercial Service, May 2006.
28
   CIA, The World Factbook - Brazil, https://www.cia.gov/cia/publications/factbook/print/br.html, August 31, 2006.


                                                       16
U.S. Department of Commerce                                                    Final Report IPE-18114
Office of Inspector General                                                               March 2007

Hemisphere regional office sent a proposal to the then-assistant secretary and director general to
open an office in Recife with one commercial specialist, but no decision was made.

At the time of our review, CS Brazil was reconsidering whether to place a locally employed staff
member and an intern in Recife in response to the new ambassador, as well as the DCM.
However, none of the possible options are low cost, and CS management clearly must weigh
both the financial impacts and potential legal issues involved in the different staffing alternatives
under consideration in deciding whether to place staff in Recife.

According to CS, it has four alternatives: (1) continue to manage the Northeast from CS Belo
Horizonte; (2) transfer a CS Belo Horizonte position and person to Recife; (3) first eliminate CS
Belo Horizonte position, then create a new one in Recife; or (4) first open a new position in
Recife, then eliminate one position in Belo Horizonte. The last three alternatives assume that CS
would collocate with other U.S. mission members in the consulate in Recife.

To place one commercial specialist and an intern in the Recife consulate, CS estimates its initial
start-up costs at $15,000. This includes moving costs if an FSN moves from Belo Horizonte, per
diem for the first month, and airfare. In addition, CS estimates its FY 2007 operating and
administrative (O&A) costs for the specialist and one intern would be $73,500 if they were
collocated in the consulate. If the State Department waives the first two years of costs for
International Cooperative Administrative Support Services (ICASS), then O&A expenses would
only be about $46,500. According to CS Brazil, by 2009 Recife’s total O&A budget will rise to
approximately $96,000 (including ICASS). However, if CS chooses to place staff in an
independent office outside the consulate, the post estimates it could save $13,000 per person in
collocation costs but it would lose the benefits of proximity to other consulate officials who work
on commercial matters. In this case, the post should also consider other cities in the northeast
that may have greater business opportunities for U.S. companies. We also note that there are
some employment law issues that CS must consider when considering all of these options.

CS management needs to carefully consider whether to place staff in the U.S. consulate in
Recife. CS should also consider placing locally employed staff in a non-collocated office or
possibly in another northeast city, which could be more cost effective. However, CS would need
to obtain State Department’s approval for the alternative placement options.


C.     CS Brazil’s industry distribution and team operations do not effectively foster staff
       cooperation and market opportunities

At the time of our review, CS Brazil staff teams covered 50 industry sectors and sub-sectors;
however, we question the actual effectiveness of 50 teams. We found poor coordination among
team members and a high level of tension between many commercial specialists and assistants.
In addition, the Brazil Country Commercial Guide only identifies 21 out of the 50 sectors as best
prospects for U.S. exporters, which raises questions about CS’ need to staff this many sectors.




                                                 17
U.S. Department of Commerce                                                         Final Report IPE-18114
Office of Inspector General                                                                    March 2007

Table 3. Best U.S. Export Prospects for Brazil
Agriculture (USDA)       Computer Software   Highways         Medical Equipment   Pollution   Telecommunications
Agriculture Equipment    E-Commerce          Insurance        Mining              Ports       Travel and Tourism
Aircraft and Parts      Energy               Iron and Steel   Oil and Gas         Railroads
Airports                                     IT Hardware      Pharmaceuticals     Safety/Security Equipment
Source: CS Brazil Country Commercial Guide

Team leaders develop sectors through various activities including trade show attendance,
counseling services, buyer delegations, and outreach efforts, and team members throughout
Brazil assist the team leaders. Some teams work well together. For example, a CS Sao Paulo
specialist and Brasilia commercial assistant coordinated efforts for a medical trade show, but,
such teamwork is the exception rather than the rule.

Since Sao Paulo is Brazil’s business hub, most sector team leaders are Sao Paulo commercial
specialists. As a result, team members reported that these leaders are primarily engaged with
developing opportunities in the state of Sao Paulo instead of the rest of the country. Some team
members also stated that their team leaders do not always share information with them regarding
incoming Gold Key clients, trade missions, and other potential commercial opportunities. As a
result, they are unable to capitalize on opportunities to promote their industries in other parts of
the country. In addition, some team members have less incentive to actively recruit participants
for international buyer delegations (IBP) because in most cases, only the team leader travels with
the group.

We also found other underlying tensions between commercial specialists and assistants that
hamper teamwork. Specialists tend to remain in their positions for a lengthy period of time. For
example, some specialists began working for CS Brazil more than 10 years ago. Assistants who
have been promoted up the ranks wait many years for specialist positions to open. Assistants
informed us they feel frustrated by waiting. In response to this dynamic, CS Sao Paulo gave
assistants responsibility to work other sectors. This approach reduced assistants’ dissatisfaction;
however, it also had an unforeseen effect. Assistants began devoting more time, energy, and
resources to working their sectors instead of completing tasks assigned by specialists.

Some CS Brazil officers are aware of the challenges posed by the team distribution and believe
there is a need to decrease the number of teams. In 2005 a commercial officer recommended a
new structure of 20 teams comprised of 12 original teams and 8 new, consolidated teams based
on the number of export successes generated by each industry. However, at the time of our
inspection, the team structure remained the same, while some staff noted that FSNs may react
negatively to changes since they have traditionally held the same sectors for many years.

We recommend that CS Brazil assess the existing team structure and the number and assignment
of industry sectors among CS Brazil staff and implement changes that will improve productivity
and foster a spirit of cooperation among the team members. CS Brazil should consider assigning
team leaders regional as well as country-wide goals to ensure they are held accountable for
developing regional markets and require all team members to play an active role in developing
assigned sectors within their regions. We note however that after we returned from Brazil we
discussed this issue with CS, and following our discussions, a new industry teams program was
developed during the All-Hands Conference in October 2006 and is being implemented. CS


                                                     18
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                             March 2007

Brazil should also consider rotating the opportunity to travel with International Buyer Program
delegations among team members.

Recommendations

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
United States and Foreign and Commercial Service ensure that the following actions are taken
to improve CS Brazil operations:

   •   Outline a strategy to continue fostering the business contacts and opportunities developed
       by the Porto Alegre specialist before CS loses contact with valuable partners in the area.
   •   Develop a stronger marketing plan to increase U.S. business awareness of CS Brazil
       operations and export opportunities in Belo Horizonte, Brasilia, and Porto Alegre and
       better leverage the market opportunities in areas outside Sao Paulo and Rio de Janeiro.
   •   Evaluate and make a decision among the varied options for CS’ coverage of northeast
       Brazil, including collocation with the U.S. consulate in Recife, or opening a non-
       collocated office in Recife or in another city within the northeast as a more cost effective
       option.
   •   Assess the existing industry team structure, and the number and assignment of industry
       sectors among CS Brazil staff, and consider implementing changes that may improve
       productivity and foster a spirit of cooperation among the team members located
       throughout CS Brazil, including:
           a. Assigning team leaders regional as well as country-wide goals,
           b. Requiring all team members to play an active role in developing assigned sectors
               within their regions, and
           c. Rotating the opportunity to travel with International Buyer Program delegations
               among team members.



ITA Response to OIG Draft Report and OIG Comments

The Deputy Under Secretary for International Trade concurred with our recommendations
regarding allocation and management of the post’s resources and indicated that CS has already
begun implementing several of them. In response to our recommendation that CS Brazil outline
a strategy to continue to foster its business contacts in Porto Alegre, ITA stated that the Sao
Paulo PCO has visited Porto Alegre twice since the closure of the CS Porto Alegre office in
October 2006. While there, the PCO briefed officials and business associations on CS Brazil and
Sao Paulo consulate activities. ITA also indicated that these officials and business associations
are already registered with CS Brazil’s website and receive regular monthly updates on CS
programs and activities. In addition, ITA reported that FIERGS, Porto Alegre’s state Federation
of Industry, will collaborate with CS Sao Paulo and Sao Paulo’s Federation of Industry to host
2007’s “Year of the USA.” As part of this activity, CS Brazil will recruit Brazilian buyer
delegations throughout Brazil including the states of Rio Grande do Sul and Santa Catarina,
which are within the CS Porto Alegre coverage area. ITA also said the Network USA (NUSA)
team leader will maintain contact with CS’ local partner institutions in Porto Alegre until another


                                                19
U.S. Department of Commerce                                                 Final Report IPE-18114
Office of Inspector General                                                            March 2007

visit can be arranged by the new PCO who will arrive in country in March 2007. While ITA’s
response discusses short-term actions CS Brazil has taken or plans to take in Porto Alegre, it
does not address a long-term strategy for the area. It appears that CS Sao Paulo will maintain
business relations with Brazilian partners in Porto Alegre. However, we question Sao Paulo’s
ability to actively develop market opportunities for US exporters in Porto Alegre given the high
volume of commercial activity in Sao Paulo and the local demands requiring staff involvement.

In response to our recommendation to develop a stronger marketing plan and better leverage
market opportunities outside Sao Paulo and Rio de Janeiro, ITA stated CS Brazil is revising its
strategic plan and will include a marketing plan. In addition, ITA stated that during the October
2006 CS Brazil All-Hands Conference, the post identified its plans to expand its Brazil market
presence. Specifically, the post plans to (1) improve its webpage content and design to be more
aligned with industry teams, (2) restructure the industry teams according to best prospects, (3)
increase country-wide outreach efforts through NUSA, and (4) move the DSCO position to Sao
Paulo to strengthen cooperation. In response to our recommendation that CS evaluate and make
a decision about CS’ coverage of northeast Brazil, ITA stated that CS will open a position in the
northeast, located in the U.S. Consulate in Recife, and reported that it had sent a letter to the
State Department accepting its offer to waive ICASS fees at that location. We encourage ITA to
describe CS’ marketing plan for each post in its action plan and look forward to an update on the
progress of the position in Recife.

In response to our recommendation regarding CS Brazil’s industry team structure, ITA stated
that a new industry teams program was developed during the All-Hands Conference in October
2006 and is being implemented. According to ITA, the new team structure includes nine
industry teams and a customs team for trade implementation. ITA indicated that CS Brazil’s
new team structure consolidates the number of teams for better alignment with ITA Global
Teams and best prospects, clarifies roles and responsibilities of team leaders and members,
creates a reward structure focused on team achievement through cooperation, and improves
communication between offices. In addition, the new teams structure and strategy call for
creation of team budgets and collection strategies to increase team member participation in trade
events, and encourage proactive marketing and outreach for key industries. Finally, ITA’s
response provided a list of the duties of CS Brazil’s industry team members. We request a status
report on the implementation of the revised team structure in ITA’s action plan.




                                               20
U.S. Department of Commerce                                                                 Final Report IPE-18114
Office of Inspector General                                                                            March 2007

III.     CS Brazil Export Successes Require Increased Management Attention

The post uses its performance data to support distribution of its awards and recognition to its
staff and to project new goals for the post’s strategic plan, and CS’ senior managers use export
success data to compare posts’ performance. Thus accuracy and accountability in the count of
export success stories are critical. Since 2003 OIG has published five reports that have
highlighted questions about the accuracy and integrity of CS’ reporting of its export success
statistics.29 CS headquarters officials recognize that export success inflation has been a recurring
problem for CS worldwide. Thus, CS has recently made some significant changes to its export
success guidelines and its verification procedures, partly in response to problems cited in our
recent reports. Many of the revisions and amendments found in CS’ Export Success Guidelines
were designed specifically to address this issue through the quality review process.

Our review of the CS Brazil performance data suggests that the guidelines need additional
revisions to help prevent abuses or questionable reporting. CS Brazil’s reported export success
numbers increased dramatically over the past few years. However, we found that many claims
were invalid or did not appear to meet CS guidelines, and the post had inadequate verification
procedures in place to support claimed export success results.30 Specifically, as of April 27,
2006, we found 72 export successes in FYs 2005-2006 that did not qualify under the criteria set
forth in CS’ Operations Manual. In addition, we found an additional 162 that appear
questionable as to whether they meet the intent of CS’ mission to promote U.S. exports and CS
guidelines for an export success. Specifically, CS Brazil claimed its efforts to encourage
Brazilians to rent booths at trade shows in the U.S. to sell their products as valid export
successes.

A.     CS Brazil’s export successes were inflated

CS’ primary performance measure is the verified number of export transactions, or export
successes, facilitated by CS among new and existing U.S. exporters. CS tracks both the nature of
the export assistance provided by CS and the dollar value of the export success. Accuracy and
integrity of the data are paramount because this metric is reported to both Congress and the
Office of Management and Budget.

CS Brazil increased its export success numbers by 161 percent in only 4 years, from 276 in FY
2001 to more than 720 in FY 2005. The post generated the second highest number of export
success stories of all CS overseas posts for both FYs 2004 and 2005, claiming credit for an
average of 5.5 percent of the total number of export success stories generated by CS worldwide
(see Table 4).

29
   The CS Needs to Improve Management of its Operations in Turkey, March 2003, IPE-15370; Generally Sound
Operations at CS Greece Are Compromised by Key Weaknesses, September 2003, IPE-15804; CS India: Challenges
Remain for Management of a Large and Economically Diverse Post, September 2004, IPE-16808; Pacific
Northwest USEAC Network Generally Operates Well, but Export Success Reports Need More Management
Scrutiny, March 2004, IPE-16507; and CS China Generally Performs Well But Opportunities Exist for Commerce to
Better Coordinate Its Multiple China Operations, March 2006, IPE-17546.
30
   According to the CS’ Operations Manual, staff should maintain adequate support documentation for CS officers
to review, and CS officers must ascertain the veracity of those export successes to ensure that the post reports valid
export successes.


                                                         21
U.S. Department of Commerce                                                                          Final Report IPE-18114
Office of Inspector General                                                                                     March 2007

Table 4. CS Worldwide Export Success Rankings for FYs 2004 and 2005.
                 # of success % of worldwide                                    # of success
    Rank   Country                                             Rank      Country                    % of worldwide total
                   countsa         total                                           countsa
                 FY 2004                                                              FY 2005
  1      India       680           6.0%                         1      India         812                    6.5%
  2      Brazil      593           5.2%                         2      Brazil 720 [659] b [523] c   5.8% [5.3%]b [4.2%] c
  3     Mexico       480           4.2%                         3    Germany         569                    4.6%
  4    Germany       461           4.0%                         4     Mexico         541                    4.4%
  5      China       449           3.9%                         5      China         531                    4.3%
  6      Japan       368           3.2%                         6      Japan         396                    3.2%
 Worldwide Total            11,395                             Worldwide Total                    12,428
a
  Total success counts for each country include export success stories initiated and approved by other offices. Both the initiating and
participating offices receive the same credit for their involvement in an export success, but the worldwide total only counts it once.
b
  The revised figure reflects 61 export success stories CS Brazil removed, withdrew, or combined during our review or as a result of our
review, as outlined on the next page in table 5.
c
  The revised figure reflects an additional 136 export success stories the OIG identified as invalid or questionable.
Source: eMenu, Commercial Service, December 22, 2006

However, our review found that the post was not really doing as well as it claimed. In our
analysis of FY 2005 reporting, we identified 61 invalid and 136 questionable export successes,
which drops the post’s export successes from 720 to 523. This makes CS Brazil’s performance
less impressive and drops its ranking from second to fifth place among CS posts, as currently
reported. By the end of FY 2006, CS Brazil had reported only 565 export successes, about 150
fewer than the 2005 level, although our questions about the validity of some claims could drive
that total lower with close management scrutiny of the post’s export successes to determine
whether any other claims are invalid.

B.     A number of CS Brazil’s export successes appear invalid or questionable

CS Brazil reported 720 export successes in FY 2005. By April 2006, the cutoff date for our
detailed analysis, CS Brazil was counting 187 export successes for FY 2006. However, we
found that 61 export success stories reported in FY 2005 and 11 of those reported in the first half
of FY 2006 did not meet CS’ criteria.31

The invalid export success stories generally fell into three categories: (1) non-travel and tourism
clients that received free publicity; (2) export successes not generated by CS Brazil; and (3) other
noncompliance with CS’ export success guidelines (see Table 5).




31
  CS made several changes to the Export Success Guidelines chapter of the CS Operations Manual during 2005 and
2006, but those changes did not affect the validity of the CS Brazil export successes we reviewed.


                                                              22
U.S. Department of Commerce                                                           Final Report IPE-18114
Office of Inspector General                                                                      March 2007

Table 5. Invalid and Questionable ES for FYs 2005 and 2006 (through April).
                                                         FY 2005                          FY 2006
                                                                    Removed                         Removed
                                                          % of       by CS                % of       by CS
     Type of Export Success Claim            # of                               # of
                                                          Total     between               Total     between
                                            Success                            Success
                                                         Success     4/27/06             Success     4/27/06
                                            Stories                            Stories
                                                         Stories       and               Stories       and
                                                                    10/10/06                        10/10/06
Total # of Export Successes for CS Brazil                  720                              187
                                            Invalid Export Successes
Free advertisements for U.S. companies
                                               24          3%          23        5         3%          5
not in the travel & tourism industry
Not related to CS Brazil                         25        3%           25       3         2%          3
Other                                            12        2%           12       3         2%          3
Total # of Invalid Export Successes              61        8%           60       11        7%          11
                                           Questionable Export Successes
Booth space rentals at U.S. trade shows (in
                                                131       18%            1       6         3%          5
U.S.)
Booth space rentals combined with
                                                  0        0%            0       20        11%         0
“services” at U.S. trade shows
U.S. airline ticket sales                         5        1%            0        0        0%          0
Total # of Questionable Export Successes        136       19%            1       26        14%         5
Total # of Invalid, Questionable, and CS
                                                197       27%           61       37        21%        16
Removed Export Successes
Source: eMenu (accessed April 27 and October 10, 2006)

Invalid export successes

We found CS Brazil claimed 24 export successes in FY 2005 and 5 in FY 2006 (as of April 27)
for free foreign publicity obtained by U.S. companies in industries unrelated to travel and
tourism, such as computer hardware and retail fashion. The CS Operations Manual explicitly
states that “free foreign-country publicity via printed, electronic or web-based media for a U.S.
travel/tourism client [emphasis added] . . . may be claimed as an export success.” Such publicity
may not be claimed for any other industry.

We also found in FYs 2005-2006, CS Brazil was incorrectly credited with 28 export successes
resulting from the work of a commercial officer in Ukraine, who is now posted to CS Brazil.
The CS Operations Manual says the office where the individual was posted at the time his/her
contribution was made [emphasis added] is the office that will receive credit for the export
success. CS told us the person(s) preparing these export successes selected the wrong CS post
when giving credit to the CS officer and when we notified CS of the error, it removed these 28
export successes.

In addition to the above two categories of invalid export successes, we found CS Brazil claimed
an additional 15 export successes for FYs 2005-2006 that were contrary to the Export Success
Guidelines, including:




                                                      23
U.S. Department of Commerce                                                               Final Report IPE-18114
Office of Inspector General                                                                          March 2007

     •   A U.S. service export funded by a U.S. Trade and Development Agency grant32
     •   Duplicate claims of the same export success
     •   Purchase of U.S. airline tickets by Brazilian entities traveling to the U.S. through the
         International Buyers Program
     •   Visa assistance given to Brazilian entities
     •   Anticipated sales of U.S. goods to Brazilians
     •   No direct linkage between CS assistance and the U.S. export
     •   An export that occurred more than 2 years before the date when the export success was
         claimed by CS Brazil

Questionable export successes

At the time of our review, CS Brazil claimed a total of 157 export successes in FYs 2005-2006
for Brazilian companies promoting their own products and services at U.S. trade shows.33 In
February 2006, CS changed the guidelines to state that an export success may not be claimed for
trade show exhibition fees, booth rentals, or similar payments made by foreign entities to the
U.S. government. However, those guidelines stated that export successes can be claimed for
payments made to U.S. event organizers other than the U.S. government. In other words, this
new category may sometimes facilitate foreign imports to the U.S. – an action that CS has
normally deemed to be an unacceptable export success. Specifically, the CS Operations Manual
does not permit export successes to be claimed for “assisting U.S. import or U.S. domestic sales
activities.” Recruiting for buyer delegations to the U.S. may be an approved and laudable
activity, but encouraging Brazilian companies to participate in U.S. trade shows to sell their
foreign products seems to contradict CS’ mission to promote U.S. exports.

Assisting Brazilians to promote their products creates competition for U.S. companies and
encourages the sale of foreign goods to U.S. consumers. We question whether CS should be
approving the validity of any export success claimed for assisting foreign companies with renting
booth spaces at U.S. trade shows. When we asked CS Brazil’s SCO about promoting foreign
exports, he stated that CS must develop creative means to promote U.S. exports to Brazil. He
referred to the U.S. trade show recruitment as similar to a buy-sell/sell-buy business relationship,
asserting that Brazilians will go to the U.S. to export their products and eventually purchase U.S.
products to support their own manufacturing and quality requirements, which would lead to U.S.
exports to Brazil.

During the course of our review, CS Brazil removed at least 6 of 137 export successes it claimed
in FYs 2005-2006 for booth space rentals—including all but one reported in the first half of FY
2006. The PCO told us that CS Brazil reduced its claims for booth sales because the February
2006 change to the CS Operations Manual no longer permits these types of export successes.
However, it appears the post is misinterpreting the guidance and needs clarification on the
revision to the CS Operations Manual, which seems to indicate that such booth sales can be

32
   For FY 2007, CS revised its guidelines to now explicitly prohibit claiming an export success for purchases by
foreign buyers using U.S. government grant funds. However, purchases using U.S. government loan funds may be
claimed.
33
   This includes 137 ES for booth space rentals and 20 ES for booth space rentals combined with ‘services’ provided
at the trade show.


                                                        24
U.S. Department of Commerce                                                             Final Report IPE-18114
Office of Inspector General                                                                        March 2007

claimed as long as they are consolidated into one sale per trade show. We recommend CS
further revise the definition of an invalid export success in the CS Operations Manual to include
an ES that directly fosters foreign exports to the U.S., such as renting booth space to foreign
companies at U.S. trade shows.

We also found five export successes claimed in FY 2005 for Brazilians purchasing U.S. airline
tickets through Brazilian travel agencies. We did not find that CS Brazil directly assisted the two
U.S. airline companies. According to the export success guidelines, “…direct, proactive export
assistance to airlines, hotels, and any other U.S. exporters…may always be claimed.” However,
CS did not provide any documentation or support that CS Brazil directly and proactively assisted
the two U.S. airline companies or provided additional value-added assistance to the tour
operator. We recommend CS Brazil remove all invalid and questionable export successes from
CS’ database.

C.      CS Brazil is not fully complying with the established quality control process for export
        successes

At the time of our review, CS Brazil’s staff was not maintaining adequate documentation to
support its number of export successes and reviewers were not checking the validity of claims.
We examined a sample of 162 of the post’s export success stories.34 The post provided some
support documentation for 124 (77 percent) of these export successes (see Table 6). Most of the
documentation did not confirm all the elements required by the CS Operations Manual to
support the validity of an export success, including demonstrating that: (1) CS provided value-
added assistance, (2) CS assistance occurred within 3 years, (3) CS assistance significantly
contributed to the U.S. export, (4) CS assistance provided a firm benefit to the exporter, (5) the
U.S. export occurred within 2 years, and (6) the claimed dollar value of the export was verified,
if applicable.

Table 6. Statistics on support documentation for sampled export successes from CS Brazil
for FYs 2005 and 2006 (as of April 27).
                     Provided                                                   Provided no
     CS Brazil                        Percent    Provided some      Percent                       Percent
                     complete                                                     relevant                     Total
      Office                          of Total   documentation      of Total                      of Total
                   documentation                                               documentation
Sao Paulo               20             33%             24             40%            16            27%          60
Belo Horizonte          22             69%              6             19%             4            13%          32
Brasilia                 0             0%               0             0%             13            100%         13
Rio de Janeiro          47             87%              5             9%              2             4%          54
Porto Alegre             0             0%               0             0%              3            100%          3
CS Brazil
                         89            55%             35            22%              38            23%        162
Total
Source: OIG Analysis

CS Sao Paulo, CS Belo Horizonte, and CS Rio de Janeiro were able to provide some type of
support documentation for most of the export successes we sampled. Brasilia was unable to
provide any documentation for its 13 export successes included in our sample. The DSCO—

34
 We chose 107 export successes (15 percent of 720) for FY 2005 and 55 (29 percent of 187) for FY 2006, as of
April 27, for our sample.


                                                      25
U.S. Department of Commerce                                                                Final Report IPE-18114
Office of Inspector General                                                                           March 2007

who is the head of the Brasilia office but has only been in that position since April 2006—
reported that several of the authors of the sampled export success stories were no longer
employees of CS Brazil and the author of the remaining export success stories lost supporting
documentation when the computer system permanently failed. Additionally, the local-hire staff
member at the Porto Alegre office was not able to provide any support documentation for the 3
export successes in our sample.

The CS Operations Manual states that the author of the export success story is “responsible for
ensuring the accuracy and integrity of all (export success) content, compliance with all (export
success) Guidelines, [and] confirmation and clearance of the (export success) by the client, and
maintenance of appropriate support documentation.”

Reviewers are not adhering to CS guidelines
                                                                Figure 5. Responsibilities of First-Level Reviewer
The lack of adequate documentation also points to First-level Reviewer:
another problem—first-level reviewers are not           Responsible for checking ES Reports for compliance with
                                                        ES Guidelines, clarity and consistency of the narrative, etc.
checking the validity of export success stories         Responsible for spot-checking the accuracy of ES content
before approving them, as required. Most officers       via calls to clients, review of background files, discussion
said when reviewing export success stories, they        with the ES Report author, etc. Also responsible for
                                                        applying good judgment as to whether ES claims are
are primarily concerned with determining whether        reasonable (“red face” test).
the claimed successes are allowable and the
narratives contain the required elements. Some        Source: Export Success Guidelines, CS Operations
CS Brazil officers were not even aware that first- Manual, U.S. Commercial Service, August 2005.
level reviewers are required to do spot-checks.
Another factor that may impact the review of export successes is that CS Brazil submits most
export successes in the fourth quarter. In FYs 2003 to 2005, the post recorded twice as many
successes in the fourth quarter than in any preceding quarter (see Table 7). With such heavy
fourth quarter reporting, officers have less than 3 months to review and approve hundreds of
export successes.

Table 7. Total Export Successes Generated per Quarter for FYs 2003-2006.
   Fiscal        1st        % of      2nd         % of          3rd      % of      4th         % of      Total for
    year       Quarter      Total    Quarter      Total        Quarter   Total    Quarter      Total    Fiscal Year
  FY 2003         42        9%           49        11%           71      16%         293       64%          455
  FY 2004         21        4%           98        17%          142      24%         332       56%          593
  FY 2005         60        9%          125        19%          119      18%         355       54%          659
  FY 2006         105       19%         57         10%           60      11%         343       61%          565
Source: eMenu, Commercial Service

In September 2006, CS’ acting deputy director general sent out a worldwide email informing all
CS staff of new approval procedures for export success verification that would be included in
CS’ revised guidance, both of which would be effective on October 1, 2006. The new guidance
requires each first-level reviewer to independently confirm 10 percent of all export successes he
or she reviews each quarter. Confirmation includes contacting the client, reviewing CMS
records, and other actions and then filling out the new confirmation form to verify the first-level
review. CS also provided a new export success learning module which is incorporated into the


                                                          26
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

CS Operations Manual so that all employees can learn about the new procedures. We
recommend that CS management confirm with each post and USEAC that the new procedures
are understood and being followed. CS also should encourage continuous export success
recording throughout the year to allow more time for reviewers to scrutinize and validate them.

Recommendations:

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
United States and Foreign and Commercial Service ensure that the following actions are taken
to improve CS Brazil operations:

   •   Revise the CS Operations Manual’s definition of an invalid export success to include
       claims of export successes that directly foster foreign exports, such as the rental of booth
       spaces at U.S. trade shows for foreign companies to exhibit their products for sale in the
       United States.
   •   Remove all invalid and questionable CS Brazil export successes from CS’ database.
   •   Review export success performance data for CS Brazil and all CS posts worldwide to
       identify erroneously awarded office credits based on relocated officers and adjust the
       reported numbers.
   •   Confirm that each post and USEAC understands and are following CS’ October 2006
       revised export success reporting guidance and verification procedures, including
           o Maintenance of export success documentation that can be used to verify all the
               necessary components of a valid export success story, and
           o Validation of export successes using CS’ approved verification procedures for CS
               officers.
   •   Encourage CS Brazil staff to more regularly record export successes throughout the fiscal
       year to prevent a year-end overload.




ITA Response to OIG Draft Report and OIG Comments

In response to our draft report, the Deputy Under Secretary for International Trade concurred
with most of our recommendations regarding export successes. However, ITA stated CS will
take under advisement the recommendation to revise the CS Operations Manual’s definition of
an invalid export success to include claims of export successes that directly foster foreign
exports, such as the rental of booth spaces at U.S. trade shows for foreign companies to sell their
products. The response noted that U.S. trade show organizations are a legitimate part of the
American services sector and CS works closely with these organizations to promote exports.

In response to the recommendation to remove all invalid and questionable CS Brazil export
successes, ITA stated that CS Brazil will work with the CS Office of Strategic Planning to
complete this task. ITA also said that the CS OIO Western Hemisphere Office will work with
CS Brazil and the CS Office of Strategic Planning to review CS Brazil export successes and
remove erroneously awarded office credits. In addition the CS OIO Western Hemisphere Office


                                                27
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                             March 2007

will advise the Office of Strategic Planning on the broader CS scope of this recommendation.
Furthermore, CS Brazil management will also reiterate CS’ latest export success reporting
guidance and verification procedures at its upcoming All Hands conference in April 2007, and
will continue to emphasize the importance of preserving ES documentation and CS’ approved
verification procedures throughout FY 2007. ITA indicated that CS Brazil management will
coach staff to routinely follow up with clients throughout the year in order to continuously mine
export successes. First line managers will also perform quarterly checks of export successes and
discuss performance with staff.

ITA concurred that this draft report along with previous IG inspection reports raised substantial
issues regarding the export success metrics and the collection/reporting process. As a result, ITA
will conduct an in-depth, detailed program evaluation of export successes and the ES business
processes. This review will be designed and completed during the next two quarters of FY 2007.
ITA also noted that its Office of Financial Management began an independent on-going export
success verification process in the domestic field during FY 2006 and will expand the effort in
FY 2007 at selected overseas posts. This will become a second level of independent verification
in addition to CS’ upgrades to its export success internal controls.

We appreciate the efforts ITA and CS have taken and plan to take to accurately report export
successes. We look forward to a report on their progress in ITA’s action plan prepared in
response to our final report. In addition, we also request a copy of ITA’s program evaluation of
Export Successes and the ES business processes upon its completion.




                                               28
U.S. Department of Commerce                                                                           Final Report IPE-18114
Office of Inspector General                                                                                      March 2007

IV.      CS Brazil Responded to Budget Cuts by Adjusting Its Programmatic Priorities to
         Increase Collections

From FYs 2004-2006, CS Brazil’s fixed expenditures increased from $1.6 million to $2.4 million
primarily because of increases in personnel costs and a fluctuating exchange rate. As a result of
overall CS budget reductions and the post’s increased fixed costs, CS headquarters was forced to
decrease the post’s discretionary budget by 63 percent—from $689,496 to $254,921 (see Table
8). However, CS headquarters increased the post’s discretionary budget by the end of the fiscal
year. With these budget changes, the post is now placing greater emphasis on collections for
products and services—trust fund collections—to supplement its discretionary budget and help
pay for such items as travel and supplies. By focusing more of the post’s time and resources on
activities that generate collections, the post may be limiting the types of products and services it
provides to U.S. exporters.

Table 8. CS Brazil’s Operating and Administrative (O&A)Budget for FYs 2004-2006.
     CS Brazil O&A Budget Figures                              % of                        % of                        % of
                                              FY 2004                       FY 2005                     FY 2006
              (Authorized)                                     Total                       Total                       Total
 Administrative Travel Expenses                 $ 11,340           0.5%     $ 10,562          0.4%        $ 13,366        0.5%
 Personnel Expenses (non-officer)               $1,308,350        56.5%     $1,598,700       64.9%       $2,163,000      76.6%
  - Personnel Benefits a                        $ 242,930         10.5%     $ 301,465        12.2%       $ 701,000       24.8%
 Short Term/GSA Leases                          $ 304,741         13.2%     $ 457,800        18.6%       $ 248,000        8.8%
 Total Fixed Expenses                           $1,624,431        70.2%     $2,067,062       83.9%       $2,424,366      85.9%
 Direct Program Support (DPS)
   - DPS Travel/Trans. of Persons a             $ 169,156          7.3%     $ 90,174          3.7%       $ 83,443 b       2.9%
                           a
   - Other DPS Expenses                         $ 357,200         15.4%     $ 269,374        10.9%        $ 286,725      10.2%
 Furniture and Equipment Expenses               $ 154,040          6.7%     $ 27,954          1.1%        $ 20,197        0.7%
 Representation/Hospitality Expenses            $     9,100        0.4%     $      9,100      0.4%        $    9,100      0.3%
                                                                                                                    c
 Total Discretionary                             $ 689,496        29.8%      $ 396,602       16.1%       $ 399,465       14.1%
 TOTAL O&A BUDGET                               $2,313,927                  $2,463,664                   $2,823,831
 a
   These line items do not have separate authorizations. In order to break them out, we used the post's requested spending
 plans for these line items as the amount authorized by CS headquarters.
 b
    This includes $27,254 that CS erroneously included in the budget figures provided to us during our inspection.
 c
    By the end of the fiscal year and after our onsite inspection, CS headquarters increased the post’s discretionary budget.
Source: eMenu, Commercial Service, October 24, 2006

A.     CS Brazil’s fixed costs for local staff have dramatically increased

At the time of our review, CS Brazil non-officer personnel expenses totaled more than $2.1
million in FY 2006, a 76 percent increase over the $1.3 million cost in FY 2004. CS officials
told us the increases were caused by a number of factors, including the U.S. dollar depreciating
against the Brazilian real, embassy-wide salary increases for local-hire staff, one full-year of
expenses (FY 2006) for the new CS Belo Horizonte office director, and local hire benefits, which
increased 132 percent in FY 2006 and 24 percent in FY 2005.

Beginning in FY 2006, CS Brazil paid the salary and benefits for the new office director in CS
Belo Horizonte. This position had previously been filled by an officer and was not funded
through the post’s operating and administrative budget. In addition, in FY 2006, several foreign


                                                               29
U.S. Department of Commerce                                                                              Final Report IPE-18114
Office of Inspector General                                                                                         March 2007

service national employees were moved up to the highest grade/pay level as a result of the State
Department’s Computer-Aided Job Evaluation (CAJE) process.35 Previously, these employees
were salaried below the highest pay grade, so there was a significant pay adjustment for them in
FY 2006. In addition, the post projected salary increases of 10 percent in FY 2006 for all local
employees. CS Brazil also saw increases in health insurance costs from FY 2004 to FY 2006.

B.                    Travel budget reductions significantly limit CS Brazil’s outreach and staff travel to
                      constituent posts

During our inspection, CS Brazil’s personnel expenses represented 76.6 percent of the post’s
2006 operating and administrative budget (see Figure 6). The post’s travel budget was reduced
by CS headquarters below that of other posts of similar size, and with that change its
discretionary budget was no longer able to supplement direct program support (DPS) such as
travel, printing, supplies, and utilities. CS Brazil was required to find alternatives to continue
operating at a reasonable level.

At the time of our review, CS reduced staff travel funds by 51 percent—from $169,156 in FY
2004 to $83,443 in FY 2006. However, only $26,443 was actually available for travel expenses
in FY 2006 because the remaining budget was added in during the last quarter and designated for
the CS Brazil All-Hands Conference ($42,800) and officer training expenses ($14,200). With its
available travel funds cut so dramatically, CS Brazil employees are limited in their ability to
travel between offices and conduct outreach, including travel by the SCO and DSCO, who are
not located in the same cities and must meet with other senior level embassy officials and
oversee the post’s five offices.

Figure 6. Major Categories of CS Brazil’s Operating and Administrative Budget by
Percentage, FYs 2004-2006
                            100%
     Percent of Total O&A




                            80%
                            60%
            Budget




                            40%
                            20%
                             0%
                                             FY 2004                  FY 2005                       FY 2006
                               Personnel Expenses                          DPS travel/trans of persons
                               Other fixed expenses (w/o personnel)        Other discretionary expenses (w/o DPS travel)

Source: Operating and administrative authorizations and plans, eMenu, Commercial Service, October 2006


We compared FY 2004 travel funds for other CS posts of comparable size (CS Mexico, CS
Japan, CS Russia, and CS India) and found CS Brazil had the highest budget in U.S. dollars for




35
  CAJE is the interagency job evaluation for positions filled by overseas employees under the Chief of Mission
authority.


                                                                      30
U.S. Department of Commerce                                                                  Final Report IPE-18114
Office of Inspector General                                                                             March 2007

discretionary staff travel (see Figure 7).36 However, by FY 2006, CS Brazil had the lowest travel
budget of any of those posts.

Figure 7. Travel Fund Comparison Among Select CS Posts, FYs 2004-2006.

                    $200,000                                                                      Brazil
                    $160,000
     U.S. Dollars




                                                                                                  Mexico
                    $120,000
                     $80,000                                                                      Japan
                     $40,000                                                                      India
                        $-
                                                                                                  Russia
                                  FY 2004            FY 2005            FY 2006

Source: DPS Travel Funds (Plans), eMenu, Commercial Service, July 2006

As a result of these budget constraints, post employees seek as many alternatives to traveling as
possible. The post uses its digital video conferencing system to facilitate information sharing
among CS staff and others. In one instance, an FSN employee paid her own expenses to attend
an important trade event outside the area because CS Brazil could not fund her travel. We
recommend CS headquarters evaluate CS Brazil’s discretionary travel budget to ensure it
receives the necessary resources to complete its mission.

C.                  Increased emphasis on trust fund collections may impact the post’s overall performance

To continue operating at its current level, CS Brazil management has sought to increase the
post’s cost recovery or trust fund collections from the products, services and trade events it
provides to CS clients. The post had a 35 percent drop in collections from FY 2004 to FY 2005.
But CS Brazil increased collections from $219,493 in FY 2005 to $387,379 in FY 2006 in order
to recover more funds to cover its operating and administrative budget shortfall (see Figure 8).
This increased pressure to bring in extra funds through trust fund collections affects other areas
of performance.

Figure 8. CS Brazil’s Collections from Products and Services, FYs 2004-2006.

           $500,000
                                                                                  $387,379
           $400,000
                                $339,622
           $300,000
                                                         $219,493
           $200,000
           $100,000
                      $0
                                 FY 2004                 FY 2005                   FY 2006


Source: eMenu, Commercial Service


36
  CS China was also included in our analysis, but we found that its discretionary travel budget was much higher
than any of the other posts by a large margin so it was not an appropriate post to compare to. In FY 2004, CS China
was given $296,142. In FY 2005, that figure increased to $574,564, and in FY 2006, CS China received $424,846
for travel.


                                                               31
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

CS Brazil traditionally collected these funds to pay for products and services it provides and the
post’s seven trust fund employee positions, which are not covered by traditional O&A funding.
When fully staffed, these positions account for approximately $188,000 annually. However,
without enough O&A money to cover outreach and travel, the post must divide its collections
between paying for the trust fund employees and paying for expenses that exceed the available
O&A funding.

We found this creates an additional level of pressure for CS Brazil’s employees. First, many
FSNs are displeased about working towards paying trust fund employees’ salaries before most
other expenses can be incurred, such as travel or support for a CS sponsored trade show. This
appeared to create dissension among the employees. For example, one of the main points of
contention is that CS Brazil wants to use trust fund collections first to pay the general trust fund
salary expenses and then to support travel or program costs in the industry sector that generated
the funds. According to CS, Brazil is one of the few posts with some employees paid entirely
from trust funds. We understand that using trust funds to pay for additional staff is a useful way
to increase staff without increasing the O&A budget. However it also creates a large burden on a
post already experiencing severe budget constraints. Given its limited discretionary budget and
the relatively high cost of employing trust fund employees, we recommend CS Brazil evaluate
the cost effectiveness of trust fund employees and determine whether any alternatives, such as
transferring some of the positions to the O&A budget or eliminating the positions completely,
would be a better use of financial resources and might address some of the employee morale
issues.

CS Brazil’s focus on generating trust fund revenue to supplement the budget also seems to
distract the post from focusing on critical core products that may better attract U.S. exports. For
example, in FY 2006 CS Brazil performed significantly fewer Gold Key services (22 percent
less) and less customized market research (30 percent less) than in FY 2005. A strong emphasis
on trust fund collections may limit the post’s involvement in such programs with more restricted
pricing (see chapter V for more detail). The post should develop a more effective strategy to
increase trust fund collections while also increasing the number of traditional products and
services provided to U.S. clients, such as Gold Key services and customized market research.

Recommendations:

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
United States and Foreign and Commercial Service ensure that the following actions are taken
to improve CS Brazil operations:

   •   Reevaluate CS Brazil’s discretionary travel budget in an effort to ensure that the post has
       adequate resources to complete its mission.
   •   Assess the cost effectiveness of trust fund employees and determine whether any
       alternatives, such as transferring some of the positions to the operating and administrative
       budget or eliminating the positions completely, would be a better use of financial
       resources.




                                                32
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

   •   Develop a more effective strategy to increase or maintain trust fund collections while also
       increasing the number of core products and services provided to U.S. clients, such as
       Gold Key services and customized market research.



ITA Response to OIG Draft Report and OIG Comments

The Deputy Under Secretary for International Trade, in responding to our draft report, mostly
concurred with our recommendations. In response to our recommendation that CS reevaluate the
post’s discretionary travel budget, ITA reported that CS Brazil’s discretionary travel budget was
reviewed and would be increased in FY 2007 to a budgeted level of $107,079. ITA reported that
this will allow for more of CS Brazil’s FSNs to attend industry trade shows, officers and FSNs to
travel to important country-wide meetings, the SCO to participate in the U.S.-Brazil Commercial
Dialogue meetings, and the standards attaché to travel on a regional basis. We also note that in
its response, ITA stated that an eMenu tracking error incorrectly credited CS Brazil’s FY 2006
discretionary travel budget with an additional $27,254 for the hotel contract to support the CS
Brazil All-Hands Conference. As a result, ITA noted the discrepancy between the $83,443 cited
in our draft report and the $56,189 it stated as CS Brazil’s total discretionary travel budget for
FY 2006.

In response to our recommendation to review the cost effectiveness of trust fund employees, ITA
noted that CS is reviewing the management, budget, and operations in Brazil, including staffing
levels. With regard to our recommendation that CS develop a more effective trust fund
collections strategy that includes increasing its core products and services, ITA stated that CS
Brazil is already taking action. Specifically, ITA reported that collections issues and use of trust
funds were discussed during the October 2006 CS Brazil All-Hands Conference and a team of
CS Brazil officers has been formed to review these issues and develop possible solutions. The
post is also developing a system to ensure that all officers and employees understand the process
of collection and disbursement of trust funds. ITA’s response also asserted that CS Brazil’s
collections are generated by the post’s “balanced and aggressive trade promotion program that
provides U.S. firms with CS products and services that are appropriate for the Brazilian market.”
While we agree that CS Brazil has taken an aggressive role to increase trust funds, we reiterate
our recommendation that the post needs to develop a strategy that also increases the number of
core products and services provided to U.S. exporters.




                                                33
U.S. Department of Commerce                                                                    Final Report IPE-18114
Office of Inspector General                                                                               March 2007

V.         CS Brazil’s Products, Services, and Outreach Have Increased but Some
           Improvements Are Needed

From FY 2005 to FY 2006, CS Brazil increased the number of products and services involving
collections from 241 to 268. But its increased involvement in certain types of services combined
with the current design of its performance goal system may be limiting the post’s ability to
promote other traditional or core CS products and services to U.S. exporters. In addition, we
found the post’s market research reports are generally well written, but efforts to increase
unplanned market research should be expanded. CS Brazil customers were generally satisfied
with most of the post’s products and services but the practice of presenting catalog shows should
be reevaluated.

We also learned that some of the post’s efforts to promote bilateral trade may not be the most
effective at attracting U.S. exporters to the region. One successful pilot program, Retail in Rio,
has not had the same results since it was expanded, and the once-innovative Network U.S.A.
program does not seem to be meeting the current needs of U.S. exporters.

A.       Products and services are not increasing at the same rate as collections

As noted in the previous chapter, a heavy emphasis on trust fund collections may be driving CS
Brazil’s production to services that allow flexible pricing, such as Platinum Key services and
official events, and limiting the post’s involvement in other programs with more restricted
pricing, such as Gold Key services and market research. From FY 2005 to FY 2006, the post
increased its collections from $219,493 to $387,379 (76 percent); however, the total number of
services performed in the same period only increased 11 percent, from 241 to 268 (see Table
9).37
      Table 9. Number of Products & Services Offered vs. Collections, FYs 2004-2006.
                                Name of Product/Service                  FY 2004    FY 2005    FY 2006
                                                           Number            29        38          86
                        Business Facilitation Service
                                                          Collections     $40,692   $28,565     $35,722
                                                           Number            0         18          24
                   BuyUSA.gov Business Service Provider
                                                          Collections     $     -   $3,600      $4,700
                                                           Number            30        20          14
                       Customized Market Research
                                                          Collections     $14,450   $15,655     $16,000
                                                           Number           103        96          75
                        Gold Key Matching Service
                                                          Collections    $59,575    $74,350    $66,515
                                                           Number            17        18          21
                       International Company Profile
                                                          Collections     $8,500     $9,180     $11,000
                                                           Number            22        23          24
                        International Partner Search
                                                          Collections    $11,500    $13,800    $13,400
                                                           Number            1         3           8
                           Platinum Key Service
                                                          Collections     $5,900    $20,280     $72,410
                                                           Number            15        16          13
                              Official Events
                                                          Collections    $189,747   $46,951    $157,194
                                                           Number            28        9           3
                            Post Initiated Events
                                                          Collections     $9,248     $7,112     $10,438
                                                           Number           245       241         268
                                  TOTAL
                                                           Collections   $339,612   $219,493   $387,379
               Source: eMenu, Trust Fund Management Report, Commercial Service, October 26, 2006

37
     These totals are based on eMenu’s trust fund management reports.


                                                          34
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

In FY 2006 the post generated more revenue per service for official events and Platinum Key
service. CS collected $46,951 for 16 official events in FY 2005 compared to more than
$157,194 for only 13 official events in FY 2006. We note, however, that official event
collections include $67,000 for a multi-country event because eMenu—CS’ internal financial
management system—does not separate funds for events by country, so official event collections
for CS Brazil may be inflated. In this instance, Brazil was credited with at least $20,000 more
than it actually collected. CS Brazil also increased its Platinum Key service collections by nearly
260 percent for only eight services. The Platinum Key service does provide pricing flexibility;
however, generating this type of revenue may not always be the most effective tool for reaching
the maximum number of small- and medium-sized U.S. exporters.

Post increased buyer delegations while other products and services declined

CS Brazil promoted or accompanied nine International Buyer Program delegations in FY 2005,
25 between March 2006 and September 2006, and, according to its preliminary FY 2007 events
schedule, intends to promote at least 15 U.S. trade events this coming fiscal year. International
buyer delegations function as a way for CS staff to travel to the U.S. more often, because each
time a CS staffer recruits 15 buyers, he or she gets a free trip to accompany Brazilian clients to
U.S. trade events. While we recognize that CS Brazil is engaged in trade facilitation by
accompanying Brazilian clients to the U.S. trade events, we are concerned that not being
engaged with U.S. clients may diminish the post’s ability to also provide its traditional products
and services to U.S. exporters.

In fact, we noted that CS Brazil provided fewer of its three top customary products and services
last year, namely the Gold Key service, customized market research, and local trade events.
From FY 2005 to FY 2006, Gold Key services dropped from 96 to 75 and the number of
customized market research reports fell from 20 to 14. The post promoted only 3 of at least 27
trade events that we found were held in Brazil between August and November 2006 and
promoted by other countries’ international trade websites. In addition, CS Brazil planned to host
catalog shows at these 3 events rather than encourage U.S. companies to physically exhibit at the
show, despite the limited success of catalog shows. According to CS specialists, the Brazilian
buyer has become more sophisticated and wants to inspect the actual product at the booth rather
than browse a catalog. Another reason these events are less productive is that CS Brazil
sometimes organizes catalog shows at multi-sector trade events that target many industry sectors.
According to CS’ Global Trade Program staff, catalog shows are more successful when they
target a specific sector, because the attendees are looking for a particular product. We
recommend CS Brazil increase its goals for promotion of local trade events to U.S. exporters and
increase their involvement in these shows. Further, it should examine the effectiveness of
catalog shows and determine whether it should continue to offer this product or replace it with
another that better meets client needs and better promotes U.S. exports.

Varied performance goals and expectations challenge the post’s efforts and cooperation

We found that different production and collection goals at each office are influencing what is
produced, and impacting cooperation among FSNs within Brazil. The SCO told us that each
PCO devises his or her own strategy when developing the post-specific goals.



                                                35
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                             March 2007


CS Sao Paulo implemented a
performance goal system in FYs             Table 10. Sao Paulo Performance Goals, FY 2006
2005 and 2006 for commercial                              Gold Key or    Export    Trust    Market
                                          FSN Grade
assistants (grades 6/7/8/9/10) and                       Partner Search Successes  Funds   Research
                                           Grade 6-8         None          15     $15,000     13
commercial specialists (grades 9/10). Grade 9-10               8           30     $15,000     15
In FY 2006, CS Brasilia only set
export success goals for its FSNs–20       Source: CS Brazil
export successes for its commercial
assistants and 40 for its specialist. CS Rio de Janeiro has an office-wide export success goal, but
trust fund collections and market research goals are customized for each FSN. CS Belo
Horizonte is “team oriented” and thus does not foster specific goals (except for market research).
CS Porto Alegre has the same goals as Sao Paulo commercial specialists.

Some FSNs at the Sao Paulo office said they found the use of performance goals, including goals
for export successes, invigorating and effective in motivating them to perform. However, several
others stated that a strong emphasis is placed on generating trust fund collections. Combined
with export success goals, we found a high level of competition among many FSNs which is not
necessarily fostering country-wide cooperation. The local staff at other CS offices in Brazil said
they found some of their performance goals to be unrealistic because most U.S. companies only
want to explore commercial opportunities in and around Sao Paulo, and they also have to spend a
great deal of time on non-export promotion activities. For example, a CS Brasilia FSN noted
that the local staff spend much more time on resolving trade advocacy issues and supporting CS
Brazil’s embassy relations. Thus, they have less time and resources to produce as many export
successes as do the Sao Paulo staff. Performance appraisals can be negatively impacted if the
staff do not meet their goals, which may encourage some staff to inflate their performance
numbers. For example, we found FSNs reported individual export successes for claims that
should be combined into one record. In Sao Paulo, the SCO did state that if an FSN does not
achieve satisfactory goals over an average of 2 consecutive years, the employee does not receive
a satisfactory rating and a within-grade step increase. Similarly, the Rio de Janeiro PCO stated
that she plans to follow this policy. However she is prepared to set lower goals based on FY
2006 performance in accordance with current policy, which allows each manager to determine
office and FSN goals at his or her own discretion.

Overall, we commend CS Brazil for its aggressive effort to set goals for some of its staff. While
the performance goals are fairly new, it appears they are not emphasizing the traditional products
and services that directly support U.S. exporters. Based on the post’s recent experience with its
performance goal system, we recommend CS Brazil reevaluate its goal system given the other
constraints on the post’s resources, to determine what may be achievable to help ensure balanced
priorities and greater exports, and make any necessary adjustments to its performance goals.

B.   Market research reports are professional and very informative

CS Brazil produces planned market research reports that contain sector-level market information
to help U.S. companies assess market opportunities for their products and services, unplanned
market research reports to inform U.S. exporters of international market trends and unique



                                                36
U.S. Department of Commerce                                                             Final Report IPE-18114
Office of Inspector General                                                                        March 2007

business opportunities, and customized market research reports that discuss market conditions
for client-specific products and services. We reviewed a sample of these market research reports
for calendar years 2005 and 2006. Overall, we found that the reports contained detailed market
information and were written in a professional manner.

The planned market research reports we reviewed discussed several sectors including agriculture,
mining, telecommunications, and medical equipment. We found older reports varied greatly in
their format and content. For example, some older reports contained incorrect contact
information and lacked dates, market access details, and upcoming trade show information. In
February 2006, CS headquarters revised its market research guidelines and issued a standard
template with instructions. CS Brazil’s recent market research reports reflect the current
changes.

CS Brazil produced 85 unplanned market research reports in the first nine months of calendar
year 2006 compared to 125 reports during the same time in 2005, approximately 32 percent
fewer. 38 CS Brazil staff told us that several factors contributed to the decline. Due to budget
constraints, the post canceled a $10,000 subscription to a bilingual news service that provides
information on 11 sectors in Latin America including telecommunications, banking, information
technology, oil and gas, and electrical power (this was used by the post to write reports about
development and changes in specific sectors or industries.) In addition, the Secretary’s June
2006 visit combined with other VIP delegations reportedly slowed CS Brazil’s production of
unplanned market research. In fact, Belo Horizonte reviewed Brasilia’s market research reports
during the time Brasilia was preparing for the Secretary’s visit. We recommend CS Brazil
increase production of unplanned market research reports, because they inform U.S. exporters of
recent developments in Brazil’s markets.

CS Brazil completed 18 customized market research reports in FY 2005 and 15 in FY 2006.
Some of the reports were produced by outside market research firms, while others were written
by CS specialists. We reviewed a sample of the CMR reports and found them to be very
comprehensive and well-written.

C.    CS Brazil’s English web site could be improved

We reviewed CS Brazil’s English web site to determine its effectiveness in informing interested
parties of U.S. export opportunities in Brazil and compared the English web site to CS Brazil’s
Portuguese version. CS Brazil’s English web site lists office contact information for each post,
contains a guide of CS Brazil services, and identifies upcoming Brazil events. In addition, the
web site includes contact information for Brazilian business service providers such as attorneys,
interpreters, and consultants who can provide further assistance to U.S. exporters. Industry
reports, the Country Commercial Guide, the U.S. Export Finance Guide, and other useful
business information are also featured on the web site. However, we found the English web site
difficult to navigate at times, and we could not readily find office or regional market information
except for basic contact information. For example, the Country Commercial Guide provides best
industry prospects for Brazil, however we were unable to identify best industry prospects in each

38
  Calculations are based on the number of unplanned market research reports issued between January 1 and
September 30 of each year.


                                                      37
U.S. Department of Commerce                                                                    Final Report IPE-18114
Office of Inspector General                                                                               March 2007

region and unable to find market research by city. Furthermore, even though standards and IPR
are important issues in Brazil, this information was not prominently displayed on the web site.
In contrast, CS Brazil’s Portuguese web site designed for a totally different audience—the
Brazilian importer—prominently featured CS Brazil’s trade event calendar and discussed trade
events in Brazil.

We also reviewed web sites from four other CS posts and identified a number of best practices
that could provide ideas for further improving CS Brazil’s English web site (see Table 11).

Table 11: CS Posts’ Web Site Best Practices
CS Post Features/Best
                                Benefits
Website Practices
India     India at A Glance     Provides information on the government, workweek, entry/exit requirements, and key
                                economic indicators.

          (Consolidated)        Consolidates market information including best prospects, market entry strategy,
          India Market          doing business in India, and market research.
          Overview
                                Identifies industry sectors according to each CS India post.
          Industry List by
          Post
China     Contact U.S. by       Offers user a regional overview for the each of the 6 posts in China and an email
          Region                contact by industry for each region.

          China Information     Consolidates market information by industry sector such as market overview, market
          by Industry           research, trade events, testimonials, and CS China industry contact at each post.

          Visitor’s Guide       Includes basic Chinese phrases, and cultural and money usage tips.
Mexico    Find Opportunities    Consolidates market information by industry sector such as market overview, market
          by Industry           research, trade events, testimonials, and CS Mexico contact.

          Find Logistics        Discusses customs issues in Mexico.
          Solutions in Mexico

          Find Regulations      Provides information on Mexico’s standards, regulations, and regulatory changes.
          and Standards in
          Mexico
Russia    (Interactive) Trade   Lists CS Russia’s participation in all local and U.S. trade events and email address for
          Event Calendar        the FSN responsible for the event.

          Special Projects      Highlights CS Russia special projects such as Business Information Services for Newly
                                Independent States.

          Russian Trade         Identifies trade opportunities with Russian companies seeking to import specific
          Leads                 products and services. FSN contact information is included for interested parties.
Source: Commercial Service

We recommend that CS Brazil include a regional orientation to its web site so users can also
search best industry prospects, market research, and trade events at each post. Standards,
intellectual property rights, and customs information should also be included on the web site.




                                                        38
U.S. Department of Commerce                                                                    Final Report IPE-18114
Office of Inspector General                                                                               March 2007

D.       CS Brazil clients are generally satisfied with the post’s products and services, but
         indicate some dissatisfaction with post-sponsored events

During our review, we sought feedback from 150 of CS Brazil’s clients who received a product
or service between October 1, 2004 and April 28, 2006, and we received 25 responses (17
percent).39 Most of the respondents were satisfied with their product or service (see Figure 9).
For example, 92 percent of the respondents indicated that the product or service was delivered in
a timely manner and 96 percent would recommend the product or service to others.

Figure 9. CS Brazil's Client Satisfaction According to Feedback Provided to OIG
                                                 4%

                                                                  44%                         Very Satisfied (11)

                                                                                              Satisfied (13)
                               52%
                                                                                              Unsure (1)


     Source: Feedback provided to OIG (June 2006)

CS’ Customer Relationship Management unit, which administers surveys to determine client
satisfaction, received 61 out of 141 surveys (a 43 percent response rate). According to CS’
survey data, 85 percent of CS Brazil’s clients indicated they are generally satisfied with their
products and services.40 CS Brazil either increased or maintained the same levels of customer
satisfaction between FYs 2005 and 2006 (see Figure 10 below).

Figure 10. Customer Satisfaction for CS Brazil’s Products and Services
                Platinum Key Service
         International Partner Search
       International Com pany Profile
                                                                                                     FY 2006
          Gold Key Matching Service
                                                                                                     FY 2005
       Custom ized Market Research

                                        0   10    20   30   40   50   60   70   80   90 100
                                            Custom er Satisfaction Level in Percent



Source: eMenu

Despite these favorable ratings, some clients expressed concerns about the quality of several
products and services. Complaints included: little or no follow-up by CS Brazil staff, poor
contact lists, and irrelevant information that did not meet client’s criteria. One dissatisfied
customer from 2005 stated that his initial instructions were not followed, and he only received
the revised information a day before his trip. However, CS Brazil appears to be improving its


39
   OIG sought feedback from clients who did not respond to the CS Customer Relationship Management unit’s
surveys.
40
   Performance Measure for Customer Service: CS Brazil End-of-Year Report FY 2005.


                                                             39
U.S. Department of Commerce                                                                  Final Report IPE-18114
Office of Inspector General                                                                             March 2007

client satisfaction, since we note that at the time of our review it had not received a “dissatisfied”
rating for any of its FY 2006 products and services.41

The same cannot be said for client satisfaction levels for CS Brazil’s events.42 Specifically,
during the same timeframe (FY 2005 to FY2006), the customer satisfaction level for CS Brazil
events has decreased significantly. For FY 2005, event customer satisfaction levels averaged 74
percent, but fell to 68 percent in FY 2006. Clients were particularly dissatisfied with the Expo
U.S.A 2006-Region Mercosur catalog show (see Figure 11), reporting that (1) limited event
promotion, (2) conflicting set-up instructions, and (3) misplaced catalogs ultimately affected the
event’s success. According to the customer surveys, factors that also contributed to high levels
of dissatisfaction, included inappropriate trade leads, unscreened lists of attendees, and
inaccurate contact lists.

Figure 11. Expo U.S.A 2006 Satisfaction with Local Trade Leads
                   11%        3% 3%
                                                19%
                                                                           Extremely Satisfied
                                                                           Satisfied
                                                                           Neutral
                                                                           Dissatisfied
          34%                                                              Extremely Dissatisfied
                                                  30%                      N/A


Source: eMenu

As a result, CS Brazil offered Expo U.S.A. dissatisfied clients discounted rates or fee waivers to
participate in future sector-specific catalog shows. In addition, CS Brazil provided all companies
with 6 months of free advertising on the web site and distributed company profiles to its NUSA
partners. We commend CS Brazil for its efforts to resolve customer service problems after they
occur, but we recommend that it do a better job in the event planning and execution stages to
meet or exceed client expectations.

E.       “Retail Brazil” falters following a moderately successful pilot program

In 2004-2005, CS Rio de Janeiro joined with the United States Department of Agriculture’s
Foreign Agricultural Service (FAS) in a pilot program for the retail consumer goods industry
dubbed “Retail in Rio.” The program offered U.S. companies the opportunity to test the
Brazilian market by displaying sample products in four Brazilian airport duty-free stores, at a
local trade show, and a catalog/products display at a commercial association. CS recruited 164
U.S. companies to participate. Of these companies, Brazilian retailers chose 33 new-to-market
and 27 companies already exporting to Brazil to display and sell products in high-traffic areas of
their stores or trade shows.



41
     Information based on CS Customer Relationship Management survey results as of December 11, 2006.
42
     During FY 2006, CS Brazil event surveys reported 13 “dissatisfied” and 4 “extremely dissatisfied” ratings.



                                                           40
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

To support the pilot program, the two agencies created a major marketing campaign that
included recruiting U.S. airlines to distribute promotional materials to passengers on Brazil-
bound flights, and advertising materials in Portuguese and English. The four duty-free stores
distributed banners, totes and flyers. The U.S. ambassador participated in the opening ceremony
at one of the stores, which attracted media attention for the event from a local television station
and newspapers. Overall, it appears that the Retail in Rio pilot helped market some U.S.
products in Brazil’s international airports and at local trade events. CS Brazil reported a total of
64 export successes, including 38 at the duty-free stores. But the campaign was expensive and
the two agencies incurred significant financial losses. The in-store marketing campaign required
a $5,000 investment; telephone expenses to recruit companies totaled $2,500; and the CS officer,
FSN, interns, and USEAC participation combined for over 2,300 hours of non-recovered costs.

The post then developed a “Retail Brazil” program based on the Retail in Rio concept, but with
the caveat that it had to be based on full cost recovery. The new program’s initial results were
encouraging, with approximately 117 U.S. companies indicating interest. But only 12 companies
actually paid a participation fee. That included 6 participants for Retail Brazil and 6 participants
for the Beauty Fair market test program, a Retail Brazil event specific to the cosmetics industry.
We found that the post targeted some clients in the cosmetics industry despite regulatory hurdles
to import products from the U.S. While CS was still able to meet their needs and showcase these
products at Brazil’s largest Beauty Show instead of an in-store promotion, the post ended up
incurring additional costs.

We also found CS Brazil provided use of the Army/Air Post Office (APO) service for companies
to export their product literature and samples to CS Brazil for the retail program and other client
programs, e.g. Platinum Key services. According to Retail Brazil marketing materials, CS Brazil
requested that the participating U.S. companies ship their product literature and non-returnable
samples to CS Rio de Janeiro through the APO. In emails between the PCOs in Sao Paulo and
Rio de Janeiro, they discuss the use of the APO and diplomatic mail for client programs. The
Rio de Janeiro PCO stated that she plans to continue using the APO for Retail Brazil since there
was not a problem using it for the pilot Retail in Rio program. However, the Sao Paulo PCO
stated that his post will not accept any packages sent through the APO for the retail program.
The Sao Paulo PCO stated that the consulate’s management officer does not allow the APO to be
used for business client services.

To follow up on this issue, we asked CS Brazil about the mission’s policy for client use of the
APO. CS Rio de Janeiro did not provide any additional information on its use of the APO or the
consulate’s policy. CS Sao Paulo, in its response to our inquiry, stated that it follows the
“Consulate and Brasilia’s policy on pouch and APO mail…” which does not address
“specifically […] Business-FCS Program client use of APO mail.” CS Sao Paulo’s PCO, as
noted above, also told us that the consulate’s management officer has made it clear that CS
should not use the APO for transporting client catalogs and temporary imports for CS events and
programs.

The pilot program achieved some success with U.S. companies selling products to Brazilian
retail outlets, but there is only limited interest in the program currently. CS Brazil should
evaluate whether Retail Brazil is a program worth continuing. The post should also establish a



                                                41
U.S. Department of Commerce                                                                Final Report IPE-18114
Office of Inspector General                                                                           March 2007

country-wide policy for use of the APO, including its use to transport CS client materials to
Brazil.

F.    The Network U.S.A. program’s effectiveness is declining

Since its inception in 1998, CS Brazil’s Network U.S.A (NUSA) efforts have yielded an average
of 102 export successes per year. Many of these export successes were reported as results from
Brazilian International Buyer Programs or reverse trade missions to the U.S., when participants
purchased U.S. goods and services or identified and contracted with Brazilian agents and
distributors to represent U.S. companies.

However, 93 (50 percent) of the export     Figure 12: Booth Space Rentals Reported as Export
successes for FY 2004 and 85 (52           Successes Generated through NUSA
percent) of the export successes for FY


                                                        Number of NUSA Export Successes
2005 were claimed for NUSA assistance             200
in recruiting Brazilians to rent booth
spaces to exhibit Brazilian products at           150
                                                                93
U.S. trade shows (see Figure 12). Such                                               85
an export success claim does not appear           100
to meet the intent of CS’ mission. While
                                                   50           93
the booth rentals may generate some                                                  79
                                                                                                         13
limited sales—approximately $1,000 to                0
$5,000 per booth—for U.S. trade show                         FY 2004              FY 2005            FY 2006*
organizers, assisting Brazilians to rent         NUSA Export Successes for Booth Space Rentals**
booth spaces to sell their products at           NUSA Export Successes for Non-Booth Space
U.S. trade shows is primarily promoting       * The FY 2006 figure represents CS Brazil's progress as of 08/08/06.
Brazilian exports, not U.S. exports.          ** We only identified booth space rental export successes for FYs 2004
                                              and 2005. None were claimed in FY 2006 as of 08/08/06.
Hence, such activities appear to run
counter to CS’ mission. We discussed
                                            Source: eMenu, Commercial Service, August 8, 2006
this issue with CS Brazil staff while at
post. Subsequently, we found, well into the fourth quarter of FY 2006, that CS Brazil had
claimed only 13 export successes for the NUSA program, far below its previous average.

Overall, we question how much value-added assistance NUSA currently provides to U.S. and
Brazilian companies. The program began during the early stages of the Internet age when few
Brazilian companies had regular access to the Internet. That is no longer the case—Brazilians
now have much greater access to the Internet, and many Brazilian companies can actively
conduct Internet research.43 U.S. trade show organizers actively promote their trade events
through the Internet and often register participants via their web sites. And CS Brazil’s web site
provides much of the same information provided by NUSA, including information on upcoming
Brazil and U.S. trade events, trade missions, buyer delegations, U.S. exporters looking for
Brazilian partners, and other trade-related information.



43
  The Central Intelligence Agency’s 2005 World Factbook reports that 25.9 million of Brazil’s 188 million people
(14%) have regular access to the Internet.


                                                               42
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                             March 2007

In response to our concerns about the effectiveness of catalog shows, ITA noted that in FY 2007
the CS Product Enhancement Team initiated a formal, worldwide review to improve catalog
events’ marketing and effectiveness. In addition, ITA reported that the CS Customer
Relationship Management Unit recommended that catalog events be marketed as an inexpensive
way to test a country’s market and CS should prepare a market exposure report for the client.
This report would provide responses to the client’s product and lead to discussion about market
entry, if appropriate. We appreciate CS’ efforts to study catalog events, but we reiterate the
importance of CS Brazil meeting or clarifying clients’ expectations prior to catalog event
participation to help ensure client satisfaction.

In response to our recommendation to reevaluate CS Brazil’s goal system, ITA maintained that
CS Brazil management believes it is necessary to allow flexibility in setting performance goals at
each office based on CS Brazil’s resources and local market conditions and allow each manager
to employ all available tools to properly motivate the staff. For example, Sao Paulo’s
performance goals will continue to target trade promotion activities while CS Brasilia’s goals
will reflect the commercial diplomacy activity with government agencies in the capital city. ITA
stated that commercial diplomacy is a new performance measure and export successes will
continue to measure traditional CS products and services. We understand CS Brazil’s need for
flexibility in setting goals, but reemphasize the importance of setting realistic, achievable goals
to help ensure balanced priorities and enhance cooperation among staff.

ITA restated in its response that the post’s unprecedented number of VIP visits and congressional
delegations and budget cuts in FY 2006, which forced it to cancel its industry periodical
subscriptions, contributed to the drop in CS Brazil’s unplanned market research reports.
However, ITA’s response noted that CS Brazil still led other Latin America posts in the number
of unplanned market research reports. In addition, ITA stated that CS has included increased
unplanned market research in its FY 2007 strategic plan and will provide funding, if available, to
renew industrial periodical subscriptions. ITA’s response also discussed CS Brazil’s plan to
redesign its English language website to include a regional dimension, beyond the current
sector/industry orientation. In addition, pages on standards regulations, IPR, and customs
information will be added to the website.

In response to our recommendation to evaluate the Retail Brazil program, ITA stated that CS
Brazil reviewed the program and decided against formalizing it due to the unsuccessful pilot. CS
Brazil believes the Retail Brazil concept could work at select posts where purchasing power is
stronger and tariff regulations are less onerous than in Brazil. As a result, CS Rio has provided
extensive feedback and lessons learned to Central American posts, which are considering their
own retail initiative. ITA also clarified that CS Brazil used the U.S. military’s APO mail service,
not the diplomatic pouch, for the transport of client materials. However, based on information
obtained from CS Brazil and ITA’s response, it still appears that there is no uniform policy for an
appropriate shipping mode for client materials. According to ITA’s response, CS Brazil is
working with the Military Liaison Office in Brasilia to determine a policy for client materials
that will be used by all CS offices in Brazil. We have updated our report to distinguish between
the use of the APO and the diplomatic pouch.




                                                44
U.S. Department of Commerce                                               Final Report IPE-18114
Office of Inspector General                                                          March 2007

ITA also discussed the conclusions of a CS Brazil “NUSA Team” that was established at the
October 2006 All Hands Conference to identify the best ways for NUSA and CS Brazil to
collaborate to increase U.S. exports. The NUSA Team concluded that NUSA is a highly
effective outreach marketing and recruitment tool that will be most effective serving as the
marketing arm of the nine industry teams and ensuring country-wide outreach. ITA’s response
also stated that NUSA multipliers support CS Brazil when U.S. companies and USG delegations
visit their regions and provide CS Brazil with contacts for Gold Key Services and potential
Brazilian importers of U.S. goods. ITA’s response emphasized that NUSA is a low-cost method
for CS to counter the well-financed European Union’s program that grants significant funds to
Brazilian multipliers. We recognize that CS Brazil benefits from its NUSA partnerships.
However, CS should determine how to better leverage this resource to benefit U.S. exporters
looking to enter the Brazilian market. We ask that ITA include in its action plan the specific
steps CS Brazil has taken or plans to take to improve NUSA’s value to U.S. exporters.




                                              45
U.S. Department of Commerce                                                              Final Report IPE-18114
Office of Inspector General                                                                         March 2007

VI.     CS Brazil’s Relationships with U.S. Trade Promotion Agencies and External
        Stakeholders Are Complex

The Brazilian market is challenging for U.S. exporters but CS Brazil works well for the most part
with its partners and stakeholders to facilitate trade for U.S. exporters. During the last two years,
the post worked with at least 24 USEACs to present “webinars” on doing business in Brazil and
coordinate logistics for international buyer delegations. The post also coordinated with the CS
headquarters’ marketing team to promote Brazil as a featured export market. In addition, CS
works well with the other members of the U.S. mission in Brazil to foster bilateral trade. But
despite these efforts, the post still faces some challenges in coordinating efforts with external
stakeholders and some U.S. trade promotion agencies.

A.    CS Brazil’s external stakeholders form a challenging environment for U.S. exporters

While CS coordinates well with its partners, it must remain cognizant of its own objectives to
promote U.S. exports. We found that most of CS Brazil’s partners think highly of the post and
its operations. The American Chamber of Commerce (AmCham) has major offices in Sao
Paulo44 and Rio de Janeiro45 and satellite offices around the country, including in Belo
Horizonte, Brasilia and Porto Alegre. AmCham representatives, as well as those we met with
from the Federation of Industries and other trade partners, agreed that CS plays an important role
in fostering U.S. – Brazil trade. However, the fact is most AmCham members are actually local
Brazilian companies looking for opportunities to export their products to the U.S. rather than
U.S. firms looking to foster local Brazilian business relations. Specifically, we found the
Brazilian AmChams are primarily engaged in bilateral trade with an emphasis on selling
Brazilian goods. The SCO described the relationship as buy/sell – sell/buy. In other words,
AmCham members are looking for opportunities to sell their products in the U.S. but may also
need to purchase U.S. products to influence their position in the U.S. market. The SCO and his
staff are well aware of this business environment and understand the delicacy of this relationship
with the AmCham.

During our review, we found CS leverages opportunities where possible. We saw this in
particular in Belo Horizonte, where CS is collocated with the Federation of Industries (FIE). CS
has access to FIE’s meeting rooms and reception halls for events. On many occasions, FIE will
host CS events. In Belo Horizonte, we met with the local FIE president, who spoke highly of the
CS staff and emphasized that collocation was a benefit to CS and also to FIE’s members.

By contrast, CS Rio de Janeiro has a challenging relationship with AmCham Brazil - Rio. The
PCO told us that relations between the previous PCO and AmCham were strained, partly because
the PCO attempted to establish a U.S. business council outside of the AmCham. The new PCO
is attempting to revitalize the relationship and improve coordination with the AmCham.

44
   AmCham Sao Paulo is a non-profit organization whose mission is to constructively influence Brazilian and U.S.
public policy and promote trade, investment, and corporate citizenship. With seven branches located in Brasília,
Campinas, Curitiba, Recife, Goiania, Belo Horizonte, and Porto Alegre, AmCham Sao Paulo represents more than
5,000 companies.
45
   AmCham Brazil - Rio was the first AmCham established in Brazil and is located in Rio de Janeiro with a
membership of 500 Brazilian and foreign companies and over 2,000 corporate executives.


                                                       46
U.S. Department of Commerce                                                 Final Report IPE-18114
Office of Inspector General                                                            March 2007

CS Brazil should reconsider the NUSA program. For example, the post might use the NUSA
network to attract U.S. companies to Brazil rather than being primarily focused on bringing
international buyers to the U.S. In addition, the NUSA program needs to be revised to provide
information beyond what is already available on CS’ web site.

Recommendations

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
United States and Foreign and Commercial Service ensure that the following actions are taken
to improve CS Brazil operations:

   •   Increase CS Brazil’s promotion of local trade events to U.S. exporters and increase staff
       involvement in these shows.
   •   Examine the effectiveness of catalog shows and determine whether the post should
       discontinue them. If CS Brazil continues to promote catalog shows, take appropriate
       steps to provide better value to participants.
   •   Reevaluate CS Brazil’s goal system given the other constraints on the post’s resources,
       including:
           o Determine what goals may be achievable while helping to ensure balanced
               priorities and greater exports, and
           o Make any necessary adjustments to its performance goals.
   •   Increase CS Brazil’s production of more unplanned market research reports, since they
       inform U.S. exporters of recent developments in the Brazil marketplace.
   •   Reorganize and expand CS Brazil’s web site to include (a) best industry prospects,
       market research, and trade events by region, and (b) standards regulations, IPR and
       customs information.
   •   Evaluate the Retail Brazil program to determine whether the program should be
       continued.
   •   Establish a country-wide CS Brazil policy on the use of the APO mail delivery service,
       including the appropriateness of the use of the APO for the transport of client materials
       and temporary exports to Brazil for CS-sponsored events.
   •   Revise the post’s NUSA program to provide more value to both U.S. and Brazilian
       companies.




ITA Response to OIG Draft Report and OIG Comments

In response to our recommendation for CS Brazil to increase its involvement in local trade
events, ITA said that the implementation of the post’s revised industry team structure will
encourage increased promotion of trade events and provide a funding mechanism that will allow
for greater trade event participation by team members. ITA also identified increased promotion
of and participation in trade events as a major goal for the Export Promotion Working Group
within the on-going U.S.-Brazil Commercial Dialogue. We look forward to a status report on CS
Brazil’s involvement in local trade events in ITA’s action plan.


                                               43
U.S. Department of Commerce                                                    Final Report IPE-18114
Office of Inspector General                                                               March 2007

B.   CS Brazil continues to improve its coordination with U.S. government agencies

Our review found CS Brazil coordinates well with most of the U.S. embassy and consulate
sections in Brazil. The post also continues to foster its relationship with CS and ITA
headquarters offices, including Manufacturing and Services’ (MAS) Offices of Travel and
Tourism, Technology and Electronic Commerce, and Health and Consumer Goods. While some
staff of ITA’s Market Access and Compliance unit hoped for greater support from the post on
some policy and compliance issues, most U.S. officials in Brazil and ITA and State Department
headquarters, reported strong coordination with CS on trade facilitation, advocacy, and embassy-
wide initiatives. The Deputy Chief of Mission (DCM) praised CS and its SCO for their
commitment to trade promotion and emphasized the SCO’s important role in facilitating bilateral
trade with the local business community.

We found that some of CS’ mission-wide outreach activities could improve. For example, the
embassy periodically sends teams to areas in Brazil not immediately accessible to the embassy or
consulates. This provides a valuable opportunity for outreach with local governments on
economic and commercial affairs. However, the DCM reported that CS appears to face more
financial restrictions than other sections in the embassy and considers this a major hurdle to
Commerce’s outreach in Brazil. Similarly, the Consul General in Rio de Janeiro noted that
Brazil is a large country and this requires CS to travel to more outlying areas. However, he
stated that CS’ travel budget often restricts CS staff from visiting these areas. As a result, CS
may miss valuable contacts and opportunities for U.S. exporters, given its diminished travel
budget.

CS Brazil could also improve its cooperation with the Foreign Agricultural Service (FAS) at
post. As an example, in 2006 the Oakland USEAC arranged a virtual wine tasting with CS Belo
Horizonte and local industry representatives to promote U.S. wine in Brazil. In a positive effort
to coordinate across agencies, CS Brazil invited the Sao Paulo FAS to participate in the digital
video conference and provide additional expertise on the local Brazilian agricultural market.
However, the USEAC did not have the technical capabilities to connect all three parties—CS
Brazil, FAS, and the USEAC—via the digital video equipment. According to CS Brazil, FAS
insisted wine exports are under its jurisdiction and it should take priority for participating in the
video conference. So despite months of planning and coordination, CS Belo Horizonte withdrew
from participating in the conference, and FAS made the presentation. CS Brazil planned to
expand the virtual wine tasting to Sao Paulo and Rio de Janeiro. However, the post reports the
program made little progress due to lack of cooperation. We recommend CS Brazil work to
improve its cooperative efforts with FAS to help ensure the success of future collaborative
projects.

Recommendation

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
United States and Foreign and Commercial Service ensure that the following action is taken to
improve CS Brazil operations:




                                                 47
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                             March 2007

   •   Improve CS Brazil’s cooperative efforts with the U.S. Department of Agriculture’s
       Foreign Agricultural Service to help ensure the success of future collaborative projects.




ITA Response to OIG Draft Report and OIG Comments

In response to our recommendation, ITA stated that CS Brazil will continue to foster its strong
relationship with FAS at post, and will continue to share information and consult with FAS
colleagues on issues of mutual interest and overlapping responsibilities. ITA further added that
CS Brazil will redouble its efforts to keep lines of communication open when collaborating with
FAS on future trade events, particularly in locations where CS does not have face-to-face contact
with its FAS colleagues.




                                               48
U.S. Department of Commerce                                                Final Report IPE-18114
Office of Inspector General                                                           March 2007

VII.   Financial and Administrative Operations Are Generally Sound, but a Few Areas
       Require Additional Attention

In general, CS Brazil’s financial and administrative operations are sound. We found that CS
headquarters, as well as CS Brazil’s SCO, DSCO, PCOs and administrative manager, have done
a good job in managing the administrative staff and overseeing the financial operations of the
post. We also found that in general the financial and administrative FSN staff are experienced,
conscientious, and dedicated. But despite having generally good financial and administrative
operations, we did find some issues that warrant review and action.

A.     Discrepancies in post and headquarters accounting reports and inventory records
       should be reconciled

Both CS Brazil and CS and ITA officials in Washington, D.C. need a complete understanding of
the financial operations of the post to properly manage and oversee operations. As part of our
review, we analyzed financial reports in CS’ eMenu internal financial computer system, ITA
accounting reports, and other supporting documentation and found several discrepancies between
the different reports.

EMenu and ITA accounting reports could not be reconciled

Obligations, liquidations, and collections for transactions at CS overseas posts are processed
through the State Department’s accounting system. However, not all CS personnel have access
to the State Department’s system, so all CS posts, including CS Brazil, use the internal eMenu
system to track funds. CS Brazil enters all transaction information into the eMenu system and
routinely reconciles the State Department accounting reports to eMenu. Any inconsistencies
identified are to be reviewed and corrected. Once all financial information is recorded in the
State Department’s accounting system, it is transferred electronically to the ITA accounting
system, which is the official accounting record for CS Brazil.

We examined ITA’s accounting reports, which identify all expenditures, collections, and open
obligations, and compared them against financial reports from the eMenu system and various
supporting documentation. The ITA accounting reports are not easy to follow and do not reflect
a precise financial picture of CS Brazil’s operations. For example, when the collections are
summarized based on the job code number assigned to a specific product or service, the ITA
accounting report indicates negative collections for both FY 2004 and 2005 (see Table 12).




                                              49
U.S. Department of Commerce                                                                  Final Report IPE-18114
Office of Inspector General                                                                             March 2007

Table 12. Product and Services Expenditures and Collections for FY 2004 and FY 2005
                                                                             FY 2005                        FY 2004
                Product or Service                   Job No.
                                                                    Expenditures   Collections     Expenditures   Collections
      Commercial News U.S.A                           1ACN               $14,147               -               -             -
      International Company Profile                   1ACP               $13,534       ($8,480)         $12,835      ($9,500)
      International Partner Search                    1ADS               $16,467     ($10,600)          $10,803      ($7,600)
      Business Facilitation Service                   1BFS               $29,735       ($6,593)         $40,806       $13,502
      Customized Market Research                      1CFM               $12,666         ($295)         $17,000      ($9,900)
      Platinum Key Service                            1CPK               $22,879         $9,219         $34,411     ($12,400)
      BuyUSA.gov Business Service Provider            1ECV                $1,105         $3,600                -             -
      Gold Key Matching Service                       1GKY               $58,968     ($27,575)          $55,577     ($28,750)
      Post Initiated Event-Under $5K                   1PIE               $7,095         $5,413          $6,006        $9,248
      Trade Shows/Events                          Misc. Job Nos.         $50,202       ($3,611)         $44,081       $44,902
     Total P & S Expenses/Collections                                   $226,798     ($38,922)         $221,519        ($498)
Source: ITA Accounting Reports, dated March 31, 2006

However, eMenu reports indicate that trust fund collections totaled $339,612 for FY 2004 and
$219,492 for FY 2005. CS Brazil officials explained that some of these transactions were not for
collections but were for obligations and liquidations funded through trust fund accounts for
salaries and overtime expenditures. In addition, we know that some monies are not collected at
the post and would not be included in the ITA accounting reports but would appear in eMenu.
Consequently, the ITA accounting reports conflict with data reported in eMenu.

We selected a sample of 36 product and service-related collections from the ITA collections
report and attempted to match them to entries in eMenu. We could not find six transactions in
our sample (totaling $11,468) in eMenu. In addition, we found many of the transaction amounts
on the ITA accounting reports did not match the amounts reported in eMenu. CS Brazil officials
could not explain why these collections could not be located on eMenu, and stated that it is
possible these collections could have been processed either through headquarters or a USEAC
partner.

CS Brazil and ITA should examine the collections recorded in eMenu and the ITA accounting
collections reports to determine whether there are errors and, if so, make corrections to
accurately report the post’s actual finances.

EMenu reports do not provide a clear financial picture of post operations

Various eMenu trust fund collection reports for CS Brazil give inconsistent information and may
not be reliable for management decision-making. We compared five different eMenu reports
available to CS management and found various collection amounts on each report (see Table
13).46 For example, the trust fund aggregate report for FY 2005 indicates there were total
collections of $161,729, but the trust fund management report indicates that total collections for
the same fiscal year were $165,430, a $3,701 difference. CS officials said the difference might
be due to a collection received in one fiscal year that was later refunded in a different fiscal year.
Such discrepancies make it difficult for users of the eMenu system to determine the true financial
picture of the post.

46
  Some of these reports do not include collections for official and post-initiated events. As a result, we could not
include these products and services in our comparison.


                                                          50
U.S. Department of Commerce                                                     Final Report IPE-18114
Office of Inspector General                                                                March 2007

Table 13. CS Brazil FY 2005 Product and Services Collections Reported in eMenu
                                   Product         P&S Qtrly     Trust Fund    Trust Fund     Participation
       Product or Service
                                  Fulfillment      Collections   Aggregate     Management      Agreement
 Business Facilitation Service           $24,173       $24,173      $24,173         $28,565         $28,122
 Business Service Provider                $3,600        $3,600        $3,600         $3,600          $3,600
 Customized Market Research              $15,655       $15,655      $15,655         $15,655         $10,705
 Gold Key Service                        $71,216       $75,041      $75,041         $74,350         $61,151
 International Company Profile            $9,180        $9,180        $9,180         $9,180         $11,660
 International Partner Search            $13,800       $13,800      $13,800         $13,800         $12,300
 Platinum Key Service                    $20,280       $20,280      $20,280         $20,280         $40,075
                                       $157,904      $161,729      $161,729       $165,430         $167,613
Source: EMenu, October 19, 2006

CS Brazil’s methods of tracking collections and expenses in eMenu may not be accurate. For
example, the 2005 and 2004 trust fund aggregate reports listed a 2003 event—Growth Industry
2003—when all of the transactions associated with the event occurred during FY 2003.
Similarly, we found a fiscal year 2000 event posted to the 2005 trust fund aggregate report
because it appears that excess funds from the event were carried over to pay for a 2005 event.
We also found the post does not track Porto Alegre costs separately from Sao Paulo costs,
because Sao Paulo processes Porto Alegre transactions. Thus, there is no report available that
shows an aggregate picture of Porto Alegre’s authorized expenditures, obligations, and
liquidations. Since nothing was tracked under the Porto Alegre cost center, CS Brazil began
tracking costs associated with the standards attaché under the Porto Alegre office. According to
the post, when the position was funded by NIST, it seemed easiest to use a separate cost center to
track the standards attaché’s costs. The post continues to use the Porto Alegre cost center for the
attaché even though the position is now funded internally. However, it would seem to make
more sense to use the Porto Alegre cost center to track all Porto Alegre funds and to track the
standards attaché’s funds in Sao Paulo where the position is located. Another alternative would
be to create a cost center separate from each post to track only the attaché’s funds.

EMenu should be an effective management tool providing reliable, accurate and up-to-date
information. We found, however, that it would be very difficult to quickly obtain an accurate
financial snapshot of CS operations from any eMenu report. We recommend that CS and ITA
examine the eMenu system and rectify all errors and discrepancies. In addition, CS should
design a report for the eMenu system that provides an accurate, complete financial picture of the
post so all managers, at the post and headquarters, will review the same figures.

Accounting records for CS Brazil show inactive obligations

We also found that ITA’s official accounting report for open obligations (as of March 31, 2006),
which is maintained at headquarters, contained 10 unliquidated obligations for inactive CS Brazil
accounting transactions from FY 2000 through FY 2004. The value of the unliquidated
obligations totaled $30,162. However, when we asked CS Brazil about these open obligations in
late Summer 2006, the administrative manager indicated that the open obligations had been
closed. Old obligations should be deobligated in the ITA official accounting records. ITA
should require CS to examine open obligations on a regular basis and work with ITA to
deobligate any that are no longer needed.


                                                   51
U.S. Department of Commerce                                                                   Final Report IPE-18114
Office of Inspector General                                                                              March 2007

Inventory records are incomplete

During our review, we found that CS Brazil’s inventory records were not complete or accurate
and that CS Brazil was not timely in its disposal of obsolete or surplus property. We performed a
spot check of the inventory in each office and found equipment, including copiers, typewriters,
desktop computers and monitors, and a fax machine, that either was not on the inventory list and
did not have a bar code or had a bar code but was not on the inventory list. We also found old,
unused computers and copiers that should be sold, donated, or transferred through the embassy
or consulate General Services Office. CS Brazil should ensure that all applicable items are
included on its property lists and dispose of any excess inventory.

B.       CS Brazil could further decrease its ICASS charges

Over the past few years, CS Brazil has worked diligently to reduce its costs for International
Cooperative Administrative Support Services (ICASS) provided by the State Department at post.
ICASS costs are invoiced based on specific cost centers and a workload count, such as the
number of fiscal strip codes processed. The workload count is based on the previous year’s
count. While CS Brazil has closely monitored its ICASS charges to reduce it costs, we believe
that the post’s workload counts could be reduced to further lower its ICASS charges.
ICASS was established to eliminate duplicative administrative services at U.S. overseas missions and to charge
agencies for services provided by the State Department (State). State and the U.S. Agency for International
Development (USAID) provide administrative services to other U.S. government agencies operating overseas,
including the Department of Commerce. Agencies reimburse State and USAID a prorated portion of the costs
incurred for services, which are divided into 32 separate cost centers at large posts and 16 cost centers at smaller
posts. Each cost center has a specific workload factor used to allocate the service costs among all participating
overseas agencies. Agencies are also charged overhead and some staff costs (known as ICASS distribution
charges) not allocated to specific cost centers.

Source: CS and State Department staff; Foreign Affairs Manual


We questioned the workload counts for the Information Management Technical Support (IMTS),
International Voice Gateway (IVG), and the Reception and Switchboard cost centers.
Specifically, we found the post has more telephonic and other communications devices and
instruments than may be needed and therefore may be paying higher ICASS costs than is
necessary. For example, we found the number of network server work stations serviced for
IMTS does not correlate to the number of employees (see Table 14).

Table 14. ICASS Cost Center Workload Allocation Summary
                                                                                BRASILIA       RIO      SAO PAULO      TOTAL
               COST CENTER                        ALLOCATION METHOD
                                                                                  7 staff     8 staff     35 staff     50 staff
 Information Management Technical Support
                                                  No. of Devices Serviced            3          2            1            6
                   (IMTS)
   International Voice Gateway Lines (IVG)        No. of Instruments Serviced       n/a         5            10          15
          Reception & Switchboard                 No. of Instruments Serviced       14          15           62          91
Source: ICASS FY 2006 Cost Center by Agency report

For example, Brasilia has three work stations and seven current employees, while Sao Paulo,
with 35 employees, has only one work station. Our analysis of the IVG cost center, which is a


                                                          52
U.S. Department of Commerce                                                             Final Report IPE-18114
Office of Inspector General                                                                        March 2007

network that relays overseas calls through a switchboard located at a State Department annex in
Maryland, found CS Rio averages one IVG line for every two employees, while CS Sao Paulo
averages one IVG line for every four employees. Based on these numbers, it appears that the
IVG workload count for the Rio office is excessive. CS Brazil should review the workload count
to determine whether it should be reduced. Similarly, we found the Reception & Switchboard
cost center (the number of telephones serviced by ICASS), totaled 62 for Sao Paulo, an office
with only 35 current employees. Even taking into account that Sao Paulo may need extra
telephones for interns, 62 serviced instruments still seems high for a staff of that size.
Additionally, the Brasilia office only has seven employees but is charged for 14 telephone
instruments, and Rio, with only eight employees is charged for 15 telephone instruments. We
suggest that CS Brazil review its workload count for the IMTS, IVG, and Reception and
Switchboard cost centers to identify possible reductions. The post should not be paying for
telephones and lines that it does not need.

C.      Class B cashier and subcashiers may not be necessary at collocated posts

At the time of our review, CS Brazil had a Class B cashier and two alternates in Sao Paulo and
subcashiers in the Brasilia, Belo Horizonte and Porto Alegre offices. Class B cashiers are
accountable officers who are personally accountable for official funds designated to them or to
subcashiers under their supervision. CS Brazil’s Class B cashier currently has an advance of
$    , and the three subcashiers have various advances ranging from approximately $        to
$    , depending on the fluctuating exchange rate.

We question whether maintaining a Class B cashier on staff is cost effective and necessary for
CS Brazil since it is now collocated with the State Department’s financial management office
and its cashiers. CS Brazil is one of only two posts worldwide with a Class B cashier, a position
initially established because the post was not in the consulate. CS Brazil moved into the new
consulate in FY 2004. Now CS Brazil’s ICASS costs for cashiering services are comparable to
those of CS’ six largest CS posts, none of which has a Class B cashier (see Table 15). The post
is charged the same amount for cashiering services whether the transaction is processed through
the State Department Class B cashier or the CS Brazil Class B cashier. CS also must pay a Class
B cashier a higher salary and bonus than a non-Class B cashier at the same grade level.

                                                                                       It does not
appear that the added salary, fringe benefits and security-related costs, as well as the added risk
associated with the handling of an imprest fund, are worth the convenience of having a Class B
cashier at this post.




47
  An imprest fund is a fixed-cash or petty cash fund, in the form of currency, coin, or Government checks, which
has been advanced overseas by the State Department without charge to a Government appropriation or fund account,
or domestically charged against a bureau’s funds and advances, to an appropriately designated cashier for cash
payments or other cash purposes.


                                                      53
U.S. Department of Commerce                                                                          Final Report IPE-18114
Office of Inspector General                                                                                     March 2007

Table 15. ICASS Cashiering Costs at CS’ Six Largest Posts
                         2004 – Cashiering Services                         2005 – Cashiering Services
     Country     ICASS Cashiering         Percentage of Direct      ICASS Cashiering        Percentage of Direct
                      Costs                Program Budgeta                Costs               Program Budget
   Brazil           $12,614.00                   1.89%                 $17,139.00                  3.90%
   Mexico           $24,181.00                   5.45%                 $18,563.00                  7.43%
   China            $22,327.00                   2.02%                 $25,376.00                  2.29%
   Japan            $18,967.00                   4.49%                 $22,740.00                  5.09%
   India            $9,738.00                    2.61%                 $10,422.00                  2.69%
   Russia           $12,257.00                   3.43%                  $8,260.00                  4.67%
 a
   Direct program support (DPS) funding levels affect the number of cashier-related transactions and the
 corresponding amount of ICASS charges.
Source: eMenu, August 31, 2006; ITA ICASS Cost Summary

At the time of our review, CS Brazil also had a local-hire personal service agreement employee
who served as a subcashier at the Porto Alegre office. According to the OIO Administrative
Manual, subcashiers must be direct hire employees. CS headquarters should determine whether
this is appropriate and if so, revise the manual to permit use of a PSA employee as a subcashier.

CS Brazil should also evaluate the advance limits given to the CS Brazil subcashiers to
determine if advances are above what is needed. The Foreign Affairs Handbook states that the
advance given to a cashier should not exceed the amount of funds the cashier requires for 1
week’s activity, plus an amount sufficient to cover replenishment turn-around time.48 We found
CS Brazil subcashiers replenish their advances on average once every 3 to 4 weeks, which
suggests that the advances for two of the offices are above that needed for 1 week (see Table 16).

Table 16. CS Brazil Subcashiers’ 2006 Designated and Actual Cash Advances
                            Cashier’s Advance               Designated
        Location                                                             Difference
                           Real         U.S.$ a              Advance
 Belo Horizonte       R                  $             $ $              $$617.82
 Brasilia             R                  $              $                 $614.39
 Porto Alegre         R                  $             $ $              ($196.43)
 a
   An exchange rate of 2.1805 Real to the U.S. dollar was used to determine the
 actual cashier advance in U.S. dollars.
Source: Cashier Reimbursement Voucher and/or Accountability Reports and FMO
Designation Letters

The ITA OIO Administrative Manual states that all petty cash payments must be supported by
receipts and that all receipts must be original, show the date of purchase, be written or translated
in English, approved and signed by an officer and by the person receiving the payment.
However, we found some petty cash documentation did not contain all of the required
information. CS Brazil should ensure that receipts for petty cash payments include all of the
required information, approval signatures, and date and paid stamps.




48
     4 FAH-3 H-393.4-2


                                                              54
U.S. Department of Commerce                                                           Final Report IPE-18114
Office of Inspector General                                                                      March 2007

D.      Federal and local policies for gifts and bequests and travel vouchers and advances
        should be followed

During our inspection, we reviewed a sample of gift and bequest documents and travel vouchers.
We found instances where appropriate gift and bequest documentation49 (1) was not submitted
within the required timeframe, (2) did not include required information, and/or (3) was not
approved by the appropriate manager. We also found CS Brazil is not applying a consistent
travel voucher and travel advance policy.

The OIO Administrative Manual states that for travel and related gifts valued between $251 and
$3,500, the letter of commitment, travel order, CD-210, and SF-326 must be approved by the
SCO (for staff) and the OIO regional director (for the SCO), and submitted to the ITA Office of
Organization and Management Support (OOMS) at least 2 weeks prior to travel. Our review
found many instances when these documents were not approved and submitted 2 weeks prior to
travel, and two instances when the documents were not approved and submitted until after the
travel had commenced or been completed. We also found two instances where the
documentation was not approved by the SCO, and instead approved by the PCO at post.

In addition, we found several gift and bequest documents in our sample that did not contain all of
the required documentation, so we were unable to determine if they had been submitted properly
or approved by the appropriate manager. We also found other instances where proper
documentation could have clarified whether some gifts were appropriate. In one case, we could
not determine whether or not an employee had received an inappropriate gift of tickets to an
entertainment event because no documentation had been filed, although the employee had
alluded to complimentary tickets on a travel voucher.

We also found two instances in which a CS Brazil employee received a gift of first-class airfare.
The OIO Administrative Manual specifically states that CS employees are prohibited from
accepting first-class travel. The letter of commitment, CD-210, and SF-326 accompanying the
gift and bequest documentation for this travel, valued the airfare at $1,200, the price of this ticket
had it been coach airfare. However, during our fieldwork we obtained a copy of an e-mail
correspondence between CS employees and embassy personnel that indicated that the company
who donated this airfare was contacted by a CS employee and confirmed that the ticket had an
actual value of $6,000.

CS should train CS Brazil employees on the guidelines for what gifts may be accepted and the
requirements for reporting gifts, and managers should closely review all gift and bequest
documentation submitted by employees to prevent acceptance of unallowable gifts.

Travel voucher and travel advance processes need revisions

Our review of a sample of CS Brazil travel vouchers identified instances dating back to FY 2003
of travel vouchers not submitted within the required timeframe, travel advances granted in excess
of the 80 percent limit, and some excess funds not being returned by the employee at the

49
  This included CD-210, Record of Gift or Bequest; SF-362, Semiannual Report of Payments Accepted from a Non-
Federal Source; and letters of commitments from the company outlining the gift and bequest.


                                                     55
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

completion of the trip. As outlined in the OIO Administrative Manual, travel vouchers must be
submitted by the employee for processing within 5 working days following the completion of
travel. We found at least 10 instances where employees did not submit their travel vouchers
within the 5-day required time frame, and 2 vouchers were submitted by employees more than 80
days after the trip.

We also found inconsistent compliance with travel advance policies. According to the Foreign
Affairs Manual, a travel advance should only be issued to non-travel card holders in conjunction
with a travel authorization and should be limited to 80 percent of the out-of-pocket expenses that
the employee is expected to incur prior to reimbursement.50 We identified 13 instances in our
sample where employees received travel advances in excess of the limit without explanation or
appropriate approval. We found advances ranging from 103 percent to 128 percent of the
employee’s expected out-of-pocket travel expenditures. Additionally, we found three instances
where excessive travel advances were not repaid by employees in a timely manner, including
two that date back to fiscal year 2003, and which still had not been repaid to the government as
of October 2006. CS should ensure that CS Brazil staff members comply with applicable travel
voucher and advance request requirements, including submission of travel vouchers within five
working days after the completion of travel, limiting travel advances to 80 percent of estimated
out-of-pocket expenses and only to non-travel card holders, and timely repayment of excessive
travel advances.

E.         CS Brazil should establish a uniform telephone reimbursement policy

CS Brazil offices each have their own reimbursement policy for employees’ personal use of
telephones, cell phones, or fax machines. The OIO Administrative Manual requires use of U.S.
government telephone systems, equipment and related property be restricted for official business
and authorized calls only. Unauthorized personal calls are prohibited, even when the caller
intends to reimburse the government. Employees are required to charge personal calls using
government telephone systems or equipment that involve toll costs to their home telephone,
personal calling card, credit card, or to the receiving party. However, if the employee does use
the government telephone, the employee must maintain a personal monthly log to track long
distance calls and faxes, reconcile this log with the monthly phone bill, identify personal calls
and costs, including taxes, and pay the cashier for any personal long distance calls and faxes.
However, we found CS Brazil employees are not keeping adequate telephone logs, or
reimbursing the government for taxes applicable to personal phone calls and local expenses for
personal calls.

Sao Paulo and Belo Horizonte office employees receive a monthly telephone record from the
State Department and are supposed to review it and reimburse CS Brazil for any local and long
distance personal calls if the total charge exceeds 15 Reais, or approximately $7.50 U.S. dollars.
CS Brasilia employees must reimburse the government for all personal calls that exceed 5 Reais,
approximately $2.50 U.S. dollars. Rio de Janeiro staff only reimburse for personal long distance
calls, not personal local calls, even though the toll charges are almost as costly for local as long
distance calls. Rio de Janeiro employees must sign the telephone invoice as an indication that
they have reviewed it for personal calls. However, we found not all employees were consistently
50
     4 FAM, Section 463.3


                                                56
U.S. Department of Commerce                                                    Final Report IPE-18114
Office of Inspector General                                                               March 2007

reviewing the telephone bills for personal calls. And in some cases, the amount reimbursed by
the employee was only a few cents, so the ICASS cost to process the payment exceeded the
actual reimbursement amount. For example, in one instance, ICASS charges were more than 27
times the reimbursement: a Brasilia employee reimbursed CS Brazil .93 Reais, or 35 cents, for
personal calls. ICASS charged $9.59 to process the reimbursement.

CS Brazil needs to establish a comprehensive and fair telephone usage and reimbursement policy
that all CS Brazil employees must follow. CS Brazil also should revise the telephone bill
reviewing policy so reimbursements are paid every quarter instead of monthly, when appropriate,
to lower ICASS costs to process the payments.

F.       CS Brazil and ITA officials are not adequately tracking acquisition training for
         government purchase card holders

The Commerce Acquisition Manual (CAM) requires all purchase card holders and authorizing
officials to complete a web-based General Services Administration (GSA) Purchase Card
training course. Purchase card holders and authorizing officials must also complete a 40-hour
Simplified Acquisition training course prior to issuance of a purchase card or establishment as an
approving official. Purchase card holders and authorizing officials with single purchase limits
above $2,500 also must complete a minimum 24-hour refresher Simplified Acquisition training
course once every 5 years. CS Brazil and ITA officials were not able to provide us with
documentation to confirm that all CS Brazil purchase card holders and purchase card approving
officials had received the required training.

We did not find any problems with CS Brazil’s use of purchase cards, but without required
training, purchase card holders may not be fulfilling all the responsibilities and duties associated
with holding a purchase card, and approving officials may not be exercising the oversight
necessary to ensure proper use. CS Brazil should ensure that all purchase card holders and
approving officials have completed and passed all required training courses, including the
refresher training course.

Recommendations

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
United States and Foreign and Commercial Service ensure that the following actions are taken
to improve CS Brazil operations:

     •   Examine the collections recorded in eMenu and the ITA accounting collections reports to
         determine whether there are errors and discrepancies and, if so, make corrections to
         accurately reflect the post’s actual finances.
     •   Design a report for the eMenu system that provides an accurate, complete financial
         picture of the post so all managers, at the post and headquarters, will review the same
         figures.
     •   Examine open obligations on a regular basis and work with ITA to deobligate any that
         are no longer needed.




                                                 57
U.S. Department of Commerce                                                 Final Report IPE-18114
Office of Inspector General                                                            March 2007

   •   Dispose of excess or obsolete inventory and ensure that all applicable items are included
       on all CS and ITA property lists.
   •   Review the post’s ICASS workload count for the IMTS, IVG and Reception and
       Switchboard cost centers to identify possible reductions.
   •   Evaluate and make appropriate changes in CS Brazil’s cashiering and petty cash activities
       by:
            o Examining the cost effectiveness and potential risk of having a Class B cashier,
               and determine if CS could eliminate this function and use the State Department
               cashier.
            o Determining whether it is appropriate to have a local-hire personal service
               agreement employee as a subcashier and, if so, revise the manual to reflect this.
            o Evaluating the advance limits given to the CS Brazil subcashiers to determine if
               advances are above what is needed.
            o Ensuring that receipts for petty cash payments include all of the required
               information, approval signatures, and date and paid stamps.
   •   Improve post’s management of its gifts and bequests by:
            o Training CS Brazil employees on the guidelines for what gifts may be accepted
               and the requirements for reporting gifts.
            o Ensuring that managers closely review all gift and bequest documentation
               submitted by employees to prevent acceptance of unallowable gifts.
   •   Ensure that CS Brazil staff members comply with applicable travel voucher and advance
       request requirements, including submission of travel vouchers within five working days
       after the completion of travel, limiting travel advances to 80 percent of estimated out-of-
       pocket expenses and to non-travel card holders only, and timely repayment of excessive
       travel advances.
   •   Establish a comprehensive and fair telephone usage and reimbursement policy that all CS
       Brazil employees must follow, including revising the telephone bill reviewing policy so
       reimbursements are paid every quarter instead of monthly, when appropriate, to lower
       ICASS costs to process the payments.
   •   Ensure that all purchase card holders and approving officials have completed and passed
       all required acquisition training courses, including the refresher training course

We recommend that the Under Secretary for International Trade ensure that the following
actions are taken:

   •   Work with CS to examine CS Brazil’s eMenu financial records and ITA accounting
       reports to correct any errors and discrepancies and ensure that these reports accurately
       reflect the post’s actual finances.
   •   Work with CS to examine open obligations on a regular basis and deobligate any that are
       no longer needed.
   •   Work with CS to evaluate the cost effectiveness and potential risk of CS Brazil having a
       Class B cashier and determine if CS could eliminate this function and use the State
       Department cashier.




                                               58
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007




ITA Response to OIG Draft Report and OIG Comments

ITA’s response indicated that both ITA and CS were taking aggressive action to address our
concerns regarding CS Brazil’s and ITA headquarters’ financial and administrative operations.
ITA stated that it will develop reporting procedures to help address and reconcile any accounting
discrepancies that might occur between the eMenu and ITA accounting reports. Additionally,
CS will continue to work with ITA to improve the functionalities of eMenu accounting and the
financial reports that are provided to management in Washington and at CS posts. ITA assured
us that all nonpending open obligations through FY 2005 have been identified and closed and
that CS Brazil will examine obligations on a monthly basis and close them as soon as these
obligations have been liquidated. ITA also reported that it will be implementing a new
accounting system in FY 2008 and is working with the new vendor to make accounting reports
available at post. We commend ITA and CS Brazil for the actions they are taking and ask that a
copy of the new reporting procedures be provided in its action plan or when they are completed.

ITA indicated CS Brazil has completely reviewed all inventory records, including those located
at headquarters, and reconciled any discrepancies. In ITA’s response, CS confirmed that Brazil
does in fact have seven vehicles, which reflects the total in the CS OIO Western Hemisphere
Office inventory records. As a result, we recounted the number of vehicles on both lists and
concur that there are seven vehicles. We have removed this example in the final report. ITA’s
response also acknowledged some of the other discrepancies. ITA stated that the Office of
Organization and Management Support will work with CS to assure that all accountable items
are properly bar-coded and included in the ITA property inventory by the next quarterly
inventory which was to be completed by the end of February 2007. CS Brazil is also currently in
the process of requesting disposal of certain inventory items, including one vehicle located at the
Brasilia office, and adding others items to the inventory listing that were not previously included.

ITA commented that CS Brazil took several steps to decrease its ICASS costs in 2005 and 2006,
resulting in a decrease of five percent for CS Brazil, while total ICASS costs for the U.S. mission
in Brazil increased by 15 percent. In response to our recommendation, CS Brazil verified the
number of computers and telephone lines counted for ICASS to ensure that those counts are
accurate. CS Brazil will modify the number of telephone lines required for its current
operations, given staff deductions. Additionally, CS Brazil has reviewed the IVG lines used for
the ICASS count and determined that that IVG lines will not result in any ICASS charges
beginning in FY 07. CS Brazil will also verify the number of State computers and telephone
lines used by the ICASS service providers to ensure that these counts are accurate as well. If the
counts in the ICASS cost center are overstated, CS Brazil said it would correct them, resulting in
lower costs accumulated at the ICASS cost center and redistributed to CS Brazil. We would
appreciate inclusion of a cost savings analysis for all of these items in ITA’s action plan.

While CS Brazil’s review of the effectiveness and potential risk of having a Class B cashier is
not yet completed, ITA noted that it would continue to work with CS to reevaluate the use of
cashiers system-wide. ITA said that OFM endorses the elimination of CS Class B cashiers and



                                                59
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                              March 2007

sub-cashiers where the need for their operation is not thoroughly substantiated, and it will assist
CS with its review of the Class B cashier’s operation in Sao Paulo. In addition, CS Brazil stated
that it felt it was appropriate to have a local-hire personal service agreement (PSA) employee as
a subcashier for its Belo Horizonte office and that it obtained proper approval for this decision
from management. While our report was actually referencing the position in Porto Alegre, ITA
did not address whether the OIO Administrative Manual would be revised to reflect that the use
of a PSA employee as a subcashier was an approved method. Meanwhile, ITA did state that it
reviewed the advance limits given to the subcashiers to determine if they were appropriate and
found that the advance given to the CS Belo Horizonte cashier was appropriate but agreed to
lower the advance given to the Brasilia subcashier. However, ITA’s response failed to mention
the CS Sao Paulo and CS Rio de Janeiro cashiers. Additionally, ITA assured us that they will
make certain that all required approval signatures, dates, and paid stamps are included on all
petty cash receipts.

ITA also stated that CS Brazil will provide comprehensive training to all American officers and
FSNs to ensure that they know the rules and their roles for the requirements related to the gift
and bequests process, and for travel advances and travel vouchers. With respect to CS Brazil’s
management of its gifts and bequests, ITA did not specifically address the numerous and
questionable incidents we identified in our draft report. However, in response to our
recommendation, ITA stated that CS Brazil were scheduled to provide comprehensive training to
all officers and FSNs in February 2007. The training would reportedly ensure that all CS Brazil
staff know the rules and their roles in the gifts and bequests process. CS Brazil will also, in
writing, remind travelers upon return to post of the requirement to submit travel vouchers within
five working days. While ITA agreed that CS Brazil staff need training in these areas, it stated
that the State Department’s mission-wide policy in Brazil authorizes travel advance limits of 100
percent when FSN employees travel to the United States because employees are not always
reimbursed the appropriate amounts, due to exchange rate differences and additional taxes they
must pay when they use their personal credit cards. ITA’s response did not address the issue
that excessive travel advances were not repaid by employees in a timely manner, and that travel
advances were sometimes approved in excess of 100 percent of the out-of-pocket expenses that
the employee is expected to incur. We feel that CS Brazil should limit any travel advance to 100
percent of expected out-of-pocket expenses, routinely review any travel advances that are
outstanding, and require employees to reimburse the government for any excess travel advances.

Finally, ITA stated that CS Brazil will work with the OIO Western Hemisphere Office and the
Office of Organization and Management Support to ensure that all purchase card holders are
properly trained and that all training documentation is retained at post. In addition, CS Brazil
will develop a country-wide telephone usage and bill reviewing policy, including a
reimbursement timetable, in order to reduce ICASS vouchering costs. When this policy is
developed we ask that ITA provide us with a copy.




                                                60
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                                     2007
                                                                                         March 2006

                          SUMMARY OF RECOMMENDATIONS

We recommend that the Assistant Secretary for Trade Promotion and Director General of the
United States and Foreign and Commercial Service ensure that the following actions are
taken to improve CS Brazil operations:

   1.    Evaluate and clarify the roles and responsibilities of the CS Brazil SCO, DSCO and Sao
         Paulo PCO to ensure the most effective use of resources and coordination of country-
         wide programs (see page 6).
   2.    Work with the CS Brazil SCO, ITA’s standards liaison and NIST to identify
         measurable long-term goals and resource commitments to support standards
         development in the Mercosul and the Western Hemisphere Regional Standards Protocol
         and the standards attaché’s regional activities (see page 6).
   3.    Work with USPTO to develop a work plan for and clarify the CS Brazil and regional
         responsibilities of the IPR attaché in Brazil. In addition, ensure that support staff is in
         place and adequate funds are available to the attaché to pursue his mission (see page 6).
   4.    Provide the local American hire office director in Belo Horizonte with new officer or
         other appropriate CS management training (see page 6).
   5.    Review and clarify CS’ current administrative document signatory policy for local hires
         and advise CS Brazil as to whether the CS Belo Horizonte office director is authorized
         to sign certain administrative and financial documents (see page 6).
   6.    Explore the potential for greater use of local hire American office directors, such as the
         one in Belo Horizonte, as a cost-effective management alternative for other CS posts
         around the world (see page 6).
   7.    Outline a strategy to continue fostering the business contacts and opportunities
         developed by the Porto Alegre specialist before CS loses contact with valuable partners
         in the area (see page 13).
   8.    Develop a stronger marketing plan to increase U.S. business awareness of CS Brazil
         operations and export opportunities in Belo Horizonte, Brasilia, and Porto Alegre and
         better leverage the market opportunities in areas outside Sao Paulo and Rio de Janeiro
         (see page 13).
   9.    Evaluate and make a decision among the varied options for CS’ coverage of northeast
         Brazil, including collocation with the U.S. consulate in Recife, or opening a non-
         collocated office in Recife or in another city within the northeast as a more cost
         effective option (see page 13).
   10.   Assess the existing industry team structure, and the number and assignment of industry
         sectors among CS Brazil staff, and consider implementing changes that may improve
         productivity and foster a spirit of cooperation among the team members located
         throughout CS Brazil, including:
           a. Assigning team leaders regional as well as country-wide goals,




                                                61
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                                    2007
                                                                                        March 2006

           b. Requiring all team members to play an active role in developing assigned sectors
              within their regions, and
           c. Rotating the opportunity to travel with International Buyer Program delegations
              among team members (see page 13).
   11.   Revise the CS Operations Manual’s definition of an invalid export success to include
         claims of export successes that directly foster foreign exports, such as the rental of
         booth spaces at U.S. trade shows for foreign companies to exhibit their products for
         sale in the United States (see page 21).
   12.   Remove all invalid and questionable CS Brazil export successes from CS’ database (see
         page 21).
   13.   Review export success performance data for CS Brazil and all CS posts worldwide to
         identify erroneously awarded office credits based on relocated officers and adjust the
         reported numbers (see page 21).
   14.   Confirm that each post and USEAC understands and are following CS’ October 2006
         revised export success reporting guidance and verification procedures, including:
           a. Maintenance of export success documentation that can be used to verify all the
              necessary components of a valid export success story, and
           b. Validation of export successes using CS’ approved verification procedures for CS
              officers (see page 21).
   15.   Encourage CS Brazil staff to more regularly record export successes throughout the
         fiscal year to prevent a year-end overload (see page 21).
   16.   Reevaluate CS Brazil’s discretionary travel budget in an effort to ensure that the post
         has adequate resources to complete its mission (see page 29).
   17.   Assess the cost effectiveness of trust fund employees and determine whether any
         alternatives, such as transferring some of the positions to the operating and
         administrative budget or eliminating the positions completely, would be a better use of
         financial resources (see page 29).
   18.   Develop a more effective strategy to increase or maintain trust fund collections while
         also increasing the number of core products and services provided to U.S. clients, such
         as Gold Key services and customized market research (see page 29).
   19.   Increase CS Brazil’s promotion of local trade events to U.S. exporters and increase staff
         involvement in these shows (see page 34).
   20.   Examine the effectiveness of catalog shows and determine whether the post should
         discontinue them. If CS Brazil continues to promote catalog shows, take appropriate
         steps to provide value to participants (see page 34).
   21.   Reevaluate CS Brazil’s goal system given the other constraints on the post’s resources,
         including:
           a. Determine what goals may be achievable while helping to ensure balanced
              priorities and greater exports, and
           b. Make any necessary adjustments to its performance goals (see page 34).


                                               62
U.S. Department of Commerce                                                  Final Report IPE-18114
Office of Inspector General                                                                    2007
                                                                                        March 2006

   22.   Increase CS Brazil staff’s completion of more unplanned market research reports, since
         they inform U.S. exporters of recent developments in the Brazil marketplace (see page
         34).
   23.   Reorganize and expand CS Brazil’s web site to include (a) a regional orientation to
         enable users to search best industry prospects, market research, and trade events by
         region, and (b) standards regulations, IPR and customs information (see page 34).
   24.   Evaluate the Retail Brazil program to determine whether the program should be
         continued (see page 34).
   25.   Establish a country-wide CS Brazil policy on the use of the APO mail delivery service,
         including the appropriateness of the use of the APO for the transport of client materials
         and temporary exports to Brazil for CS-sponsored events (see page 34).
   26.   Revise the post’s NUSA program to provide more value to both U.S. and Brazilian
         companies (see page 34).
   27.   Improve CS Brazil’s cooperative efforts with the U.S. Department of Agriculture’s
         Foreign Agricultural Service to help ensure the success of future collaborative projects
         (see page 43).
   28.   Examine the collections recorded in eMenu and the ITA accounting collections reports
         to determine whether there are errors and discrepancies and, if so, make corrections to
         accurately reflect the post’s actual finances (see page 49).
   29.   Design a report for the eMenu system that provides an accurate, complete financial
         picture of the post so all managers, at the post and headquarters, will review the same
         figures (see page 49).
   30.   Examine open obligations on a regular basis and work with ITA to deobligate any that
         are no longer needed (see page 49).
   31.   Dispose of excess or obsolete inventory and ensure that all applicable items are
         included on all CS and ITA property lists (see page 49).
   32.   Review the post’s ICASS workload count for the IMTS, IVG and Reception and
         Switchboard cost centers to identify possible reductions (see page 49).
   33.   Evaluate and make appropriate changes in CS Brazil’s cashiering and petty cash
         activities by:
         a. Examining the cost effectiveness and potential risk of CS Brazil having a Class B
            cashier, and determine if CS could eliminate this function and use the State
            Department cashier.
         b. Determining whether it is appropriate to have a local-hire personal service
            agreement employee as a subcashier and, if so, revise the manual to reflect this.
         c. Evaluating the advance limits given to the CS Brazil subcashiers to determine if
            advances are above what is needed.
         d. Ensuring that receipts for petty cash payments include all of the required
            information, approval signatures, and date and paid stamps (see page 49).
   34.   Improve CS Brazil’s management of its gifts and bequests by:


                                               63
U.S. Department of Commerce                                                   Final Report IPE-18114
Office of Inspector General                                                                     2007
                                                                                         March 2006

         a. Training CS Brazil employees on the guidelines for what gifts may be accepted and
            the requirements for reporting gifts.
         b. Ensuring that managers closely review all gift and bequest documentation
            submitted by employees to prevent acceptance of unallowable gifts (see page 49).
   35.   Ensure that CS Brazil staff members comply with applicable travel voucher and
         advance request requirements, including submission of travel vouchers within five
         working days after the completion of travel, limiting travel advances to 80 percent of
         estimated out-of-pocket expenses and to non-travel card holders only, and timely
         repayment of excessive travel advances (see page 49).
   36.   Establish a comprehensive and fair telephone usage and reimbursement policy that all
         CS Brazil employees must follow, including revising the telephone bill reviewing
         policy so reimbursements are paid every quarter instead of monthly, when appropriate,
         to lower ICASS costs to process the payments (see page 49).
   37.   Ensure that all purchase card holders and approving officials have completed and
         passed all required acquisition training courses, including the refresher training course
         (see page 49).


We recommend that the Under Secretary for International Trade ensure that the following
actions are taken:

   38.   Work with CS to examine CS Brazil’s eMenu financial records and ITA accounting
         reports to correct any errors and discrepancies and ensure that these reports accurately
         reflect the post’s actual finances (see page 49).
   39.   Work with CS to examine open obligations on a regular basis and deobligate any that
         are no longer needed (see page 49).
   40.   Work with CS to evaluate the cost effectiveness and potential risk of CS Brazil having
         a Class B cashier and determine if CS could eliminate this function and use the State
         Department cashier (see page 49).


We recommend that the Director of the National Institute of Standards and Technology
ensure that the following action is taken:

   41.   Coordinate with the Commercial Service and ITA’s standards liaison to identify
         measurable long-term goals and resource commitments for the CS standards attaché to
         support standards development in the Mercosul region and the Western Hemisphere
         Regional Standards Protocol (see page 6).




                                                64
U.S. Department of Commerce                                                Final Report IPE-18114
Office of Inspector General                                                                  2007
                                                                                      March 2006

We recommend that the Under Secretary of Commerce for Intellectual Property and Director
of the U.S. Patent and Trademark Office ensure that the following actions are taken:

   42.   Work with the Commercial Service to develop a work plan for and clarify the CS Brazil
         and regional responsibilities of the new intellectual property rights attaché in Brazil
         (see page 6).
   43.   Collaborate with the Commercial Service to ensure that adequate support staff and
         travel funds are available to the attaché to pursue his mission (see page 6).




                                              65
                                                           '"              ...




  S. Department of Commerce                                                                                     Final Report IPE- 18114
Office of Insoector General                                                                                                        2007
                                                                                                                           March 2006


                       APPENDIX A. IT A' s Response to OIG Draft Report

                                                                      OF

                                                                            '1-
                                                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                      . lAf
                                                                \;t           \1.
                                                                                    The Deputy Under Secretary for
                                                        (:Pi
                                                           ~.or..Of.
                                                                                    International Trade
                                                                                    Washington. D. C.   20230


                                                                                      FEB         2007




                     MEMORANDUM FOR:              Jill Gross
                                                  Assistant Inspector General for
                                                  Inspections and Program Evaluations

                     FROM:                        Michelle O' Neil1~

                     SUBJECT:                     Response to Draft DIG Report - CS Brazil is
                                                  Operating Well Overall But Needs Management
                                                  Attention In Some Areas



                     Thank: you for your thorough review   ofCS Brazil operations. ITA' s response is
                     attached.

                     If you have questions about our response, please contact me or Director General
                     Israel Hernandez.


                     Attachment




                                                                                                                      ~O,
                                                                                                                     ~m.
u.s. Department of Commerce                                                                            Final Report IPE-18114
Office of Insoector General                                                                                               2007
                                                                                                                    March 2006




                    Response to the Office of Inspector General' s Report on the United States and Foreign
                                              Commereial Service ("CS") Brazil

                 We recommend that the Assistant Secretary for Trade Promotion and Director General of
                 the United States and Foreign and Commereial Service ensure that the following actions are
                 taken to improve CS Brazil operations:

                     1. Evaluate and  clarify the roles and responsibilities of the CS Brazil SCO, DSCO, and

                                  wide programs.
                          Sao Paulo PCO to ensure the most effective use of resourees and coordination of
                          country-

                    Response: Based on its comprehensive review of CS Brazil operations, the es has
                    determined that both the SCD and DSCD positions must be located in the commercial capital
                    in Soo Paulo in order to effectively manage CS operations throughout Brazil.

                    The Deputy Senior Commercial Dfficer (DSeD) position is cUlTently located in Brasilia, at a
                    significant distance from the SeD, as well as from the largest operation for which the DSeD
                    has oversight. Additionally, the primary focus of work in Brasilia is government-to-
                    government commercial relations, while the other CS offices in Brazil focus on the full range
                    ofCS activities, including export promotion, commercial diplomacy, advocacy, standards
                    and !PR. Further, as the majority of the DSCD' s time is dedicated to policy and supporting
                    the Ambassador, he has less time to focus on countly-wide management.

                    To implement this new management structure, the DSeD position will be moved from
                    Brasilia to Soo Paulo , and the Principal Commercial Officer (peD) position will be moved to
                    Brasilia. The es formalized these changes through State Department' s NSDD-38 process.
                    The roles and responsibilities will be as follows:

                    a) The SeD' s primary responsibilities include:
                         e Implementipg the Administration s goals and objectives to outline CS Brazil's countly
                         commercial goals and objectives,
                         eProviding overall direction of commercial operations,
                         eOverseeing the commercial activities at commercial offices throughout CS Brazil,
                         eProviding advice and counsel to the U. S. Ambassador
                         eAdvancing U. S. Government policy agenda.


                    b) The DSeD' s primary responsibilities include:
                         eSupervising day-to-day operations of all CS offices in Brazil to ensure optimum
                         performance of es Brazil as a whole through the most effective use of its personnel and
                         available resources
                         eAssisting the SCD with es Brazil' s goals and objectives,
                         eKeeping the SeD informed of the status ofeS operations countly-wide
                         eMaking decisions in consultation with the SeD,
                         eServing as SCD in the absence of the seD.

                     c) The BrasiliaPCD' s   primary responsibilities include:
                         eManaging the commercial section in Brasilia,
                         eProviding direction to the export promotion functions of the office,
                         eAdvancing the Administration s policy agenda in Brazil' s capital,
                         eRepresenting the SCD on the Embassy Countly Team when the SCD is unable to attend.
u.s. Department of Commerce                                                                              Final Report IPE- 18114
Office of Insoector General                                                                                                 2007
                                                                                                                    March 2006




                           The peo will report to and receive general guidance from the SCO and DSCO, located in
                           Sac Paulo , and will keep them fully informed of activity in Brasilia. The pca will
                           receive local guidance from the DCM and Ambassador in Brasilia.

                     2. Work with        the CS Brazil SCO, ITA standards liaison and NIST to identify long-
                           term go~ and resource commitments to support standards development in the
                           Mercusol and the Western Hemisphere Regional Standards Protocol and the
                           standards attache' s regioual activities.

                    Response: The es notes that the Director of the National Institute of Standards and
                     Technology (NIST) also received this draft recommendation. The es Brazil seo will work
                    with the ITA standards liaison and NIST to develop measurable long-term goals and resource
                    commitments to support standards development in South America. These goals will be based
                    on the Western Hemisphere Standards Action Plan, which was prepared by the ITA standards
                    liaison, standard attaches , and NIST.

                    The es notes that the standards attache will primarily focus on regional standards
                    development, but that occasionally, he may be assigned responsibilities supporting
                    Administration high level visits, e. g. Secretarial visits.

                    The es also notes that the draft IG report states that NIST and INMETRO will work together
                    in the U.    Brazil Commercial Dialogue standards group to address technical regulations in
                    the coming year. The es would like to note that ITA is actively engaged in and leading some
                    portions of this effort.

                    3. Work with      USPTO to develop a work plan for and clarify the CS Brazil and
                          regional responsibilities of the new IPR attache in BraziJ. In addition, ensure that
                          support staff is in place and adequate funds are available to the attache to pursue
                          his mission.

                    Response:   CS Brazil is working with USPTO to develop an IPR Action Plan for Latin
                    America. The plan will address the CS Brazil and regional responsibilities of the IPR attache
                    while furthering the missions of the es and USPTO. This regional action plan will build on
                    the Brazil!PR Workplan created by the IPR Working Group under the U. Brazil
                    Commercial Dialogue the Secretary of Commerce launched in Rio de Janeiro in June 2006.

                    With respect to staffing, CS Brazil is in the process of hiring an !PR Commercial Specialist to
                    support the !PR attache. CS Brazil anticipates the position will be filled in the coming months
                    after the State HR office has reviewed the position description , classified the position, and
                    advertised it.

                    USPTO and the es have agreed on this FY07 budget for the Regional IPR attache. The latter
                    has confirmed that his FY07 budget includes sufficient funding for anticipated regional and
                    in-countly travel requirements.

                    4. Ensure that     the local American hire office director in Belo Horizonte attends new
                          officer and other appropriate CS management training.

                    Response:    CS Belo Horizonte Director John Mueller is scheduled to attend the April 16-
                    2007, New SCOIPCO Training in Washington, D. C. The es OlO Western Hemisphere
  S. Department of Commerce                                                                                Final Report IPE- 18114
Office of Insoector General                                                                                                   2007
                                                                                                                      March 2006




                   Office will also consider providing him individual training at a local institute when he is in
                   Washington, D. , and explore other training opportunities for him throughout 2007.

                   5. Review and     clarify CS' current administrative document signatory policy for local
                         hires and advise CS Brazil as to whether the CS Belo Horizonte office director is
                         authorized to sign certain administrative and financial documents.

                  Response:   The es OlO Western Hemisphere Office will work with the CS Office of
                  Strategic Planning and the CS Office of Foreign Service Human Resources to review the
                  administrative and financial document signatory policy for local hires and to ensure that CS
                  Brazil is aware of and adheres to the policy.

                  6. Explore the     potential for greater use of local hire American office directors, such as
                        the one in Belo Horizonte, as a cost-effective management alternative for other CS
                        posts around the world.
                  Response:   This approach has been used in several instances in the CS Europe and East Asia
                  Pacific regions with positive results. Specifically, the CS has employed local hire American
                  officers in Dusseldorf and Hamburg for the past ten years, and in China for the past two
                  years. The CS hired Americans as PSCs (personal services contracts) who in effect run the
                  day-to-day operations in the cities where they reside. This approach allows other CS officers
                  to be placed in other markets and reduces CS costs considerably. The es will continue to
                  explore greater use of this approach around the world.

                  7. Outline a   strategy to continue fostering the business contacts and opportunities

                        partners in the area.
                        developed by the Porte Alegre specialist before the CS loses contact with valuable


                  Response:  The Sao Paulo PCO has visited Porto Alegre twice since the closure of the
                 Porto Alegre office in October 2006, when our local employee resigned. The purpose of these
                 visits was to meet with officials and business associations to brief them on es Brazil and Sao
                 Paulo Consulate activities, and CS contacts and programs. These Porto Alegre officials and
                 associations are registered with the CS Brazil website, and receive regular monthly updates
                 on all programs and activities. Registered associations include the local AmCham, the state
                 Federation ofIndustly (FIERGS), two commerce federations , the local small business
                 association, and travel and tourism operators.

                 FIERGS will collaborate with es Sao Paulo and the Sao Paulo Federation ofIndustly to host
                 2007' s "Year of the USA." As part of this program, CS Brazil will organize Brazilian buyer
                 delegations to visit large shows in the U. S. and actively recruit throughout Brazil, including
                 the states of Rio Grande do SuI and Santa Catarina. which are within the es Porto Alegre
                 coverage area. This recruitment will keep es Brazil teams in touch with our partners in these
                 states. In addition, the NetworkUSA (NUSA) Team leader will maintain contact with these
                 institutions until another visit can be arranged by the new peo who should arrive in countly
                 in March 2007.
u.s. Department of Commerce                                                                            Final Report IPE- 18114
Office of Insoector General                                                                                               2007
                                                                                                                  March 2006




                  8. Develop a stronger    marketing pian to increase U.S. business awareness of CS Brazil
                        operations and export opportunities in Belo Horizonte, Brasilia, and Porto Alegre
                        and better leverage the market opportunities in areas outside Sao Paulo and Rio de
                        Janeiro.

                  Response:  es Brazil is working on a revised strategic plan, which includes a marketing plan.
                  During the October 2006, All-Hands meeting, es Brazil identified the following ways to
                  expand market presence across Brazil, which it will implement during the CUlTent fiscal year:

                  eImprove its webpage content and design along industIy teams,
                  eRevamp its industly team structure to encourage proactive approaches for best prospect
                  sectors,
                  eIncrease countly-wide outreach efforts through the Network USA (NUSA) program. NUSA
                  Team works as the marketing team for all of es Brazil and, in FY07, will focus outreach to
                  Northeast, Midwest, South, and Southeast Brazil. with a focus on establishing new multiplier
                  contacts for those areas where es Brazil does not have offices, or where new FSN-managed
                  offices can benefit from increased NUSA Team contact development assistance,
                  eMove the DSeO position to Sao Paulo to strengthen coordination.

                  9. Evaluate and     make a decision among the varied options for CS' coverage of
                        northeast Brazil, including rollocation with the U. S.
                                                                           consulate in Recife, or opening
                        a noncollocated office in Recife or in another city within the northeast as a more
                        tost effective option.

                  Response:   In October 2006, CS/OIO/Deputy Assistant Secretary Dan Harris traveled to
                  Brazil to conduct a management review. He visited three cities , including Recife. CS
                  coverage of the northeast was among the issues he discussed with CS and State Department
                  officers, including DCM Phil Chicola. After evaluating several options - namely 1) a
                  standalone office in the region with a single employee, 2) an office collocated with an
                  AMCHAM, and 3) location in the Consulate in Recife - CS management selected the third as
                  the best approach at this time.

                  Subsequently, DAS Harris sent a letter to DCM Chicola to accept his offer of support to
                  locate a es employee in Recife and to formalize the State Department' s offer to waive
                  IeASS fees at this location. SCO John Harris will follow up with the DeM for a status
                  update. Once we receive State Department' s concurrence , we will move forward in opening
                  the position in Recife.

                  10. Assess the existing industry team structure, and the number and assignment of
                      industry sectors among CS Brazil staff, and consider implementing changes that
                      may improve productivity and foster a spirit of tooperation among the team
                      members located throughout CS Brazil, including:
                         a. Assigning team leaders regional as well as country-wide goals,
                         b. Reqniring all team members to play an active role in developing assigned
                             sectOrs within their regions, and
                         c. Rotating the opportunity to travel with the International Buyer Program
                             delegations among team members.

                  Response: es Brazil spent a full day during its October 2006 , All. Hands meeting to discuss
                  and develop a new industly teams program. Concrete steps to implement the new team
u.s. Department of Commerce                                                                           Final Report IPE-18114
Office of Insoector General                                                                                            2007
                                                                                                                 March 2006




                 structure began immediately after the All-Hands meeting. As a result, es Brazil identified
                 many of the underlying issues and concerns that limited effective cooperation, developed a
                 new system utilizing input from all stakeholders, and is cUlTently implementing the new
                 structure. Specifically, the new structure employs several strategies such as:

                 eConsolidating the number of teams for better alignment with ITA Global Teams and best
                 prospects,
                 eClarifying roles and responsibilities ofteam leaders and members,
                 eCreating a reward structure focused on team achievement through cooperation, rather than
                 individual competition,
                 eImproving communication between offices
                 eereating team budget and collection strategies to increase team member participation in
                 trade events, and
                 eEncouraging proactive marketing and outreach for key industries utilizing the website and
                 other mechanisms.

                Nine industiy teams have been developed plus a customs team for trade facilitation. All
                Teams provide the SCO an annual plan of activities and budget for collections and expenses.
                Teams are expected to cany out the following:

                eRespond to client inquiries with copies to Team Members and Coordinators
                eRespond to general Team Coordinator requests,
                e Volunteer to participate on client conference calls or in other client counseling sessions
                eParticipate in Team s outreach agenda,
                ePropose, market and participate in DVCs/Webinars with ODO, Trade Americas, Global
                Teams, and U. S. based partners promoting business opportunities in the team' s industry,
                eRecruit participants for Team ffiPs, Trade Missions, and other buyer delegations, participate
                in/volunteer for key industiy trade shows in Brazil and the U. , respect Team Coordinators
                for their Leadership Position,
                eProactively participate in Team s annual planning and workplan reviews, and
                eRespect the Team Coordinator s role as the Team s facilitator.

                11. Revise the   CS Operations Manual' definition of an invalid export success to include
                      claims of export success that directly foster foreign exports, such as the rental of
                      booth spaces at U.S. trade shows for foreign companies to exhibit their products for
                      sale in the United States.

                Response:   The CS will take this recommendation under advisement. U. S. trade show
                organizations are a legitimate part of the American services sector. The es works closely
                with trade fair organizations to promote exports.

                12. Remove all invalid and questionable CS Brazil export successes from CS' database.

                Response:  CS Brazil will work with the es Office of Strategic Planning to remove all invalid
                and questionable CS Brazil export successes from the es export success repository.
  S. Department of Commerce                                                                                 Final Report IPE- 18114
Office of Insoector General                                                                                                  2007
                                                                                                                       March 2006




                  13. Review export success performance data for CS Brazil and all CS posts worldwide
                      to identify erroneously awarded office credits based on relocated officers and adjust
                      the report numbers:

                  Response:  The es 010 Western Hemisphere Office will work with es Brazil and the CS
                  Office of Strategic Planning to conduct a review of es Brazil export successes and remove
                  erroneously awarded office credits. The CS 010 Western Hemisphere Office will also advise
                  the Office of Strategic Planning on the broader CS scope of this recommendation.

                  14. Confirm that each post and USEAC understands and are following CS' October
                      2006 revised export success reporting guidance and verification procedures,
                      including:
                          a. Maintenance of export success documentation that can be used to verify all
                              the necessary components ofa valid export success story, and
                          b. Validation of export suceesses using CS' approved verification procedures
                              for CS officers.

                  Response:    CS Brazil management will reiterate the es' latest export success reporting
                  guidance and verification procedures at the CS Brazil All-Hands meeting that will be held in .
                  April 2007. During the April 2007, meeting and throughout FY07, CS Brazil management
                  will also stress the importance of preserving export success documentation and the CS'
                  approved verification procedures. The CS 010 Westem Hemisphere Office will also advise
                  the Office of Strategic Planning on the broader CS scope of this recommendation.

                  CS, with support from the Planning and Performance Management Staff in the Office of
                  Financial Management, works to ensure effective implementation of export success
                  verifications. ITA supports the need to improve documentation of export successes as
                  identified in the IG recommendations for CS Brazil as well as adherence to the October ES
                  guidelines.

                  OFM has most recently instituted an independent on-going export success verification
                  process in the domestic field during the fourth quarter of FY 2006. This effort will be
                  expanded in FY 2007 to address export success verification at selected overseas posts. This
                  review will become a second level of independent verification to further enhance CS
                  upgrades to its export success internal controls.

                  ITA also concurs that the IG has raised substantial issues in this draft report as well as several
                  previous inspection reports regarding the Export Success metrics and the collection/reporting
                  process. This has lead ITA senior management to the conclusion that ITA will lead and
                  conduct an in-depth and detailed program evaluation of Export Successes and the ES business
                  processes. This review will be designed and completed during the next two quarters ofFY
                  2007 and will be conducted by the Planning and Performance Management Staff with
                  involvement from the Office of Organization and Management Support and es.

                  The purpose of this review is to assess the export success planning, collection and reporting
                  functions performed by the Commercial Service and to evaluate the workload, costs, benefits,
                  and contribution to the CS mission and functions. The review will examine existing
                  background information and will build on data collected from IG reports and through
                  interviews with domestic field staff and overseas contributors to export successes.
  S. Department of Commerce                                                                             Final Report IPE-18114
Office of Insoector General                                                                                        March 2007
                                                                                                                          2006




                  The review will obtain opinions from es staff to benchmark the performance metries against
                  other public and private organizations involved in export promotion and assistance. This
                  study will provide ITA and CS management with a detailed analysis of ES functions and
                  examine the appropriateness of these ES metrics to demonstrate results and outcomes that
                  relate to the DOC support for each key function. The study will also furnish a candid and
                  timely assessment of costs and functions at post and in domestic locations to assess how
                  representative ES is to the CUlTent es mission.

                  15. Encourage CS Brazil staff to more regularly record export successes throughout the
                        fiscal year to prevent a year-end overload

                  Response:   CS Brazil management will coach staff to follow-up with clients routinely after
                  providing a service in order to mine for export successes continuously throughout the year.
                  First line managers will check each quarter to see how many export successes have been
                  recorded and discuss performance with Commercial Specialists and Commercial Assistants.

                  16. Reevaluate CS Brazil' s discretionary travel budget in an effort to ensure that the
                        post has adequate resources to complete its mission.

                  Response:    es Brazil' s total discretionary travel budget for FY06 was $56 189. This is
                  different than the $83 443 number as noted in the draft DIG report. The reason for this
                  discrepancy is because the hotel contract (total cost: $27,254) for the CS Brazil All-Hands
                  October 2006 meeting was listed under the incorrect category in eMenu. es Brazil corrected
                  this error in eMenu subsequent to the IG' s visit.

                  es Brazil' s discretionary travel budget was reviewed during the FY07 budgeting process. For
                  FY07, $107 079 has been proposed and budgeted for travel , an increase of$50, 89O from
                  FY06. This will allow for:
                  eMore FSNs to attend industly trade shows,
                  eFSOs and FSNs to travel to important countly-wide meetings,
                  eThe seo to participate in the U. Brazil Commercial Dialogue meetings
                  eThe regional travel for the standards attache.

                  17. Assess the cost effectiveness of trust fund employees and determine whether any
                        alternatives, such as transferring some of the positions to the operating and
                        administrative budget or eliminating the positions completely, would be a better use
                        of financial resources.

                   Response:  The CS is reviewing the management, budget, and operations in Brazil , which
                  includes staffing levels.

                  18. Develop a more effective strategy to increase or maintain trust   fund collections
                       while also increasing the number of core products and services provided to U.
                       clients, such as Gold Key services and customized market research.

                  Response:  The issues of collection and use of trust funds were raised numerous times during
                  the October 2006 es Brazil All-Hands meeting. At that time, CS Brazil officers formed a
                  team to review these issues and to develop possible solutions. As a first step, CS Brazil is
                  developing a system so that all officers and employees understand the process of collection
                  and disbursement of trust funds.
u.s. Department of Commerce                                                                               Final Report IPE- 18114
Office of Insoector General                                                                                          March 2007
                                                                                                                             2006




                  Relative to the CS worldwide, es Brazil' s collections are substantial and have consistently
                  increased over the past couple of years. These funds are generated by CS Brazil' s balanced
                  and aggressive trade promotion program that provides U. S. firms with es products and
                  services that are appropriate for the Brazilian market. The total amount of trust funds
                  available for discretionary use is considerably lower after covering the direct costs of services
                  and several PSA salaries.

                   19. Increase CS Brazil' s promotion oflocal trade events to U. S. exporters and increase
                       staff involvement in these shows.

                  Response:   The implementation ofCS Brazil' s revised industly teams structure will
                  encourage increased promotion of trade events , as well as provide a funding mechanism that
                  will allow for greater participation by industly team members in these events. On a general
                  policy level, increased promotion and participation in trade events has been identified as a
                  major goal for the Export Promotion Working Group (chaired by CS) within the ongoing
                        Brazil Commercial Dialogue.

                  20. Examine the effectiveness of catalog shows and determine whether the post should
                      discontinue them.    CS Brazil continues to promote catalog shows, take appropriate
                      steps to provide value to participants.

                  Response:        The CS Product Enhancement Team initiated a formal review of catalog events .
                  worldwide during FYO7 to analyze ways to improve their marketing and effectiveness. That
                  said, the CS Customer Relationship Management Unit (CRMU) tracks customer trends with
                  catalog events through surveys and analyzes the results. The CRMU recommends that catalog
                  events be marketed as an inexpensive way to test the market in a specific countly and that,
                  instead of trade leads, a market exposure report is prepared for the client. This report would
                  provide responses to the client' s product, lead to further discussion with the client regarding
                  ently into a particular countly, and help identifY the next steps.

                  21. Reevaluate CS Brazil' s goal system given the other constraints on the post'
                      resourees, including:
                              a. Determine what goals     may be achievable while helping to ensure balanced
                                   priorities and greater exports, and
                              b.   Make any necessary adjustments to its performance goals.

                  Response:   CS Brazil constantly reevaluates its goal system in the context of its resources and
                  local market conditions. Given the size of the countly and variety of markets in which each
                  office is located, CS Brazil management believes it is necessary to allow for flexibility in
                  setting performance goals at each office, and to allow each manager to employ all the tools at
                  their disposal to properly motivate their individual staffs. For example, the performance
                  goals for Sao Paulo are targeted to trade promotion activities, whereas Brasilia s goals reflect
                  the commercial diplomacy activity with government agencies in the capital city. The
                  Balanced Scorecard (BSC) system will help us to capture commercial diplomacy as a new
                  performance measure, while export successes will still measure the traditional es products
                  and services that directly support U. S. exporters.
  S. Department of Commerce                                                                                Final Report IPE- 18114
Office of Insoector General                                                                                                   2007
                                                                                                                      March 2006




                  22. Increase CS Brazil staff's completion of more unplanned market researeh reports,
                      since they inform U.S. exporters ofrecent developments in the Brazil marketplace.

                  Response:    es Brazil will include increased   unplanned market research in its FYO? strategic
                  plan and provide funding, if available, to renew subscriptions to key industrial periodicals
                  that local staff uses as sources for timely market research. It is worth noting that although
                  production numbers have dropped, CS Brazil still leads Latin America s CS posts in the
                  number of unplanned market research reports. We believe that the number of unplanned
                  market research reports dropped in FYO6 due to the unprecedented number of VIP visits and
                  Congressional Delegations to Brazil in FYO6, along with the cancellation of industly
                  periodical subscriptions as a result of budget cuts.

                  23. Reorganize and expand CS Brazil' s website to include (a) regional orientation to
                      enable users to search best indnstry prospects, market research, and trade events by
                      region, and (b) standards regulations, IPR, and customs information.

                  Response:  es Brazil will redesign its English language website to include a regional
                  dimension, beyond the current sector       industly orientation. The regional coverage will
                  provide u. s. exporters with a broader understanding of opportunities in Brazil. Additionally,
                  pages on standards regulations, !PR. and customs information will also be added to enhance
                  the value of the site for U. S. exporters.

                  24. Evaluate the Retail Brazil program to determine whether the program should be
                      continued.

                  Response;   Based upon on a recent review, CS Brazil has decided against formalizing this
                  program. The pilot was unsuccessful for several reasons:
                  eAlthough U. S. firms initially demonstrated strong interest, client demand dropped off
                  significantly once the price was finalized to reflect full costs
                  eThe sectors included in this program, namely cosmetics and retail consumer goods, faced
                  numerous regulatory challenges.

                  es Brazil is cUlTently sharing lessons learned and expertise with other posts that have
                  expressed an interest in doing something similar in their countries. The concept could work in
                  select posts where purchasing power is stronger, and tariff structures are less onerous than in
                  Brazil. CS Rio has already provided extensive feedback and lessons learned to Central
                  American posts, which are considering their own retail initiative.

                  25. Establish a country-wide CS Brazil policy, in accordance with State Department
                        policy, on the nse of the diplomatic pouch service, including the appropriateness of
                        pouch use for the transport of client materials to Brazil for CS-sponsored events.
                  Response:   As discussed during the IG team s visit to Brazil , there is a distinction between the
                  APO and the diplomatic pouch. The U. S. military operates theAPO and services U.
                  embassies throughout the world under an agreement with the State Department. (Note: State
                  Department is starting a Diplomatic Postal Office next fiscal year and will discontinue use of
                  APO.
  S. Department of Commerce                                                                               Final Report IPE-18114
Office of Insoector General                                                                                                2007
                                                                                                                     March 2006




                  CS Brazil has not used the Diplomatic Pouch for the transport of client materials. es Brazil is
                  working with the Military Liaison Office in Brasilia to determine a policy that will be used
                  throughout es offices in Brazil.

                  26. Revise the post' s NUSA program to provide more value to both U.S. and Brazilian
                        companies.

                  Response:  During the October 2006 All-Hands meeting, es Brazil decided to form a " NUSA
                  Team" that would identify the best ways for NUSA and es Brazil to collaborate to increase
                    S. exports. The Team concluded that:

                  e NUSA Program is a highly effective outreach, marketing, and recruitment tool that allows
                  post to reach audiences outside the scope of the internet.

                  e NUSA will be most effective by serving as the marketing arm for the nine industry teams
                  and ensuring countly-wide outreach.

                  e NUSA is a low cost method for the CS to counter the well-fmanced European Union s AL-
                  Invest Program that grants significant funds to Brazilian multipliers. By making multipliers
                  NUSA Partners, es Brazil gains their support without granting them funds. It should be
                  noted that most of these multipliers are hundreds - and some thousands - of miles from the
                  nearest es office in Brazil. While the linkages created  through NUSA are not as strong a
                  link as the EU creates by granting funds , es Brazil's NUSA program is a more cost-effective
                  method.

                  e NUSA multipliers provide CS Brazil with support when U. S. companies and USG
                  delegations visit their regions. They also provide es Brazil with contacts when we set up
                  Gold Key Services and when we work to identify potential Brazilian representatives and
                  importers of U. S. manufactured goods.

                  27. Improve CS Brazil' s cooperative efforts with the U. S. Department of Agriculture
                      Foreign Agricultural Service to help ensure the suecess of future collaborative
                      projects.

                  Response:  CS Brazil will continue to foster its strong relationship with F AS at post, and will
                  continue to share information and consult with F AS colleagues on issues of mutual interest
                  and overlapping responsibilities. When collaborating on future trade events , es Brazil will
                  redouble efforts toward keeping lines of communication open, particularly in locations where
                  we do not enjoy face-to-face contact with our colleagues.

                  28. Examine the eoUections recorded in eMenu and the ITA accounting collections
                        repo~ to determine whether there are errors and discrepancies and, if so, make
                        corrections to accurately reflect the post' s actual finances.

                  Response:  The es will work with ITA Accounting to develop reporting procedures in order
                  to provide post with a tool to address and reconcile any discrepancies. Currently, overseas
                  posts do not have access to the ITA accounting records. They reconcile to the Department of
                  State records. The ITA is implementing a new accounting system in FY08 and is working
                  with the new vendor to make the accounting reports available at post.
u.s. Department of Commerce                                                                             Final Report IPE- 18114
Office of Insoector General                                                                                                2007
                                                                                                                   March 2006




                29. Design a report for the eMenu system that provides an accurate, complete financial
                    picture of the post so all managers, at the post and headquarters, will review the
                    same figure.

                Response:   The es will continue working with ITA finance and information technology staff
                to improve the functionalities of eMenu finance. es Brazil's eMenu report entitled " Trust
                Fund Management Report" provides an accurate and timely report of trust collections
                expenditures and ending balances. The O&A " Spending Report" provides the same snapshot
                for O&A funds. With accurate and timely input and upkeep of all accounts, eMenu has
                existing reports that can provide financial information to managers at post and in
                Washington. However, es Management always welcomes improvements in reports to help
                managers make timely decisions.

                30. Eumine open obligations on a regular basis and work with ITA to deobligate any
                      that are no longer needed.

                Response:  The Department of State is working with the es to develop online access to State
                Department records, which will enable post to monitor daily obligations, expenses,
                collections, and ending balances. CS Brazil has reviewed all its open obligations through FY
                2006 and closed all obligations through 2005 except for a FY2004 obligation that we found to
                be a 477 Transaction. This specific 477 Transaction was a procurement of residential
                furniture made through the GSA who paid the contractors but has not yet charged es Brazil.
                FMe at the Embassy informed es Brazil that they (State Department' s Financial
                Management) cannot close this obligation because it "normally takes several years until
                Washington will actually charge CS Brazil against this obligation and we must keep it open
                until that charge arrives." After that, es Brazil will close the obligation and deobligate the
                balance, if any. We will continue to review FY06 and FY07 obligations on a monthly basis
                and close them as soon as all the liquidations for those obligations have been processed.

                31. Dispose of excess of obsolete inventory and ensure that all applicable items are
                    included on all CS and ITA property lists.

                Response:    es Brazil has completely reviewed inventory records. CS Brazil is now in the
                process of requesting disposal of certain items and adding other items to CS Brazil'
                inventory. CS Brazil added four typewriters and four printers to inventory. The GX560
                desktops are located in the server room where they are kept as spares. CS Brazil accounted
                for all fax machines, which now have bar coded labels. Additionally, in regard to monitors,
                prior to FY04 , CRT monitors were not separately inventoried but were included on the same
                bar code as the CPU. Finally, in the case of automobiles, CS Brazil' s inventory records
                properly reflected seven vehicles (five in the Sao Paulo ledger, and one each in Brasilia and
                Belo Horizonte), which matches the actual automobile inventory in Brazil, and reflects the
                total in the CS 0l0 Westem Hemisphere Office s inventory records. The CS 0l0 Western
                Hemisphere Office will reconcile this item with the ITA accounting records. CS Brazil has
                been working to divest itself of the van in Brasilia for some time. Unfortunately, it
                encountered significant delays in receiving the necessary approval from the Brazilian
                government to dispose of the vehicle. This GOB permission has been obtained and the
                vehicle will be sold at the next Embassy auction. ITA' s Office of Organization and
                Management Support (OOMS) will work with es to assure that all accountable items are
                properly bar-coded and included in the ITA property inventory by the time of the next
                quarterly inventory scheduled for completion the end of February. OOMS will also assist the
                es to properly document all surplus items and remove them from inventory.
u.s. Department of Commerce                                                                              Final Report IPE-18114
Office of Insoector General                                                                                                2007
                                                                                                                    March 2006




                    32. Review the post' s ICASS workload count for the IMTS, IVG and Reception and
                          Switchboard cost centers to identify possible reductions.

                    Response:   es Brazil is making concerted efforts to reduce CS Brazil' s IeASS costs. In fact,
                    between 200S and 2006, when total ICASS charges in Brazil increased by IS percent, CS
                    Brazil cut its ICASS costs by five percent. CS Brazil has reviewed IeASS and learned that
                    NG lines will result in no ICASS charges beginning in FY07.

                    es Brazil reviewed the way in which computers are counted under     ICASS, and learned there
                    are not three computers in Brasilia, but rather a epu and monitor (counted as one computer
                    under ICASS), a UPS (counted as another computer under IeASS), and a printer (counted as
                    a third computer under ICASS). We were told that these are three different pieces of
                    computer equipment that are counted separately under ICASS for maintenance purposes. CS
                    Brazil recounted CS Brazil' s telephone lines to ensure accuracy. It will now rightsize to the
                    proper number required for CS Brazil' s ongoing operations, given staff reductions.

                    Additionally, es Brazil will verify the number of State computers and telephone lines used
                    by the IeASS service providers to ensure that those counts are accurate as well. If the work
                    counts in the ICASS cQst center are overstated, CS Brazil will correct them, resulting in lower
                    costs accumulated at the IeASS cost center. This action will result in lower costs later being
                    redistributed to CS Brazil (9.28 percent ofICASS total in Soo Paulo, 3. 30 percent in Rio and
                      29 percent in Brasilia) from that ICASS cost center.

                    33. Evaluate and make appropriate changes in CS Brazil' s cashiering and petty cash
                        activities by:
                                a. Examining the    cost effectiveness and potential risk of CS Brazil having a
                                     Class B cashier, and determine if CS could eliminate this function and use
                                     the State Department cashier.
                                b.   Determining whether it is appropriate to have a local- hire personal service
                                     agreement employee as a subcashier and, if so, revise the manual to reftect
                                     this.
                                Co Evaluating the advance limits given to the CS Brazil subcashiers to
                                   determine if advances are above what is needed.
                                d. Ensuring that   receipts for petty case payments include all of the required
                                     information, approval signatures, and date and paid stamps.

                    Response:
                    a. With ITA' s Office of Financial Management, the CS is currently reevaluating the use of
                    cashiers system-wide. The analysis is not yet complete.
                    b. es Brazil went through proper management channels in headquarters to get formal
                    approval to have a local-hire personal service agreement employee to serve as subcashier in
                    Belo Horizonte due to the special circumstances of that office.
                    c. During FY06, the Belo Horizonte cashier incurred R$ xxxxxxx psh expenses,
                    which amounts to a weekly average of approximately R$ 642 ($). Their advance was
                    adjusted to USD 999. 00 in April 2006, and es Brazil will leave it at that level, since there are
                    times when they need more than the weekly average, and because (as the only usa presence
                    in Belo Horizonte) they have no means to obtain a quick replenishment.
                    Regarding the Brasilia subcashier, for FY200S and FY06 the subcashiers average weekly
                    cash expenses were $SOO , therefore, we will lower that subcashiers cash advance to $es Brazil      will make certain   that all required approva
                    are included on petty cash receipts.
u.s. Department of Commerce                                                                                Final Report IPE- 18114
Office of Insoector General                                                                                              March 2007
                                                                                                                               2006




                    34. Improve SC Brazil' s management ofits gifts and bequests by:
                           a. Training CS Brazil employees on the guidance for what gifts may be
                               accepted and the requirements for reporting gifts.
                           b. Ensuring that managers closely review all gift and bequest documentation
                               submitted by employees to prevent acceptance ofunaIlowable gifts.

                    Response:    In February 2007, es Brazil will provide comprehensive training to all American
                    Officers and FSNs to ensure that they all know the rules and their roles in the gifts and
                    bequest process. es Brazil will also exercise management authority to ensure that the rules
                    are strictly followed and that only appropriate gifts and bequests are approved or accepted.

                    35. Ensure that CS Brazil staff members comply with applicable travel voucher and
                          advance request requirements, including submission of travel vouchers within five
                          working days after the completion oftraveI, limiting travel advances to 80 percent
                          of estimated out-of-pocket expenses and to non-travel card holders only, and timely
                          repayment of excessive travel advances.

                    Response:   In February 2007, CS Brazil will provide comprehensive training to all American
                    officers and FSNs to ensure that they all know the rules and their responsibilities regarding
                    travel and the timely submission of Travel Vouchers. In addition to training, CS Brazil will,
                    in writing, remind the traveler upon return to post of the requirement to submit the travel
                    claim voucher within five working days after returning to post.

                    Regarding the travel advance, State Department' s mission-wide policy authorizes 100 percent
                    travel advance entitlement to FSNs, provided the FMO    approves it. The FMe Officer at
                    Embassy Brasilia wrote the following justification for this mission-wide policy:

                           This is one oftOOse rare instances that the practical answer and the general practice in
                         the field are different than what the regulations state. I feel very comfortable stating that
                         the large majority of posts have some form of policy that advances 100 percent of
                         authorized per diem funds to FSNs when they are traveling to the U.     S. I have contacted
                         Travel and Allowances in Washington and spoken to numerous colleagues woo have been
                         told that it is up to FMO and post to decide whether they want to adopt the 100 percent
                         advance policy for FSNs traveling to the States. I concur with this approach"

                    The following are reasons why the mission established this policy in Brazil:

                    e When FSNs use their personal credit card overseas to pay for official travel expenses they
                    are charged various taxes and the exchange rate used by the bank card is punitive and
                    different from the one used by the Embassy,
                    eMany FSNs have lost money when receiving their travel reimbursement       for official travel.


                    By establishing this post policy, FSNs can pay the hotel expenses and meals by having
                    sufficient cash advance to cover official travel expenses.
  S. Department of Commerce                                                                               Final Report IPE- 18114
Office of Insoector General                                                                                                  2007
                                                                                                                     March 2006




                     36. Establish a comprehensive and fair telephone usage and reimbursement policy that
                         all CS Brazil employees must follow, including revising the telephone bill reviewing
                         policy so reimbursements are paid every quarter instead of monthly, when
                         appropriate, to lower ICASS costs to process the payments.

                     Response:  CS Brazil is investigating this item further, in order to develop countly-wide
                     telephone usage and telephone bill reviewing policies, which will be discussed during the All
                     Hands meeting in April 2007. CS Brazil will also adopt reimbursement timetables, as
                     appropriate for each office, in order to reduce IeASS vouchering costs.

                     37. Ensure that all purchase card holders and approving officials have completed and
                           passed all reqnired acquisition training courses, including the refresher course.

                     Response:   CS Brazil will work with the es 0l0 Western Hemisphere Office to ensure that
                     all FSNs and officers, who have any role with the procurement cards, are properly trained. CS
                     Brazil will also retain the documentation at post to demonstrate their dates of training. The
                     Office of Organization and Management Support will assure that all employees with
                     procurement card roles complete required training.

                     38. Work with CS to examine CS Brazil' s eMenu financial records and ITA accounting
                         reports to correct any errors and discrepancies and ensure that these reports
                           aeeurately reflect the post' s actual finances.

                    Response:     The draft report states: "Once all financial information is recorded in the State
                     Department' s accounting system, it is transferred electronically to the ITA accounting
                     system, which is the official accounting record   for CS Brazil." Should the situation occur
                     where the es financial staff in Brazil either posts transactions to eMenu but not to the State
                     Department accounting system, or to the State Department system but not to eMenu
                     discrepancies will result. Both systems have merit, but only the StatelITA accounting system
                     is recognized by the Treasury Department as being the official accounting record   for   all of
                     ITA, including es Brazil.

                    ITA' s Office of Financial Management (OFM), working with the staff at the Department of
                    Interior s National Business Center in Denver, will provide any additional financial
                    information that pertains to CS Brazil that would assist es in reconciling the eMenu system
                    with the official accounting records.

                    39. Work with CS to examine open obligations on a regular basis and deobligate any
                        that are no longer needed.

                    Response:      OFM, working with Interior s National Business Center, will provide whatever
                     level of support would be helpful to the es staff in Brazil and Washington to facilitate their
                    review of open obligations.

                     40. Work with CS to evaluate the cost effectiveness and potential risk of CS Brazil
                         having a Class B cashier and determine if CS could eliminate this function and use
                         the State Department cashier.

                       Response:   OFM endorses the elimination of CS Class B cashiers and sub-cashiers where
                       the need for their operation is not thoroughly substantiated. OFM will assist CS with
u.s. Department of Commerce                                                                               Final Report IPE- 18114
Office of Insoector General                                                                                                  2007
                                                                                                                     March 2006




                  scrutinizing the Class B cashier s operation in Soo Paulo, Brazil in response to this
                  recommendation.
u.s.   Department of Commerce                                                                                   Final Report IPE- 18114
Office of Insoector General                                                                                                March 2007
                                                                                                                                 2006


                          APPENDIX B. NIST' S Response to OIG Draft Report


                                                          .J"'
                                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                                              National Institute of Standards and Technology
                                                                              Gaithersburg. Maryland 20899-0001
                                                                 """ of P'    OFRCE OF THE OIRECTOR
                  FEB       7 2007




                MEMORANDUM FOR Johnnie E. Frazier
                               Inspector General

                Through:          Robert C. Cresanti
                                  Under Secretary for Technology

                From:             William Jeffrey 11.
                                  Director
                                                         1)/
                Subject:          NIST Response to Draft Inspection Report No. IPE- 18114 Entitled
                                   INTERNATIONAL TRADE ADMINISTRATION: CS               Brazil is
                                  Operating Well Overall But Needs Management Attention               in   Some Areas

                                                                          CS Brazil is Operating Well
                Thank you for providing the draft inspection report entitled

                Overall But Needs Management Attention      Some Areas. I commend you on the
                                                                         in

                thoroughness of your review and the quality of your recommendations.

                We agree with your comment that the National Institute of Standards and Technology (NIST)
                and the International Trade Administration (ITA) must work together to develop a standards
                strategy for South America. We also agree that there are some inconsistencies of perception.

                In fact, NIST already has begun work with ITA -- specifically, the Office of the Standards
                Liaison (OSL) and the Commercial Service (CS) -- to develop a plan to identifY measurable
                long-term goals for the Standards Attache. We also are working on an action plan for a long-
                term standards strategy for South America to benefit U. S. exports. ITA and NISI are
                currently reviewing a regional standards program implementation plan. which is serving as
                the basis for establishing those goals and an action plan. Those documents are expected to be
                completed in the next few months.

                Your draft report notes that "NISI and ' Brazil' s National Institute of Metrology,
                Standardization, and Industrial Quality (INMETRO), in coordination with the private sector,
                will begin to exchange information and strengthen standards, conformity assessment, and
                technical regulations in the coming year. " You should know that, in addition to NIST
                ITA's Office of the Standards Liaison is actively involved in the design and delivery of the
                exchange of information with Brazil on standards , conformity assessment, and technical
                regulations.

                I look forward to receiving the final version of your report. If you have any questions, please
                contact Steve Willett on (301) 975- 8707.




                                                                                                                  NISr
u.s.     Department of Commerce   Final Report IPE- 18114
Office    of Insoector General                       2007
                                               March 200 7ENDIX              C. USP




                                                               UNITED STATES PATE
                                                                    UNDER SECRIITARY Of COM
                                                                     DIRECTOR Ofl1!B UNITBO




                                          MEMORANDUM FOR                     Jill GToss
                                                                             Assistant I
                                                                               Inspectio

                                          FROM:                              Robert St
                                                                             Director, O

                                          SUBJECT:                           Response
                                                                             CS    Brazil I
                                                                             Management At



                                          This is in response to your January 3 , 20
                                          Director  Jon W. Dudas, regarding Draft Ins
                                          Overall But Needs Management Attention



                                          Thank you and your team for a thorough
                                          Brazil, including those ofthe United Sta

                                          Attached for your review is an action pla
                                          efforts based on your recommendation.

                                          If you have any questions concerning th
                                          (571) 272-9300.

                                          Attachment




                                                                  P.O. Box 1450. Alexandria
                                                                                                                                            .....
                                                                                                                                         ~.....




                                                   USPTO Plan of Action and Milestones
              CS Brazil Is Operating Well Overall But Needs Management Attention In Some Areas " - Report IPE- 18114

DOC Ins ector General Recommends: USPTO work with CS to develop the regional responsibilities of the intellectual property rights
                                  attache recently assigned to Brazil and ensure the availability of support staff and adequate travel
                                  funds"



     Recommendations                     Corrective Actions                    Due Date                 Lead                  Status

1. (Listed as No. 42)                  USPTO has created a                 By late              . John Rodriguez       . In   Process
Work with the                          Latin America Regional            January 2007
Commercial Service to                  Team to support the
develop a work plan for                operations of the CS
and clarify the CS Brazil              intellectual property rights
and regional                           attache.
responsibilities of the
new intellectual property              The USPTO Latin America
rights attache in Brazil               Regional Team is working
                                       with CS and the intellectual
                                       property attache in Brazil
                                       to develop an Action Plan
                                       for the region.


2. (Listed as No. 43)                  USPTO has authorized                 Completed           . Terri Davis          . Completed
Work with the                          hiring and budget for
Commercial Service to                  support staff.
ensure that adequate
support staff and travel               USPTO has approved CS
funds are available to the             Brazil budget for
attache to pursue his                  intellectual property
mission.                               attache and fully obligated
                                       fund for 2007 , including
                                       adeQuate travel funds.
                                                                                                                                                :::t




                                                                                                                                         ~ Oc
                                                                                                                                         2007




                                                                                                                                         Q\ 01:0..
